<html>
<title> - LEGISLATIVE HEARING ON H.R. 3593, H.R. 4261, H.R. 4281 AND OTHER DRAFT LEGISLATION</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]




LEGISLATIVE HEARING ON H.R. 2018, H.R. 2088, H.R. 2119, H.R. 2529, H.R. 
    3671, H.R. 3876, H.R. 4095, H.R. 4102, H.R. 4141, AND H.R. 4191

=======================================================================

                                HEARING

                               before the

       SUBCOMMITTEE ON DISABILITY ASSISTANCE AND MEMORIAL AFFAIRS

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                       WEDNESDAY, MARCH 26, 2014

                               __________

                           Serial No. 113-60

                               __________

       Printed for the use of the Committee on Veterans' Affairs


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



         Available via the World Wide Web: http://www.fdsys.gov
         
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

87-673                         WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001         
         
         
         
         
         
         
         
         
         
         
         
         
                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

DOUG LAMBORN, Colorado               MICHAEL H. MICHAUD, Maine, Ranking 
GUS M. BILIRAKIS, Florida, Vice-         Minority Member
    Chairman                         CORRINE BROWN, Florida
DAVID P. ROE, Tennessee              MARK TAKANO, California
BILL FLORES, Texas                   JULIA BROWNLEY, California
JEFF DENHAM, California              DINA TITUS, Nevada
JON RUNYAN, New Jersey               ANN KIRKPATRICK, Arizona
DAN BENISHEK, Michigan               RAUL RUIZ, California
TIM HUELSKAMP, Kansas                GLORIA NEGRETE McLEOD, California
MIKE COFFMAN, Colorado               ANN M. KUSTER, New Hampshire
BRAD R. WENSTRUP, Ohio               BETO O'ROURKE, Texas
PAUL COOK, California                TIMOTHY J. WALZ, Minnesota
JACKIE WALORSKI, Indiana
DAVID JOLLY, Florida
                       Jon Towers, Staff Director
                 Nancy Dolan, Democratic Staff Director

       SUBCOMMITTEE ON DISABILITY ASSISTANCE AND MEMORIAL AFFAIRS


                    JON RUNYAN, New Jersey Chairman

DOUG LAMBORN, Colorado               DINA TITUS, Nevada, Ranking 
GUS M. BILIRAKIS, Florida                Minority Member
MARK AMODEI, Nevada                  BETO O'ROURKE, Texas
PAUL COOK, California                RAUL RUIZ, California
DAVID JOLLY, Florida                 GLORIA NEGRETE McLEOD, California

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.






























                            C O N T E N T S

                              ----------                              
                                                                   Page

                       Wednesday, March 26, 2014

Legislative Hearing on H.R. 2018, H.R. 2088, H.R. 2119, H.R. 
  2529, H.R. 3671, H.R. 3876, H.R. 4095, H.R. 4102, H.R. 4141, 
  and H.R. 4191..................................................     1

                           OPENING STATEMENTS

Hon. Jon Runyan, Chairman of Subcommittee on Disability 
  Assistance and Memorial Affairs................................     1
Hon. Dina Titus, Ranking Member..................................     2
    Prepared Statement...........................................    22
Hon. Jeff Miller, Chairman of Committee on Veterans' Affairs.....     3
Hon. Michael Michaud, Ranking Member.............................     4
Hon. Raul Ruiz, U.S. House of Representatives....................     5
Hon. Al Green, U.S. House of Representatives.....................     6
    Prepared Statement...........................................    22
Hon. Timothy Walz, U.S. House of Representatives.................     7
    Prepared Statement...........................................    23
Hon. Jeffrey Denham, U.S. House of Representatives...............     9
    Prepared Statement...........................................    24
Hon. Ander Crenshaw, U.S. House of Representatives
    Prepared Statement...........................................    24
Hon. Steven Stivers, U.S. House of Representatives...............    10
    Prepared Statement...........................................    25

                               WITNESSES

Jeffrey C. Hall, Assistant National Legislative Director, 
    Disabled American Veterans
    Prepared Statement...........................................    26
Alexander Nicholson, Legislative Director, Iraq and Afghanistan 
    Veterans of America
    Prepared Statement...........................................    29
Heather Ansley, Esq., MSW, Vice President of Veterans Policy, 
    VetsFirst, a Program of United Spinal Association
    Prepared Statement...........................................    33
Diane M. Zumatto, National Legislative Director, AMVETS
    Prepared Statement...........................................    37
Zachary Hearn, Deputy Director for Claims, Veterans Affairs and 
    Rehabilitation Commission, The American Legion
    Prepared Statement...........................................    39
Anthony A. Wallis, Legislative Director/Director of Government 
    Affairs, Association of the United States Navy
    Prepared Statement...........................................    44
Raymond Kelly, Veterans of Foreign Wars
    Prepared Statement...........................................    51
Thomas Murphy, Director, Compensation Service, Veterans Benefits 
    Administration, U.S. Department of Veterans Affairs
    Prepared Statement...........................................    54

    Accompanied by:

        Patricia Lynch Watts, Director, Legislative and 
            Regulatory Service, National Cemetery Administration, 
            U.S. Department of Veterans Affairs

    And
        David Barrans, Deputy Assistant General Counsel, U.S. 
            Department of Veterans Affairs

                        STATEMENT FOR THE RECORD

Congressman Steve Daines.........................................    61
Paralyzed Veterans of America....................................    61

 
LEGISLATIVE HEARING ON H.R. 3593, H.R. 4261, H.R. 4281 AND OTHER DRAFT 
                              LEGISLATION

                              ----------                              


                       Wednesday, March 26, 2014

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
Subcommittee on Disability Assistance and Memorial 
                                           Affairs,
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 3:40 p.m., in 
Room 334, Cannon House Office Building, Hon. Jon Runyan 
[chairman of the subcommittee] presiding.
    Present:  Representatives Runyan, Lamborn, Bilirakis, 
Miller, Titus, O'Rourke, Ruiz, Negrete McLeod, and Michaud.

            OPENING STATEMENT OF CHAIRMAN JON RUNYAN

    Mr. Runyan. Good afternoon. This legislative hearing on 
H.R. 2018, H.R. 2088, H.R. 2119, H.R. 2529, H.R. 3671, H.R. 
3876, H.R. 4095, H.R. 4102, H.R. 4141, and H.R. 4191 will now 
come to order.
    Today we have a large number of witnesses present due to 
the number of bills and a high level of interest in some of 
these bills before us. Without any objection, the written 
testimony of all appearing today will be made part of the 
hearing record.
    However, the House also is scheduled for some more votes 
this afternoon, so in the interest of time, there will be no 
questions for our first panel, which is comprised of Members of 
Congress who are here to speak on their bills. Subsequent 
panels two, three, and four will not be asked to give an 
opening statement today, but we will begin questions and 
responses immediately upon their introduction. Each testifier's 
full written testimony will be submitted for the record.
    Also in the interest of time, I am going to forego a 
lengthy opening statement and just briefly touch on one of the 
bills on today's agenda, which I am proud to introduce: H.R. 
4095, the Veterans' Compensation Cost-of-Living Adjustment, or 
COLA, Act of 2014, which provides a cost-of-living adjustment 
increase to veterans' disability compensation rates and other 
benefits.
    The amount of increase will be determined by the Consumer 
Price Index, which also controls the cost-of-living adjustment 
for Social Security beneficiaries.
    As many of us here today know, the cost-of-living increase 
is beneficial to the veterans and their families who depend on 
VA benefits to make ends meet.
    Although I am very supportive of this annual legislation, I 
would like to once again state that it is unfortunate that we 
have to pass such a bill each year and would encourage our 
colleagues in the Senate to pass H.R. 570, the American Heroes 
COLA Act legislation, which authorized an annual COLA without 
requiring congressional action. This would ensure that the 
veterans' COLA is not tied to political action, nor inaction, 
in Washington.
    I appreciate everyone's attendance here today and will now 
call on the ranking member for her opening statement.

    [The prepared statement of Jon Runyan appears in the 
Appendix]

        OPENING STATEMENT OF DINA TITUS, RANKING MEMBER

    Ms. Titus. Thank you, Mr. Chairman. And thank you for 
having the hearing.
    As you said, we are examining ten bills that pertain to 
issues that are of great importance to our nation's veterans 
and to those in this room. I support a number of these bills.
    First, I would like to say that I am proud to have worked 
with the chairman to introduce H.R. 4095 and H.R. 570 which 
deals with the veterans' compensation cost-of-living 
adjustments for 2014. Like you, I wish we could make this 
permanent, but in the short term we certainly need to raise the 
compensation for this year. It is simply the right thing to do, 
and I thank you for that.
    Also on today's agenda is H.R. 2088, which is introduced by 
our ranking member of the full committee, Mr. Michaud, and 
which would create claims-processing centers of excellence. 
With the ranking member here to discuss his bill, I will defer 
to him to outline the legislation. But I want to say I fully 
support this legislation and believe that it will build on the 
VA's successes to date fighting the backlog.
    H.R. 2119, the Veterans Access to Speedy Review Act, is 
brought forth by Dr. Ruiz, a member of our subcommittee. His 
legislation seeks to address the appeals backlog, which we know 
is a high priority for this committee. It would allow the Board 
of Veterans' Appeals to select the quickest way to schedule 
hearings for our veterans. He is here to speak to this.
    Also, H.R. 2529, the Veteran Spouses Equal Treatment Act, 
would clarify the definition of ``spouse'' for the purpose of 
receiving VA benefits. It would include all spouses in any 
legally recognized marriage with a veteran in any State of the 
United States and its territories and possessions.
    The purpose of the legislation is to bring the VA in 
compliance with the Department of Defense and other Federal 
agencies to ensure that all veterans and their families are 
receiving the benefits they have earned throughout their 
military service. Unfortunately, current law precludes some 
veterans from receiving the benefits that they have earned. I 
believe this is a commonsense approach, and I hope we can move 
the bill to the floor as quickly as possible.
    So I thank all of our members and our colleagues for 
bringing forward their thoughtful legislation to help veterans. 
I thank our esteemed witnesses who have come today to give us 
some insight and answer our questions about this proposed 
legislation.
    Thank you, and I yield back, Mr. Chairman.

    [The prepared statement of Dina Titus appears in the 
Appendix]
    Mr. Runyan. I thank the ranking member.
    With that, I would like to recognize Chairman Miller of the 
full committee for an opening statement.

           OPENING STATEMENT OF CHAIRMAN JEFF MILLER

    Mr. Miller. Thank you very much, Mr. Chairman, for 
yielding. I want to make a few remarks on two bills that I have 
introduced, H.R. 3671 and H.R. 4102.
    First of all, H.R. 3671 expands the eligibility for a 
medallion furnished by the Secretary of Veterans Affairs, which 
would signify that the veteran has veteran status of a deceased 
individual upon a private headstone or a marker.
    Currently, VA has the authority to furnish, upon request, a 
medallion for eligible veterans who died on or about the 1st of 
November of 1990. H.R. 3671 would remove the date-of-death 
limitation by codifying eligibility for the medallion benefit 
regardless of the veteran's date of death.
    For nearly 40 years now, VA has administered various 
programs to provide headstones or marker options for veterans. 
At times there have been allowances for private headstones, and 
at times those allowances were not provided for. The programs 
have evolved over time, and that evolution is somewhat 
confusing for veterans and their loved ones.
    Some view the current November 1st, 1990, date as an 
arbitrary qualification for the medallion, but, in fact, this 
1990 date was not arbitrary at all. It was delineated as a 
starting point for the medallion benefits because from November 
1st of 1990 through the 1st of September of 2001 VA did not pay 
a benefit for the purchase of a private headstone or marker for 
a veteran who was qualified for interment in a national or 
State veterans cemetery. However, in a 2001 through 2006 pilot 
program, VA provided government headstones or markers to 
eligible veterans regardless of whether or not they had 
privately purchased a headstone, and in 2007 VA actually made 
this program permanent.
    At that time, VA included a medallion as an alternative 
option, retroactive to the 1st of November of 1990. The 
medallion has proven to be very much appreciated by veterans 
and their families, and VA is supportive of the change to allow 
this option for more veterans. Accordingly, I would like to 
encourage all of you to support the broadened eligibility that 
is contained within H.R. 3671.
    And then, additionally, I want to highlight to your 
attention H.R. 4102, which I have introduced along with 
Representative Walorski to clarify that the estate of a 
deceased veteran may receive certain accrued benefits upon the 
death of the veteran and for other purposes.
    This bill corrects a grave injustice that has resulted from 
the tremendous backlogs existing within the Veterans Benefits 
Administration and will prevent the occurrence of future 
incidents. The fact is that unacceptable wait times at the VBA 
regional offices have contributed to tens of thousands of 
veterans dying before their benefits are granted.
    While VBA currently reports an average days-to-complete 
figure of 285 days, I recall that we are not long removed from 
the agency's 2-year-old claims initiative, which focused on 
rating claims that had been pending for over 700 days.
    And, as to appealed claims, while the Board of Veterans' 
Appeals chairman's report for fiscal year 2013 has not yet been 
approved or provided to Congress, we can anticipate a grim 
account, as veterans' appeals continue to rise unresolved for 
3, 4, or more years.
    Now, under current law, only a veteran's spouse or children 
under the age of 18 and dependent parents are eligible to 
receive accrued disability benefits in the death of a veteran 
claimant's death. H.R. 4102 would provide another option for 
payment into the veteran's estate.
    To demonstrate the need for this bill, I highlight the 
experience of Indianapolis veteran Shelton Hickerson and his 
daughter, Sharon Hickerson Thurman. In 2000, Mr. Hickerson 
filed a claim for disability benefits. VA denied the claim, and 
Mr. Hickerson's appellate process began. Ultimately, on June 
27th, 2013, after more than 10 years, VA awarded Mr. Hickerson 
a 100 percent disability rating with retroactive pay in excess 
of $375,000. But, sadly, Mr. Hickerson passed away the same day 
as the payment of the benefit.
    Mr. Hickerson was entitled to this compensation, and had he 
lived just 1 day--1 day--longer, he would have been able to 
deposit that accrued benefit properly into his account. 
However, he did not. And his daughter was not eligible to 
receive the accrued benefit because she was no longer a 
dependent. VA's errant and dilatory processing of Mr. 
Hickerson's claim resulted in no benefit to Mr. Hickerson, to 
his estate, and, therefore, his family received nothing.
    There is no doubt in my mind that VA will make mistakes in 
its claims-rating process. However, the party to the 
transaction that pays a price for these mistakes should not be 
the veteran or the families of those lives who are also 
affected by illness or injury caused by their service.
    So I want to encourage all of you to support H.R. 4102, a 
bill to clarify that the estate of deceased veterans may 
receive accrued benefits upon the death of the veteran and to 
provide relief in the case of Mr. Shelton Hickerson.
    Mr. Chairman, thank you for your time. I yield back.

    [The prepared statement of Jeff Miller appears in the 
Appendix]
    Mr. Runyan. Thank you, Chairman.
    With that, I will recognize the ranking member of the full 
committee, Mr. Michaud, for an opening statement.

      OPENING STATEMENT OF MICHAEL MICHAUD, RANKING MEMBER

    Mr. Michaud. Thank you very much, Mr. Chairman and Madam 
Ranking Member. I am here to testify on H.R. 2088.
    Today's veterans are filing the most complex claims in 
history, with the trend continuing towards an increase in 
complexities. These claims take longer, require more training 
and additional oversight to properly adjudicate a TBI claim 
than a loss-of-hearing type of claim.
    My bill seeks to replicate the success that the VA has had 
with specializing claims related to Camp Lejeune and atomic 
veterans. VA suggests that the centralization and 
specialization of these claims has allowed them to increase 
training and mastery of these complex conditions, thereby 
increasing timeliness and accuracy of the adjudication.
    The VA OIG recently noted in their inspection of VA 
regional offices that 31 percent of TBI claims reviewed showed 
that staff had made errors. After informing the staff of the 
errors and VA taking action, the VA OIG returned and noted that 
29 percent of the TBI claims reviewed were still found to be in 
error.
    I believe that my legislation provides a commonsense 
solution that will result in veterans with complex medical 
conditions having their complex condition adjudicated at a VA 
center of excellence by a specialist who has been trained to 
adjudicate these specific claim conditions.
    We must continue to work towards and achieve a claims 
system that lives up to the service and sacrifice of our 
veterans so that no veterans will end up in a situation that 
you just heard from Chairman Miller, with that veteran and 
their family.
    And with that, Mr. Chairman, I yield back.

    [The prepared statement of Michael Michaud appears in the 
Appendix]
    Mr. Runyan. Thank the gentleman.
    I know Mr. Ruiz wants to make a statement. Is there anyone 
else that wants to make an opening statement?
    So, with that, the chair recognizes Mr. Ruiz for his 
statement.

              OPENING STATEMENT OF HON. RAUL RUIZ

    Mr. Ruiz. Thank you very much, Mr. Chairman, for holding 
this legislative hearing. The bills we will be discussing today 
serve as a testament to our committee's dedication to the 
honorable men and women who have served our country.
    I thank the chairman for including my bill, H.R. 2119, the 
Veterans Access to Speedy Review Act, in the legislative 
hearing today. My bill seeks to address the appeals backlog by 
increasing the use of videoconferencing during an appeals 
hearing as a substitute for the veteran being there in person.
    This bill intends to relieve the burden on veterans' having 
to travel for VA appeal hearings in person. Many times, this 
travel comes at a great physical and financial cost to the 
veteran. This bill is also focused on making the VA appeals 
process as efficient as possible in order to reduce the appeals 
backlog and create a more speedy review process.
    In working with veterans service organizations, we have 
found ways to improve the language of the bill to ensure it 
meets its intended purpose. I really do thank the VSOs, my 
veterans advisory group, and the veterans in my district for 
their input. This is really their creation.
    I appreciate the chairman's willingness to include this 
bill in today's legislative hearing, and I look forward to 
working together to move this legislation forward.
    Thank you, and I yield back my time.
    Mr. Runyan. Thank you.
    And, at this time, I would like to welcome my colleagues in 
the House to the witness table for our first panel.
    First, we will hear from the Honorable Al Green from Texas, 
who is sponsoring H.R. 3876. Next, we will hear from the 
Honorable Tim Walz from Minnesota, who is sponsoring H.R. 4191. 
Then, we will hear from the Honorable Jeff Denham from 
California, who is an original cosponsor of H.R. 4191. And, 
finally, we will hear from the Honorable Steve Stivers from 
Ohio, who is sponsoring H.R. 2018.
    Additionally, Honorable Ander Crenshaw from Florida is 
sponsoring H.R. 4141. He is unable to attend this afternoon, as 
he is chairing the Financial Services Subcommittee of 
Appropriations currently. Noting that, his full written 
testimony will be included in the hearing record.

    [The prepared statement of Ander Crenshaw appears in the 
Appendix]
    Mr. Runyan. I would like to welcome all of you to this 
legislative hearing. All of your complete and written 
statements will be entered into the hearing record.
    And, with that, Congressman Green, we will start with you, 
and you are now recognized for 5 minutes for your testimony.

                STATEMENTS OF THE HON. AL GREEN

    Mr. Green. Thank you, Mr. Chairman. I thank the ranking 
member, as well, the full committee chair, and the full 
committee ranking member.
    And I am somewhat moved, to be quite candid with you, by 
the comments about the Hickerson family, so I have to digress. 
It would be unlike me to let this go by and not say something. 
It pulls at my heart to know that a family is not in a position 
to receive something that has been earned. And I just don't 
know how to express my feelings about that other than to say, 
you didn't ask me, but that is something that I would support, 
this piece of legislation.
    All of the legislation that I have heard spoken of appears 
to be legislation that would greatly benefit our veterans. I am 
just pleased that I came to hear what I have heard so far. So 
thank you for this.
    I would like to start with a brief vignette that will give 
some indication as to why I feel the way I do about our 
veterans. I was in another State and lost, looking for a given 
venue. When I couldn't find it, I happened to look over my 
right shoulder, and there was a VA facility there. And there 
was a sign that read, ``Come in and see the price of freedom.'' 
``Come in and see the price of freedom.'' And you and I know 
that the price of freedom is more than gold and silver. It can 
be an arm, a leg, or possibly someone not returning home at 
all.
    This is why we are concerned, and this is why we call to 
the attention of this body of H.R. 3876 that deals with burials 
with dignity. We want every person who serves our country 
honorably to have a dignified memorial service.
    My hope is, after having talked to the representative from 
the VFW who is here today, that he and I and others will be 
able to work out some language that will be acceptable for this 
committee to review. Hence, I will not go into a long 
dissertation about the intricacies of the bill. I will simply 
say that it provides homeless veterans, those who may die with 
no money or they may have no relatives to be of assistance to 
them, to make sure that they get a decent burial.
    Other legislation has addressed this. This is not to say 
that our country is not doing a good job. It is only to say 
that we believe that we have more to add, so that 
transportation will be made available to these veterans. And 
there may be some other things that we are going to work out 
with the VFW and other friends.
    So I want to thank you for allowing me this opportunity to 
be heard today. I will not consume more of your time than is 
necessary, but I do believe that, given what I have heard and 
how I feel, I want to use just a little bit of my time to ask 
for a moment of silence for those families who are still having 
to endure wars, endure pain and suffering because their loved 
ones didn't return to them the way they left.
    This is my request, and I would simply lower my head for a 
moment of silence.
    [Moment of silence observed.]
    Mr. Green. Amen.
    And thank you.

    [The prepared statement of Al Green appears in the 
Appendix]
    Mr. Runyan. Thank you, Congressman Green. And I can tell 
you, having been on this committee for 4 years working with the 
VFW through committee staff, we usually come to a very sensible 
agreement--and get a lot of things done around here, believe it 
or not, in this committee. So I appreciate your willingness to 
chat with them and look forward to working with you to get what 
we can done.
    Mr. Green. Thank you.
    Mr. Runyan. Thank you.
    With that, I will recognize Congressman Walz.
    You are recognized now for 5 minutes for your testimony.

             STATEMENT OF THE HON. TIMOTHY J. WALZ

    Mr. Walz. Well, thank you, Chairman Runyan and Ranking 
Member Titus, and to Chairman Miller and Ranking Member Michaud 
of the full committee.
    I would echo the chairman's comments. It is a singular 
honor to serve on this committee, and to testify in front of 
you is humbling and an honor.
    I am joined today by a group of young citizens from Waseca 
High School in Waseca, Minnesota. And I can't imagine a better 
place to show them how democracy is supposed to work and how we 
are supposed to work towards solving problems than this 
committee. So I thank you for that opportunity.
    I am also going to be joined and backed up by my friend Mr. 
Denham, who has been the staunchest supporter of our Nation's 
veterans. We introduced a piece of legislation to tackle one of 
the issues. There are so many. As Mr. Green said, so many of 
these issues are so good and on it.
    This issue of the claims backlog, it is corrosive, it is 
wrong. It wears at the soul of this country, wondering why in 
the heck we can't deliver these benefits that were earned. And 
I know that there are good intentions, and I know that we are 
making progress, and I know that the VSOs who will testify 
afterwards and the VA officials, that we all want that outcome. 
But I think there are some good ideas out there.
    And I would argue that Mr. Denham, myself, and we have a 
Senate companion version that has been introduced--and you are 
going to see support across the board from the VSOs. This is 
the right thing to do.
    This piece of legislation, it is very simple. Our measure 
would simply allow local doctors to conduct disability medical 
examinations for veterans. This would conserve VA resources, 
cuts back on the long wait time at VA hospitals, enables 
quicker diagnosis of disabilities, and eliminates unnecessary 
trips to the VA for veterans in rural communities.
    Specifically, to further encourage use of private medical 
evidence, we are amending title 38, United States Code, section 
5125 to provide that when a claimant submits private medical 
evidence, including a private medical opinion, that is 
competent, credible, probative, and otherwise adequate for 
rating purposes, the Secretary will not request a VA medical 
examination.
    This legislation would require VSRs and RVSRs to document 
that private medical evidence was inadequate for rating 
purposes before ordering the examination, which many times is 
unnecessary, duplicative, and slows the process down.
    The legislation requires the Department of Veterans Affairs 
to complete two reports for us: a report of 180 days after 
passage that tracks the implementation and annual reports that 
track the most common reasons and disabilities for which claims 
with evidence submitted by non-VA professionals were denied by 
VBA.
    Our goal, and this is very, simple: uphold the promise we 
made to our veterans by ending the backlog and getting the 
benefits they earned. We think it is the right way to go. There 
are folks out there willing to do it. We have a Senate 
companion version.
    You are going to hear from all of the folks who process 
these on a daily basis--the VSOs, county veteran service 
officers. And everyone is going to speak in support of this, 
except for the VA. And I want them to talk to you about this, 
talk to you about why that is. They know that I am their 
staunchest supporter, but I will be their harshest critic. 
Today, I think I come as the latter on the backlog.
    With that, I yield back.

    [The prepared statement of Timothy Walz appears in the 
Appendix]
    Mr. Runyan. Thank you, Congressman Walz, for that.
    And, with that, I will recognize Congressman Denham for his 
testimony.

               STATEMENT OF THE HON. JEFF DENHAM

    Mr. Denham. Thank you, Chairman Runyan, Ranking Member 
Titus, Chairman Miller, and Ranking Member Michaud.
    Appreciate, as Mr. Walz said, being on this side of the 
dais and addressing a very important issue, the Quicker 
Veterans Benefits Delivery Act.
    We have talked many times about delivering to veterans and 
getting rid of this backlog. It is certainly one of the largest 
goals of the VA, but yet we continue to have discussions on why 
it is not happening quicker.
    This bill is very simple. Just as an example, currently, at 
the Oakland Regional office of the Veterans Benefits 
Administration, which serves the veterans in my district, there 
are over 20,000 pending claims. Twelve thousand of those claims 
are 125 days or more. Nationwide, by the VA's own count, there 
are more than 638,000 pending claims; 360,000 of those are over 
125 days long.
    Secretary Shinseki set the goal of eliminating the 
disability claim backlog by 2015. And this committee and 
Congress responded by providing billions in additional funding 
to improve technology, hire additional staff, and reform the 
rating process for timelier decisions.
    The VSOs were also a vital part of this total effort, 
working hand-in-hand with the VA to create fully developed a 
claims process to certify claim packets before they are 
submitted so they can be swiftly approved.
    However, we are skeptical that these initiatives alone will 
break the backlog by the 2015 stated goal. Congress needs to do 
more to bolster VA's current efforts to modernize its 
operations and promote further improvements in order to give 
veterans' claims-compensation needs to be settled faster.
    With that in mind, Congressman Walz and I worked with the 
veterans service organizations, the VSOs, to draft the Quicker 
Veterans Benefits Delivery Act. The bill will require the VA to 
maximize the use of private medical evidence. The bill would 
allow veterans to see their own doctor instead of waiting for 
an appointment with VA physicians, who are often overworked or 
far away from a veteran's home.
    Congressman Walz and I both represent rural veterans, many 
of them elderly, and the challenge of traveling long distances 
for an appointment is one of the biggest barriers to accessing 
their veterans benefits. This bill will help remove that hurdle 
from the benefits claims process.
    I would also like to thank, in closing, the VFW, the 
American Legion, and the Association of United States Navy.
    Thank you, and I yield back.

    [The prepared statement of Jeff Denham appears in the 
Appendix]
    Mr. Runyan. Thank you, Congressman Denham.
    And, with that, I will recognize Congressman Stivers for 
his testimony.

              STATEMENT OF THE HON. STEVE STIVERS

    Mr. Stivers. Thank you, Chairman Runyan and Ranking Member 
Titus, as well as Chairman of the Full Committee Miller and 
Ranking Member Michaud, for holding this hearing today on my 
bipartisan legislation, H.R. 2018, the Honor Those Who Served 
Act.
    I want to thank Representative Beatty and Representative 
Tiberi for their help with this bill. The measure before the 
committee today will help make it easier to provide a headstone 
or marker for veterans who currently do not have a headstone 
and lay in an unmarked grave.
    You may know in 2009 the Veterans Administration made a 
rule change that required notification of next of kin before a 
veteran could receive an initial headstone from the agency. 
That regulatory barrier of obtaining approval for next of kin 
creates an especially high barrier on veterans from much older 
conflicts, like the Civil War and the Revolutionary War, as 
well as homeless veterans that Congressman Green talked about 
earlier.
    In my State of Ohio and in many other States, there are 
researchers--in Ohio, the Ohio Historical Society is one--that 
check the archives, death records, military records, and 
genealogical records to identify and determine the identity of 
Revolutionary War and Civil War soldiers who are buried in 
unmarked graves. These groups can work to identify the next of 
kin, but sometimes those people can be removed six and seven 
generations from that veteran, and it is hard to identify next 
of kin.
    I understand the rationale of this VA rule, but it has an 
undue burden on homeless veterans as well as identifying and 
marking the graves of our veterans from the Civil War and 
Revolutionary War who sit in unmarked graves.
    Those who served in our military deserve our full support, 
especially those who gave their last full measure of devotion 
for this great Nation. Our veterans, regardless of their era, 
who have served deserve better than to be marked in an unmarked 
grave.
    And that is why, on May 16th of 2013, a bipartisan group of 
legislators introduced this bill. It would stipulate that if a 
next of kin cannot be found, the headstone application can be 
filed with the VA by a State veteran service agency, military 
researchers, local historians, genealogists, or anyone else 
familiar with military sources and methods that can identify a 
veteran's identity.
    You know, President Abraham Lincoln, in his second 
inaugural address, called for the country to care for those who 
shall have borne the battle and for the widow and orphan, 
affirming the government's obligation to honor those who served 
our Nation. And in 1959, it became the VA's motto. Those who 
have given the final measure of service to our great Nation 
deserve a final resting place with a headstone worthy of their 
dedication, commitment, and devotion.
    As one final point, I did hear that the Veterans 
Administration is not supportive of this bill because they 
believe they can fix this through a rule. I would note that 
they caused this problem through a rule and recognize they can 
fix it through a rule but this subcommittee had a hearing on 
this bill 6 months ago and the VA has, as of today, done 
nothing to move a rule forward to fix this problem.
    And I would ask this committee to take this bill to markup 
and move this bill forward. While I recognize it can be fixed 
by rule, the VA has done nothing to do so. And it is time to 
fix this problem for our homeless veterans and our veterans 
from previous conflicts who today lay in unmarked graves 
because a next of kin cannot be found.
    Thank you for your time. Again, I appreciate the chairman 
and ranking member for holding this hearing. And thank you for 
allowing me to testify today.
    I yield back the balance of my time.

    [The prepared statement of Steve Stivers appears in the 
Appendix]
    Mr. Runyan. Thank you, Congressman Stivers.
    And, as noted, we will forego a round of questions with the 
first panel. Any questions that anyone has for this panel may 
be submitted for the record.
    Mr. Runyan. On behalf of the subcommittee, I thank all of 
you for your testimony, and you are now excused.
    And a vote having being called on the floor--there are four 
votes requested--so this committee will stand in recess for 
just about an hour.
    [Recess.]
    Mr. Runyan. The Committee on Disability Assistance and 
Memorial Affairs will now come to order.
    We welcome our second panel to the witness table.
    The second panel consists of Jeffrey Hall, the Assistant 
National Legislative Director for Disabled American Veterans; 
Alexander Nicholson, the Legislative Director for Iraq and 
Afghan Veterans of America; Heather Ansley, Vice President of 
Veterans Policy with VetsFirst; and Diane Zumatto, National 
Legislative Director for AMVETS.
    Thank you all for being here today and thank you for your 
patience. Your full and written testimony will be made part of 
the record of today's legislative hearing.

    [The prepared statements of Jeffrey Hall, Alexander 
Nicholson, Heather Ansley, and Diane Zumatto appear in the 
Appendix]
    Mr. Runyan. As previously noted, we will start with 
questions. I would like to start with Mr. Hall and go down the 
row.
    My first question is about Chairman Miller's bill, H.R. 
4102, which would allow benefits to be paid to a veteran's 
estate if the veteran passes away while a claim is pending and 
the veteran does not have an eligible survivor.
    Since most of your organizations have seen situations 
similar to that of Shelton Hickerson, which the chairman 
highlighted in his opening statement, can you please share with 
the committee any additional anecdotes that you may have about 
the veteran who passed while awaiting a VA benefits decision?
    Mr. Hall.
    Mr. Hall. Yes. Actually--thank you for the question--it 
reminded me of a story when I was a service officer in Chicago 
before I left to go to New York. It was one of the last cases I 
had worked on. It was two sisters that had come in for some 
assistance.
    The sum and substance of the story is that the veteran 
waited nearly 2-years to get his claim processed, and when he 
did get his claim processed, before they authorized and paid 
him the award, he became hospitalized. And while it took months 
and months and months for them to authorize the award, he ended 
up passing away in the hospital before the payment was actually 
made.
    So the two daughters, who were no longer dependent children 
of him at that time, were not able to receive that benefit. And 
it was well over $100,000 that the veteran was owed.
    So, therefore, not only did it take them so long to process 
the award, then the ability for the veteran to receive that 
money or his next of kin was not able to receive that, or his 
heirs.
    So DAV is fully in support of enactment of H.R. 4102 for 
those very reasons.
    Mr. Runyan. Thank you.
    Mr. Nicholson.
    Mr. Nicholson. Thank you, Mr. Chairman.
    Obviously, given our demographic at Iraq and Afghanistan 
Veterans of America, we don't have any anecdotes to offer in 
terms of deceased claimants. But, to us, this bill is a no-
brainer. We are happy to join our VSO colleagues in supporting 
it.
    You know, I think we were among those who did not realize 
that this was even an issue until, you know, some of the cases 
were brought to light in the media, which is a way in which we 
learn about a lot of these issues and, you know, come to 
support things that need to be changed.
    So, for us, this was a no-brainer, and we are happy to 
support the change.
    Mr. Runyan. Ms. Ansley.
    Ms. Ansley. Thank you, Mr. Chairman.
    I would say that if I were to speak with some of our 
veteran service officers, they could probably provide some of 
those anecdotes. I personally do not have one to share but do 
want to align myself with my colleagues, that we certainly 
support the bill and the aims that it is hoping to achieve. And 
it certainly makes sense that we would do this as quickly as 
possible.
    Mr. Runyan. Ms. Zumatto.
    Ms. Zumatto. I would agree with all the folks that have 
spoken before. I don't have any anecdotes to add, but AMVETS 
does support the legislation.
    Mr. Runyan. I appreciate that.
    I don't really have another question. I just want to touch 
on what I said in my opening statement. And I think you all 
agree with me that a permanent COLA needs to be accomplished. I 
see many nods up there. I would appreciate any and all help 
that you all can do with that.
    Unfortunately, like a lot of things around here, it creates 
a lot of uncertainty for our veterans on what, you know, when 
you have that lapse in that calendar, is going to bring the 
following year. And it is unfortunate that, we put our veterans 
through that time and time again, when it is something that is 
very bipartisan and it passes every single time. Why do we have 
to create that uncertainty?
    So I thank you all for your time.
    And I will yield to the ranking member for her questions.
    Ms. Titus. Thank you, Mr. Chairman.
    And I thank all of you, too, for providing the thoughtful 
testimony and for your support and help with these bills.
    Mr. Hall, I know you highlighted in your testimony some of 
your concerns about H.R. 4095. And we heard Mr. Green, the 
sponsor of that, say that he was going to be working to come 
with some improvements to that bill. So I would ask you to work 
with him to see if we can do that. I know you mentioned the 
need for maybe a flat rate of payment, something like that. So 
we would appreciate having your input if we are going to 
consider this bill further.
    I would also say to Mr. Nicholson, we had some of your 
members in our office earlier today. They are ``storming the 
Hill.'' And they talked to us about ``We've Got Your Back'' 
because the high suicide rate among veterans is just something 
that we have to address. We have to do it at a personal level 
as well as a societal level. That is the way your suggestions 
were, and I thought that was great.
    In your statement, you said you support the ranking 
member's bill that concerns the centers of excellence. I 
wondered if you might elaborate on that a little bit and how 
you think that would be helpful as well as what other 
suggestions you have for streamlining that claims process.
    Mr. Nicholson. Yes, ma'am, we do. We, you know, have seen 
efficiencies found, I believe, in processes and innovations 
such as this.
    And, you know, I would just say, though, that, you know, we 
have certainly heard some of the concerns of our colleague VSOs 
and, you know, echo those, as well, but we think that those 
are--you know, any kinks that they think may result as a result 
of this pilot program, and especially an expansion of it, can 
certainly be worked out. And we think a pilot is certainly a 
smart way to start.
    But we believe that innovations like this have proven 
useful in other types of situations with other types of claims, 
and we think it is worthy of at least a pilot to try it out 
with this. Because there is no denying, you know, that there is 
an issue still at the VA with handling these claims and with 
the backlog still.
    I mean, the VA has made enormous progress, you know, since, 
I think--like you mentioned, we are storming the Hill this 
year. And I think since we stormed the Hill last year at this 
time, the backlog is down 40 percent, which is fantastic. And 
we commend the VA for that progress. But, you know, we still 
have hundreds of thousands of veterans, each one of those an 
individual story, an individual life, with a family who was 
impacted by this, and so we don't want to let up the pressure.
    And we do believe that, you know, we are willing to support 
anything that looks like it will work, that has precedence, 
that works in analogous situations. And we believe this is one 
that is at least worthy of a pilot.
    Ms. Titus. Well, thank you.
    I yield back, Mr. Chairman.
    Mr. Runyan. I thank the gentle lady for yielding back.
    Again, on behalf of this subcommittee, I thank you for your 
testimony. This subcommittee looks forward to working with each 
of you, as the stakeholders in this, as we perfect this and 
bring it to, I believe, a legislative markup in 2 weeks. So I 
look forward to it, and you are excused.
    And I will ask the third panel to come to the table.
    The third panel consists of Mr. Zachary Hearn, deputy 
director for claims, Veterans Affairs and Rehabilitation 
Commission for American Legion; Mr. Anthony A. Wallis, the 
legislative director and director of government affairs, the 
Association of the U.S. Navy; and Brendon Gehrke, Senior 
Legislative Associate for the Veterans of Foreign Wars.
    Thank you all for being here today.

    [The prepared statements of Zachary Hearn, Anthony Wallis, 
and Raymond Kelley appear in the Appendix]
    Mr. Runyan. As previously stated, we will go right to 
questions. My first question, is pertaining to H.R. 4191, the 
Quicker Veterans Benefit Delivery Act.
    Can any of you provide specific examples of a case in which 
the veteran had sufficient private medical evidence for the 
record, yet the VA chose to order an additional exam to 
determine the benefit? Obviously we heard some of it from 
Congressman Walz earlier, but we would like to get the stories 
from you the stakeholders, and your exact experiences with it.
    So, Mr. Wallis, any examples of it?
    Mr. Wallis. Thank you, Mr. Chairman.
    At this moment, I do not have any specific examples. 
However, I know that our Members Services Department does get a 
lot of claims questions and issues that arise, mostly because 
we have frustrated members upset that their claims are taking 
so long to be answered.
    And we do support H.R. 4191, the Quicker Benefits Delivery 
Act, as it seeks to help to end the backlog of claims by 
conserving VA resources and enabling quicker, more accurate 
decisions for veterans, allowing private medical evidence 
documentation for such claims.
    So I feel like we are comfortable saying that this 
legislation would help with streamlining a lot of those claims 
and only seeks to benefit the veterans so that physicians in 
the field and localized with these veterans in their community 
will be better suited to help the VA process these claims.
    Mr. Runyan. Let me ask this question, and we will continue 
down the line. To you again, do you have any examples, 
anecdotes of Chairman Miller's bill, 4102?
    Mr. Wallis. 4102.
    Mr. Runyan. Yeah.
    Mr. Wallis. We do not have any specific anecdotes of that, 
as well, but we understand and appreciate the legislation in 
and of itself that also helps to answer a question regarding 
compensation for claims, as well.
    You know, this was a frustrating circumstance with the 
individual in Indiana and his family for getting the claims and 
compensation processed in a timely fashion. So we are 
appreciative of that. We don't have any examples at this time, 
but we are appreciative of the legislation.
    Mr. Runyan. Mr. Hearn.
    Mr. Hearn. Good afternoon, Chairman.
    Yes, before I became deputy director, I worked for several 
years over at the Board of Veterans' Appeals, and we would 
routinely see VA scheduling superfluous examinations where the 
evidence was contained within the C-file. I mean, it was self-
evident; it didn't take a rocket scientist to discover it.
    When we went out to the Seattle VA Regional Office, I want 
to say about 2 months ago now, I can think of one particular 
case where the veteran was going through the process of 
retiring, I believe. The evidence was contained in the 
veteran's military records to say that he had a certain 
condition; I believe it was sleep apnea. Despite that fact, 
they scheduled an examination.
    And it becomes counterproductive with the fully developed 
claims process, and it delays a process that is meant to be 
expeditious. And so it becomes an unfortunate scenario.
    Mr. Runyan. Thank you.
    Mr. Gehrke, do you have any----
    Mr. Gehrke. In regards to H.R. 4102, I would like to note 
that, last year, 19,500 veterans died while awaiting benefits. 
I have heard people joke that veterans who are deceased get 
quicker service from the VA than living veterans. That is 
obviously not true, but we really have no idea how many 
veterans have died before they received benefits, who could not 
pass that on to their children.
    What is the most frustrating part about that to the 
children is they often take care of the veteran while he is 
ill, while he is on his death bed. And, really, the veteran's 
benefit should be going towards that type of treatment, that 
type of hospice care for taking care of that veteran. So that 
kind of illustrates the real need for that, because it does 
present a financial hardship on the family.
    In regards to H.R. 4191, most of the stories that I have 
heard regarding this have to do with PTSD treatment. Because of 
the nature of PTSD and it being so urgent, veterans will often 
seek help from a variety of sources. You know, Military 
OneSource will connect veterans with Give an Hour, who will 
then give PTSD treatment to the veteran because of their urgent 
need of that. So we see that more often than not with them.
    This bill is something that all the Independent Budget VSOs 
have recognized is an issue and something that we urge the 
committee to pass.
    Mr. Runyan. Thank you.
    With that, I will yield to the ranking member, Ms. Titus.
    Ms. Titus. Thank you, Mr. Chairman.
    Again, I would just note that some of you have suggested 
problems with Mr. Green's legislation and ask for your 
commitment to work with him between now and the markup. And I 
think that you have already established that.
    I would just ask a little more about H.R. 4191. Maybe, Mr. 
Hearn, if you want to comment on that? From all your accredited 
service officers nationally who assist veterans with their 
claims, how can we and the VA assure the proper use and 
acceptance of private medical information?
    Mr. Hearn. Just this past--or late last week, actually, the 
American Legion held the Department Service Officers School, 
and we were able to bring service officers in. And perhaps in 
language more direct than drill sergeants at times, they will 
express their frustration regarding VA and the review of 
medical records from the private sector.
    One of the easier ways is for examiners to--or private-
sector physicians to utilize the disability benefits 
questionnaires because it is a standard form. I understand that 
there is some frustration within the medical community 
sometimes with that, because they are taking something and more 
or less making it fill in the blanks or something along those 
lines. But it has proven to be far more effective because it 
makes it a lot easier for raters to review that and say, it 
meets this criteria, it meets that criteria, and we can go 
ahead and rate it, and then it starts taking some of that gray 
area out.
    Ms. Titus. Mr. Gehrke.
    Mr. Gehrke. I think in history and realizing the acceptance 
of private medical evidence, you have to realize that for a 
long time VA gave work credit for rating officers who requested 
a disability rating examination. So they would get a claim, and 
they would get credit just for requesting it, whether they had 
the private medical evidence there or not.
    Much to VA's credit, they have gotten rid of that credit 
system. However, there seems to be somewhat of a culture there, 
that, you know, rating officers will automatically do that out 
of habit and request that rating examination.
    And there is also a little bit of a turf battle, whether VA 
wants to do it in house or they fear outsourcing of it. It 
really depends on the regional office is what we found. Some 
regional offices are better at accepting than others. But we 
feel like there should be an entire standard throughout the VA 
in accepting private medical evidence.
    Secretary Hickey has done a lot of work on this. I believe 
she gave a memo saying that all rating officers will accept 
private medical evidence if the claim is older than a year. And 
the VA can correct me if I am wrong on that. But we would like 
to see it for all claims, whether it has been backlogged for a 
year or two or whether it is starting now.
    Because if it doesn't happen, it takes 180 days just to get 
a rating examination, on average--120 to 180, I believe. And 
so, that is, I mean, essentially the backlog right there. So 
you can eliminate a lot of that with that portion.
    Ms. Titus. Well, thank you. That is helpful.
    I yield back, Mr. Chairman.
    Mr. Runyan. I thank the gentle lady.
    Gentlemen, I thank you for your patience and your testimony 
today. With that, this panel is now excused.
    I welcome the fourth panel to the table.
    On this panel, we will hear from Mr. Thomas Murphy, the 
director of compensation service with the U.S. Department of 
Veterans Affairs. He is accompanied by Patricia Lynch Watts, 
the Director for Legislative and Regulatory Service for the 
National Cemetery Administration with the U.S. Department of 
Veterans Affairs and Mr. David Barrans, the Deputy Assistant 
General Counsel for U.S. Department of Veterans Affairs.
    Thank you all for being here today.

    [The prepared statement of Thomas Murphy appears in the 
Appendix]
    Mr. Runyan. As previously noted, I will now begin the 
questioning.
    First of all, Mr. Murphy, regarding H.R. 4095, the annual 
COLA legislation, do you think veterans would benefit from 
having an automatic COLA rather than an annual COLA, as 
provided in my previous bill that passed this House, which was 
H.R. 570?
    Mr. Murphy. Yes, Mr. Chairman, veterans will directly 
benefit from this. It keeps the benefits they receive in pace 
with inflation, just like is administered at Social Security 
today. It makes it easier for VA to plan and implement these. 
We know it is coming, it is on a consistent basis, and we are 
not waiting on a law to be passed at the last minute. This bill 
is just good all around.
    Mr. Runyan. Thank you.
    Regarding H.R. 2018, one of my constituents previously 
inquired whether it would be feasible to create a special 
exemption for veterans who died in the 1935 Labor Day 
hurricane. This addition would require the VA to provide group 
burial memorials for those men who died while enrolled in a 
veterans work program, a federally funded project during the 
Great Depression.
    Two hundred, forty-four veterans remain buried in two 
unmarked mass graves in Florida. Whether by statute or 
regulation, would it be physically unfeasible or cost-effective 
to provide individual grave markers or a group burial memorial 
at these sites?
    Mr. Murphy. Sir, I have to defer to Ms. Watts on this one.
    Mr. Runyan. Okay.
    Ms. Watts.
    Ms. Watts. Thank you, Mr. Chairman.
    The specifics of the cost of providing individual stones on 
that I would have to take back for the record. I don't have the 
information on exactly what those costs would be.
    Mr. Runyan. Okay. Will you submit that for the record, 
please?
    Ms. Watts. Thank you.
    Mr. Runyan. Thank you.
    [The attachment appears in the Appendix]
    Mr. Runyan. This would also be for Ms. Watts then.
    Can you elaborate on VA's strong support of H.R. 3670 and 
specifically on your recommendation that the legislation change 
the medallion eligibility date to on or after April 6, 1917, 
rather than eliminating the date altogether?
    Ms. Watts. Yes. Thank you for that question, Mr. Chairman.
    We are concerned about preserving the historical integrity 
of the headstones and markers from periods earlier than that. 
To provide the medallions on headstones for veterans whose 
service predates our entering World War I might impede our 
ability to preserve the historic integrity of those places. So 
we would respectfully ask that we be able to limit the 
availability of medallions for service back to the beginning of 
World War I.
    Mr. Runyan. Okay.
    And one more question about H.R. 4141. In the VA's written 
testimony, it is noted that the VA believes that the bill 
should allow enhanced-use leases on any and all underutilized 
and/or vacant VA-controlled properties.
    Can you explain how this authority would be beneficial to 
the Department? Likewise, can you explain the concerns you have 
regarding the language as currently drafted regarding the land 
that is unsuitable for burial purposes?
    Ms. Watts. Yes, sir. The ability for VA to lease land that 
we are not currently using but that is usable land would be 
helpful under this enhanced-use authority. However, I believe 
the Department is concerned about the language, as you said, 
that limits the revised authority just to NCA land that is not 
used for burial.
    Our concern is that the language specifically requires that 
the land not be suitable for burial. And what we would 
recommend is that the language be changed so that it is land 
that is not going to be utilized for burial for the period of 
the lease. That would allow us to use land that possibly is 
indeed usable for burial or suitable for burial, but that we 
have no plans in the immediate future to use for that reason.
    Mr. Runyan. Thank you.
    With that, I will yield to the ranking member, Ms. Titus.
    Ms. Titus. Thank you, Mr. Chairman.
    I would like to thank the VA for your assistance on the 
bills that are before us today. I appreciate your working with 
us. And we are looking forward to receiving some of the cost 
estimates.
    I would like to ask you, Mr. Murphy, in your written 
statement, you argue that the VA is looking to increase 
productivity and decrease wait times through a variety of 
initiatives.
    Now, the Reno office has struggled to implement many new 
systems, and I would give you the example of VBMS. So I wonder 
what you are doing to ensure that some of these underperforming 
regional offices are going to be able to effectively implement 
these initiatives that you are talking about?
    Mr. Murphy. We don't have enough time to go into that in-
depth of an answer.
    Ms. Titus. We have lots of time. Go ahead.
    Mr. Murphy. Okay.
    For starters, we had an additional appropriation in 2014 of 
$10 million to provide for training in underperforming offices. 
And one of the ways we are focusing that is in offices such as 
Reno where the individuals are underperforming and it is due to 
an individual's performance, lack of training, lack of skills, 
much like what we did with the set training in 2013.
    The other part of that question is what other things are we 
implementing that are going to improve that production, improve 
that facility. It is the use of centralized mail, the use of 
stakeholder entry portal for veteran service organizations, the 
continued use of overtime that you are seeing that goes on 
today. There is a myriad of other people, process, technology 
improvements that are driving that today.
    And while we are driving that and moving forward at the 
same time, we have to keep an eye on offices that are 
underperforming and not keeping up with the rest of the pack in 
the improvements in production and quality that we are seeing. 
And thanks to Congress, they have given us the money and the 
resources in order to do that during this fiscal year.
    Ms. Titus. Well, I appreciate that.
    Also, in the testimony that we heard earlier, that we 
referred to earlier, from both the American Legion and the VFW, 
there were some serious concerns expressed about the 
communications between the VA and the VSO's own brokered 
claims. And we have experienced this in Nevada, too. Reno has 
kind of dealt with its backlog by brokering out about half of 
its claims to other places.
    And so, I wonder if, as all these initiatives are going in 
place and you are brokering more and more of these claims and 
you are implementing this national work queue, do you have a 
communications strategy in place of working with the VSOs so 
they know what is going on and how to track these claims? And 
if you don't, can you get one? Can you make one? Or do you have 
plans to make one?
    Mr. Murphy. Yes, we absolutely have a strategy.
    And, look, the communication is the key. If I can have an 
early communication with the veteran service organization 
representing that veteran, predecisional--which they have the 
right to look at that file for 24 hours--it doesn't do me any 
good for a power of attorney in Reno to not have access to a 
case that is being decided in North Carolina. It is in the 
veteran's best interest and the VA's best interest to allow 
that VSO the time to take a look at that case.
    And the way we have to accomplish that is through the use 
of the stakeholder entry portal, by allowing full access to the 
VBMS and the file in an electronic environment so that the 
power of attorney representing that veteran can give an 
accurate assessment of the work that has been done before we 
finalize that claim. If I don't provide that, then it simply 
just adds up to another appeal that we have to deal with down 
the road.
    Ms. Titus. Could you share with us that communications 
plan, a copy of that plan?
    Mr. Murphy. Yes.
    Ms. Titus. Okay. Thank you.
    I yield back, Mr. Chairman.
    Mr. Runyan. I thank the ranking member.
    I have one more question, I believe directed at Mr. Murphy, 
pertaining to H.R. 4191.
    You have said in your testimony that the authority already 
exists for the VA to use private examinations. But I can tell 
you, a lot of people, I know on this staff here and in the 
stories we hear, don't feel they are given the proper weight 
all the time, and it feels like a rater almost defaults back to 
the VA automatically.
    Is there anything that you can do or have done or training 
you have put in to guide them to say, this is a legal process 
and we need not to continue to burden our veterans and lengthen 
this period of time?
    Mr. Murphy. The statute and our regulations don't just 
provide for but require the rating of a case when the evidence 
is sufficient and meets a very long list of things that need to 
be met in order to rate a case.
    And the part of the question about what have we done to 
provide for that, what we have done is we put out a policy from 
the national level that essentially error-proofs a case. So the 
individual is not held accountable if they use a DBQ, which is 
completed, submitted by the veteran, to rate the case. If that 
case later results in an error, that error will not fall back 
to that individual. In other words, it is the system's fault 
that I need to go back and deal with at a different level, and 
there are no repercussions back to the individual for 
performance or for quality.
    So I have put the right protections in place to put the 
right behavior in place on the part of our raters.
    Mr. Runyan. Just one last thing. You also note that the VA 
does not track the number of claims eligible for ACE that 
requires additional evidence obtained through telephone 
interviews or whether private medical evidence is sufficient 
for rating purposes.
    My question is, why isn't a process like that being 
tracked?
    Mr. Murphy. That is one of the things that we need to be 
tracking going forward, but coming from the paper environment 
that we have, bringing it into the automated world that we have 
today, we don't have all the steps and features in place that I 
can get the development detail to that level.
    That is certainly something that is on our radar to be put 
in place. And what that will do is it will allow me to do, like 
several other systems, it provides me an opportunity to look at 
the exceptions and find out, is it an individual? Is it a 
particular office? Is it a particular process that I need to go 
back in and address?
    So it is one that we are developing and putting into the 
system. It is not there today, however.
    Mr. Runyan. And just one more question, a follow-up to what 
Ms. Titus had. She asked what the $10 million is used for, as, 
arguably, the training regimen was developed already. What is 
the significant dollar amount? And while we complete the 
support and enhance intelligent training, what does it pay for?
    Mr. Murphy. What does it pay for? We are funded today to do 
our Challenge Training Program and other training events. This 
provides dollars well above and beyond to allow us to pull in 
people that would not otherwise be trained in 2014. And we can 
target and focus those specific underperforming individuals.
    The dollars we have in place today takes care of new 
employee training, employees that have been promoted already. 
Well, if I am going to go out and make a difference in the 
environment on a large scale and pull underperforming employees 
in on top of that, that is where this additional funding comes 
in place.
    Mr. Runyan. Okay.
    Ms. Titus, anything further?
    Ms. Titus. No, thank you, Mr. Chairman.
    Mr. Runyan. Well, thank you all for your testimony and 
answering the questions. On behalf of the subcommittee, I want 
to thank you for your testimony.
    As noted, your written testimony will be entered into the 
hearing record and will inform the discussion on the 
legislation we have heard about today. We look forward to 
working with you in the future on these bills as well as a wide 
range of challenges facing our Nation's veterans.
    You are excused.
    I ask unanimous consent that all Members have 5 legislative 
days to revise and extend their remarks and include any 
extraneous material.
    Hearing no objections, so ordered.
    [The attachment appears in the Appendix]

    [The prepared statement of the Paralyzed Veterans of 
America appears in the Appendix]
    Mr. Runyan. I thank the Members for their attendance today.
    And this hearing is now adjourned.
    [Whereupon, at 5:42 p.m., the subcommittee was adjourned.]
                                APPENDIX
                                 <F-dash>

            Prepared Statement of Dina Titus, Ranking Member

    Thank you, Mr. Chairman for holding this hearing today on behalf of 
our nation's veterans.
    Today, we are examining ten bills that pertain to issues of 
critical importance to our nation's veterans. I support several of 
these bills proposed by our colleagues, and am proud to have worked 
with the Chairman to introduce H.R. 4095, the Veterans' Compensation 
Cost-of Living Adjustment Act of 2014. This legislation will increase 
the rates of compensation for veterans with service-connected 
disabilities, and those surviving spouses of veterans who receive 
dependency and indemnity compensation. This is simply the right thing 
to do for our Veterans and survivors.
    Also on today's agenda is H.R. 2088, introduced by Ranking Member 
Michaud, which would create Claims Processing Centers of Excellence. 
With the Ranking Member here to discuss his bill, I will defer to him 
to outline this legislation. But, I fully support his legislation and 
believe that this will build on VA's successes fighting the backlog.
    H.R. 2119, the Veterans Access to Speedy Review Act, is brought 
forward by Mr. Ruiz, a member of our Subcommittee. His legislation 
seeks to address the appeals backlog, a high priority issue for this 
committee, by allowing the Board of Veterans Appeals to select the 
quickest way to schedule hearings for veterans.
    Lastly, H.R. 2529, the Veteran Spouses Equal Treatment Act, would 
clarify the definition of ``spouse'' for the purpose of receiving VA 
benefits to include all spouses in any legally recognized marriage with 
a veteran in any state of the United States and its territories and 
possessions. The purpose of this legislation is to ensure that all 
veterans and their families are receiving the benefits they have earned 
through their military service. Unfortunately, current law precludes 
some veterans from receiving the benefits they have earned.
    I believe this is a common sense approach, and I hope we can move 
this bill to the Floor as quickly as possible.
    I thank all of the Members for their thoughtful legislation. And, I 
thank all of our esteemed witnesses for joining us today and look 
forward to hearing their testimony.
    Thank you and I yield back.

                                 <F-dash>

   Prepared Statement of Hon. Al Green on H.R. 3876, the Burial With 
                     Dignity for Heroes Act of 2014

    Thank you Chairman Runyan and Ranking Member Titus for holding this 
hearing today and providing me with the opportunity to testify on H.R. 
3876, the Burial with Dignity for Heroes Act of 2014.
    Many veterans make the ultimate sacrifice for the citizens of 
United States of America and this should never be overlooked. Those who 
serve their country honorably should be properly memorialized at the 
time of their death. Unfortunately, too many homeless veterans are not 
presented with such an opportunity. Often, homeless veterans are buried 
without a proper funeral service because their families, or lack 
thereof, do not have the funding to cover the burial costs.
    Currently, the Department of Veterans Affairs provides eligible 
homeless veterans with the opening and closing of the gravesite, a 
grave liner, a headstone or maker, and a graveside ceremony. However, 
the preparation of the body, transportation, clothing, casket and 
coordination of the funeral service are necessary services that the VA 
is unable to provide. At this time, the National Cemetery 
Administration (NCA) does not differentiate between claimed and 
unclaimed remains; therefore, there is not a definite way to determine 
the number of homeless veterans that are laid to rest each year without 
a proper burial.
    I, along with my colleague Congresswoman Corrine Brown, have 
introduced H.R. 3876, the Burial with Dignity for Heroes Act of 2014, 
which would amend title 38 of the United States Code to allow the 
Department of Veterans Affairs to carry out a program to make grants to 
eligible entities to provide for the cost of burials for eligible 
homeless veterans. Outside entities will submit applications to the 
Secretary of Veterans Affairs who will determine which entities are 
eligible. This practical legislation would help eliminate the 
possibility of a hero not receiving a proper military funeral.
    H.R. 3876 would provide for an eligible veteran to be laid to rest 
in a National Cemetery or a local cemetery. An eligible veteran is a 
deceased former service member:

        <bullet> Who is homeless,
        <bullet> Who is eligible to be buried in a National Cemetery,
        <bullet> Who was not convicted of a capital crime,
        <bullet> Who was not dishonorably discharged, and
        <bullet> Who the Secretary of Veterans Affairs determines has 
        no next of kin.

    I am confident this legislation will help to ensure that all 
homeless veterans receive a burial with dignity.
    Our nation's heroes deserve funeral services with military honors. 
The Burial with Dignity for Heroes Act of 2014 intends to ensure that 
all eligible veterans, regardless of their financial status at the time 
of their death, will be properly honored, and does so without 
appropriating any additional federal dollars.
    Thank you again for the opportunity to present my testimony before 
this subcommittee.
    I yield back the balance of my time.

                                 <F-dash>

Prepared Statement of Hon. Tim Walz on H.R. 4191, the Quicker Veterans 
                         Benefits Delivery Act

    Thank you, Chairman Runyan and Ranking Member Titus, for your 
leadership and for inviting us here today to speak on H.R. 4191, the 
Quicker Veterans Benefits Delivery Act.
    With the hard-earned experience of two major wars during the last 
12 years, Americans have developed a renewed understanding of the need 
to support our service members in battle and throughout their active-
duty service.
    Unfortunately, our warriors' battles don't always end when they 
return home. We've heard from many veterans who have returned bearing 
the scars of war--mental and physical disabilities incurred while 
protecting our freedoms. All they expect is that, in return for their 
service, our nation keeps its promises to them.
    With the end of the war in Iraq, and the draw down of troops in 
Afghanistan, the number of disabled veterans who need care is 
increasing exponentially. Despite the fact the Department of Veterans 
Affairs is processing more claims today than at any time in history, 
veterans are waiting too long to receive the benefits they have earned, 
creating an unnecessary financial hardship for veterans and their 
families.
    The VA reports 554,105 veterans have been waiting longer than 125 
days to have their claim adjudicated. This is unacceptable, and VA 
Secretary Eric Shinseki, a retired U.S. Army General who has dedicated 
his life to military service and taking care of our brave warriors, 
agrees. While the VA is making progress, we believe there are common 
sense measures Congress can undertake to bolster the VA's efforts to 
ensure our veterans are getting the care they need in a more-timely 
manner.
    In response to veterans and veterans' organizations who have told 
us about the hardships the VA backlog imposes on veterans, we 
introduced H.R. 4191 to help speed up the process.
    We, along with Senator Franken, have introduced bipartisan measures 
in both the House and Senate that will remove several hurdles to 
getting claims processed quickly.
    Our measure would allow local doctors to conduct disability medical 
examinations for veterans. This conserves VA resources, cuts back on 
long wait times at VA hospitals, enables quicker diagnoses of 
disabilities and eliminates unnecessary trips to the VA for veterans in 
rural communities.
    Specifically, to further encourage the use of private medical 
evidence, we are amending title 38, United States Code, section 5125 to 
provide that, when a claimant submits private medical evidence, 
including a private medical opinion, that is competent, credible, 
probative, and otherwise adequate for rating purposes, the Secretary 
shall not request a VA medical examination. This legislative change 
would require VSRs and RVSRs to document that private medical evidence 
was inadequate for rating purposes before ordering examinations, which 
are often unnecessary.
    Additionally, the legislation requires the Department of Veterans 
Affairs to complete two types of reports on the progress of this 
initiative: a report 180-days after passage of the bill that tracks the 
bill's implementation and an annual report that tracks the most common 
reasons and disabilities for which claims with evidence submitted by 
non-VA medical professionals were denied by VBA.
    Our goal with this legislation is simple: to uphold the promises 
we've made to our veterans by ending the backlog and getting them the 
benefits they have earned and deserve. We know there is no silver 
bullet to eliminating the backlog, and we understand each step along 
the way requires thoughtfulness, analysis and synchronicity. However, 
we believe H.R. 4191 to be an integral step along the glide path to 
success. It is a common sense solution that will aid in adding 
efficiency to a complicated process in order to better serve our 
nation's heroes.
    Thank you, Chairman Runyan and Ranking Member Titus, for the 
opportunity to speak on behalf of this bill.

                                 <F-dash>

   Prepared Statement of Hon. Jeff Denham on H.R. 4191, the Quicker 
                     Veterans Benefits Delivery Act

    Thank you for allowing me the opportunity to testify this morning 
in regard to the Quicker Veterans Benefits Delivery Act. The bill will 
end redundant Department of Veterans Affairs claims processing 
practices and allow veterans in my district to receive their benefits 
more rapidly.
    I do not need to remind the members of this committee of the 
struggles faced by veterans trying to receive their disability 
compensation. Currently at the Oakland Regional Office of the Veterans 
Benefits Administration, which serves the veterans in my district, 
there are over 20,000 pending claims. 12,000 of those claims have been 
pending for more than 125 days. Nationwide, by the VA's own count there 
are more than 638,000 pending claims. 360,000 of these have been 
pending for more than 125 days.
    Secretary Shinseki set the goal of eliminating the disability 
claims backlog by 2015 and this committee and Congress responded by 
providing billions in additional funding to improve technology, hire 
additional staff and reform the rating process for timelier decisions. 
The VSOs were also a vital part of this total effort, working hand in 
hand with the VA to create the Fully Developed Claims process to 
certify claim packets before they are submitted so that they can be 
swiftly approved.
    However, while these efforts are important, we are skeptical that 
these initiatives alone will break the backlog by the stated goal of 
2015. Congress needs to do more to bolster the VA's current efforts to 
modernize its operations and promote further improvements in order to 
get veterans' claims and compensation needs settled faster.
    With that in mind, Congressman Walz and I worked with Veteran 
Service organizations to draft the Quicker Veterans Benefits Delivery 
Act. The bill will require the VA to maximize the use of private 
medical evidence. The bill would allow veterans to see their own doctor 
instead of waiting for an appointment with VA physicians who are often 
overworked or far away from the veteran's home. Congressman Walz and I 
both represent rural veterans, many of them elderly, and the challenge 
of traveling long distances for an appointment is one of their biggest 
barriers to accessing their veterans' benefits. This bill will help 
remove that hurdle from the benefits claims process.
    Additionally this bill will conserve the VA's resources, allowing 
VA physicians to concentrate on patients with immediate needs rather 
than spend substantial time filling out disability claims paperwork.
    We understand that there isn't one silver bullet that will break 
the backlog. However, the Quicker Benefits Delivery Act provides 
substantial, innovative, results-oriented measures that work to bolster 
the VA's current efforts.
    I would like to thank the Veterans of Foreign Wars, the American 
Legion and the Association of the United States Navy for their support 
of this legislation.
    Additional Signatures

                                 <F-dash>

         Prepared Statement of Hon. Ander Crenshaw on H.R. 4141

    Thank you, Mr. Chairman. Thank you, Ranking Member Titus and the 
subcommittee for allowing me to testify on behalf of the legislation I 
have introduced, H.R. 4141, a bill to honor the fallen at national 
cemeteries.
    The veterans of the United States deserve all recognition we can 
provide for their faithful and dedicated service to our Nation. One way 
we can recognize these veterans is by allowing veteran organizations to 
build and maintain facilities on federal property that can be used to 
honor the fallen and pay tribute to those who have made the ultimate 
sacrifice.
    Passage of H.R. 4141 will authorize the Department of Veterans 
Affairs (VA) to accept organization's requests to use National Cemetery 
land for purposes that support the mission of the VA. The use of this 
land includes the creation of memorials and pavilions, paid for by 
private funds that will honor our fallen and past veterans and provide 
space for their loved ones to gather and reflect.
    Until 2012, the VA could enter into Enhanced Use Leases (EULs) that 
furthered the mission of the Department and enhanced the use of the 
property in ways that would result in the improvement of medical care 
and services to veterans in the geographic area. The maximum lease term 
was 75 years, and the VA was to charge ``fair consideration'' for the 
lease, including in-kind payment.
    The ability of the VA to offer EULs was changed as part of the 
Honoring America's Veterans and Caring for Camp Lejeune Families Act 
(P.L. 112-154). In this act, Congress limited the circumstances under 
which the VA may enter into EULs to ``the provision of supportive 
housing.''
    H.R. 4141 does not reduce the requirements or authority of the 
Secretary of Veterans Affairs, or the National Cemetery Administration 
(NCA), to determine the proper way to ensure our veterans are honored. 
Instead, the legislation provides an additional avenue for the VA to 
work with groups to honor our veterans in a way that benefits local 
communities at minimal cost to the federal government.
    This issue was brought to my attention by a Jacksonville, Florida, 
organization that has been working on a project to build a memorial 
center since the creation of the Jacksonville National Cemetery in 
2007. In 2012, after years of hard work navigating the VA and NCA 
bureaucracy, the leaders of the Jacksonville National Cemetery memorial 
project were informed that it was no longer possible to obtain an 
enhanced use lease because the law had changed, and all their effort 
has been for not.
    In North Florida, The Jacksonville National Cemetery Memorial 
Center would give 7,000 veterans and their families much needed 
services that are not provided at any of our current national 
cemeteries. It could include a commemorative hall and archive building. 
These spaces could provide families of the fallen places to gather and 
honor their loved ones, and would provide a place for the general 
public to learn more about those who have fought for our great Nation. 
The 7,000 veterans I mentioned are in North Florida alone. All over 
America, communities will come together to honor their fallen sons and 
daughters. These centers could become places for kindred spirits to 
gather and recognize the countless men and women who have given so much 
to their countries and their communities.
    One of the most important features of this legislation is that we 
reinforce the reason these cemeteries exist, and that is to inter and 
honor our veterans. Future EULs will make it possible for memorials to 
be built to honor a community's local heroes, but will be regulated and 
overseen by the VA and NCA, and ultimately by this subcommittee and 
others with oversight responsibilities. After all, it is essential that 
we keep in mind that the cemeteries exist to lay to rest those brave 
men and women who have put themselves in harm's way for our Nation.
    This legislation provides a way for the American people to honor 
our veterans as we move past more than a decade of war. It is also a 
way for communities to build memorial halls and pavilions showing 
respect for the honor, courage, and commitment of their loved ones. 
Additionally, the ability of organizations to build memorials will 
enhance the education of generations to come. One of the best ways that 
we can pass on a legacy of service and citizenship is by teaching our 
children and grandchildren about the sacrifices made by their 
forefathers.
    Mr. Chairman, again, thank you and this subcommittee for giving me 
the opportunity to testify on H.R. 4141. I look forward to discussing 
these important issues with you, the distinguished members of the 
committee, and the veteran service organizations who continually work 
to ensure the American people keep our veterans in the forefront of our 
minds.

                                 <F-dash>

                Prepared Statement of Hon. Steve Stivers

    I want to thank Chairman Runyan for holding this important 
legislative hearing today on my bipartisan legislation, the Honor Those 
Who Served Act. The measure before the committee today will make it 
easier to provide headstones or markers for veterans who currently do 
not have a headstone and lay in an unmarked grave.
    In 2009, the U.S. Department of Veterans Affairs (VA) issued a rule 
change that required `Next of Kin' (NOK) be notified before a veteran 
received an initial headstone from the VA. Previously, the VA accepted 
and processed headstone claims from funeral directors, cemetery 
officials, county veterans service officers, researchers and other 
civic organizations.
    This new regulatory barrier of obtaining the approval from the NOK 
to receive a headstone for a deceased veteran is making it more 
difficult to honor the sacrifice of our veterans.
    There are researchers, like those at the Ohio Historical Society, 
who research archives, death records, military records and genealogical 
records to determine the identity of Revolutionary and Civil War 
soldiers buried in unmarked graves. These groups then work to find the 
NOK. But, sometimes this is not possible when today's headstone 
applicants are seven generations removed from the Civil War, for 
example.
    I understand the rational of the rule to make sure family members 
are not left out of the decision-making process for obtaining a 
headstone, but the current rule is too restrictive and service 
members--especially Civil War era African American soldiers are left 
with unmarked graves.
    Those who served in the military deserve our full-support, 
especially those who gave the final measure of devotion to our great 
nation. Our veterans, regardless of what era they served in, deserve 
better than unmarked or deteriorated graves.
    That is why on May 16, 2013, I introduced H.R. 2018 that would 
stipulate that if NOK cannot be found then headstone applications may 
be filed with the VA by: the state veterans service agency, military 
researchers, local historians, genealogists, or others familiar with 
research sources or methods needed to prove a veteran's identity.
    In his second inaugural speech, President Abraham Lincoln stated, 
``To care for him who shall have borne the battle and for his widow and 
orphan,'' affirming the government's obligation to honor those who 
serve our nation. These words of Lincoln's became the VA's motto in 
1959.
    Those who gave the final measure in their service to our great 
nation deserve a final resting place with a headstone worthy of their 
dedication, commitment and devotion.
    Again, I appreciate the Chairman for allowing me to testify today 
and holding this hearing.

                                 <F-dash>

              Prepared Statement of Jeffrey C. Hall on DAV

    Chairman Runyan, Ranking Member Titus and Members of the 
Subcommittee:
    Thank you for inviting DAV (Disabled American Veterans) to testify 
at this legislative hearing of the Subcommittee on Disability 
Assistance and Memorial Affairs. As you know, DAV is a non-profit 
veterans service organization comprised of 1.2 million wartime wounded, 
injured and ill veterans and dedicated to a single purpose: empowering 
veterans to lead high-quality lives with respect and dignity. DAV is 
pleased to be here today to present our views on the bills under 
consideration by the Subcommittee.

H.R 2018


    H.R. 2018, the Honor Those Who Served Act of 2013, would amend 
Title 38, United States Code, to identify those persons who are 
eligible to request headstones or grave markers furnished by the 
Department of Veterans Affairs (VA). Currently Section 2036 of the law 
specifies who may request a headstone or marker from the VA. H.R. 2018 
clarifies this issue by expanding the language of Section 2036 to 
identify eligible persons as the decedent's next of kin; a person 
authorized in writing by the decedent's next of kin to make such 
request; a personal representative authorized in writing by the 
decedent to make such request; when none of the aforementioned apply, a 
state veterans service agency, a military researcher, local historian, 
or a genealogist or other person familiar with the research sources and 
methods necessary to prove the identity of the decedent; or any person 
may make the request if the decedent's active military service preceded 
the application for headstone or marker by at least 62 years.
    While DAV has no specific resolution to support this particular 
matter, we are not opposed to enactment of H.R. 2018.

H.R 2088

    H.R. 2088 would direct the VA to establish a pilot program for the 
designation of 12 Regional Offices as Centers of Excellence that will 
each focus or specialize on claims involving the most complex and time 
consuming issues such as post traumatic stress disorder (PTSD), 
traumatic brain injury (TBI), and military sexual trauma (MST), as 
designated by the Secretary. While demonstrated progress was achieved 
last year in reducing the backlog of claims, other VBA initiatives 
similar to the Centers of Excellence, such as a national work queue 
model and centralized mail centers, are currently being proposed within 
the Veterans Benefits Administration (VBA).
    Although VBA has not provided detailed information about any 
national work queue model, our understanding is that this will allow 
all claims to be processed nationally by Veterans Service 
Representatives (VSRs) and Rating Veterans Service Representatives 
(RVSRs), regardless of their physical location or the origin of the 
claim. This is essentially the same approach VBA took last year when 
they processed all claims pending more than two years within a short 
period. With all claims now becoming virtual once submitted and/or 
converted electronically, claims processing can be done by any fully 
trained VSR or RVSR regardless of their physical location. This 
approach is not unlike the process of brokering claims from one 
Regional Office to another when assistance is needed, which VBA has 
relied heavily upon over the years. So taking the basic concept of 
brokering claims and VBA's ``all hands'' strategy they used last year 
to process the oldest claims and applying it to national workload may 
have the potential for success; however, we are just learning more 
details of how the national work queue model will work.
    For the past several years, VBA has discussed the general concept 
of establishing Centers of Excellence, wherein specific Regional 
Offices would be designated to process specific types of claims for the 
entire country. For example, a particular Regional Office would be 
designated as a Center of Excellence for claims involving PTSD, TBI, 
and MST, and all claims containing such conditions would be processed 
by that facility for the entire country.
    While Centers of Excellence could relieve the majority of VAROs 
from processing some of the more time consuming, complex claims, it 
must be done properly, with certain principles guiding such as model. 
One key question is would multiple issue claims be split by issues and 
processed by multiple centers? What would happen when a VARO receives a 
claim for PTSD and an orthopedic condition--would the origin VARO 
process the orthopedic condition or would a PTSD Center of Excellence 
process all issues? Such questions are crucial and we believe that VBA 
must move in a deliberate and thoughtful manner to ensure that Centers 
of Excellence are truly ``excellent,'' not just ``centers'' for 
complex, time consuming claims. For these reasons, we recommend that 
VBA begin with just four Centers of Excellence and that they carefully 
study whether or not they are successful before expanding to additional 
ROs. In addition, it is important that employees at these Centers of 
Excellence receive comprehensive training on their specialty.
    Additionally, with the national work queue model being developed 
and all claims becoming virtual, is an entire Regional Office being 
designated as a Center of Excellence still a viability? Since all 
claims are virtual and physical location may be less important now, 
maybe it would be more prudent for VBA to designate particular 
individuals or teams in every Regional Office who would process certain 
issues such as PTSD, TBI and MST instead of an entire Regional Office 
being dedicated to those issues. To be clear, DAV is not opposed to the 
concept of establishing Centers of Excellence as there are certain 
advantages, such as all specialized claims being processed by a select 
group of experts. However, given the progress with VBA's technology, 
specifically the Veterans Benefits Management System, contemplation 
should be given to the alternatives through technology versus 
designating an entire Regional Office as a Center of Excellence, which 
may very well become a centralized repository of the most backlogged 
claims because they are most time consuming and complex.
    While we do have questions about establishing Centers of 
Excellence, we agree with the principal intent of the legislation, 
which is to redirect the most time consuming and complex claims away 
from the national workload, possibly reducing the backlog, and into the 
hands of select individuals who receive support and training as experts 
in particular matters. However, we do request DAV, other veterans 
service organizations and interested stakeholders be included in as 
much of the deliberation, development, and strategy process as 
possible, as well as kept apprised throughout.

H.R 2119

    H.R. 2119, the Veterans Access to Speedy Review Act, would allow 
the Board of Veterans' Appeals upon receiving a request for hearing to 
determine, for the purposes of scheduling the hearing for the earliest 
date possible as well as the location of the hearing and the type of 
hearing, be it in person or by use of videoconferencing equipment. Once 
the appellant is notified of the Board's determination of the type and 
location of the hearing, the veteran would be able to request a 
different type or location, and if so, the Board may grant such request 
while ensuring the hearing is scheduled as soon as possible and without 
delay.
    While we support the purpose of H.R. 2119 and take no issue with 
the Board determining the type and location of a hearing, we do not 
agree with the language of the bill where it states ``if so requested, 
the Board may grant such request.'' Specifically, this bill as written 
would allow the Board to determine the type and location of a hearing 
and deny a request from a veteran who prefers to have an in-person 
hearing with a Board member rather than a video conference hearing. We 
believe the veteran's right to a hearing also includes the right to 
choose the type and location, which could be adversely impacted with 
this bill as written, so in order to preserve such right, we recommend 
the aforementioned sentence be changed to, ``if so requested, the Board 
shall grant such request . . . ''
    DAV would support enactment of H.R. 2119 if the language is amended 
to prevent the Board from overriding a veteran's requested venue for a 
hearing.

H.R 2529

    H.R. 2529, the Veteran Spouses Equal Treatment Act, would amend 
title 38, United States Code, redefine the term ``spouse'' to recognize 
new state definitions of such term for the purpose of the laws 
administered by the VA.
    DAV has no resolution on this particular matter, and has no 
position on this bill.

H.R 3671

    H.R. 3671 would amend title 38, United States Code, to expand the 
eligibility for a medallion furnished by the VA, which is used to 
signify the status of a deceased individual as a veteran. Currently, 
Section 2306(d)(4) states, ``in lieu of furnishing a headstone or 
marker under this subsection, the Secretary may furnish, upon request, 
a medallion or other device of a design determined by the Secretary to 
signify the deceased's status as a veteran, to be attached to a 
headstone or marker furnished at private expense.'' H.R. 3671 would 
expand eligibility to persons ``regardless of the date of the death of 
individual for whom the medallion or other device is furnished.''
    While DAV has no specific resolution on this particular matter, we 
are not opposed to enactment of H.R. 3671.

H.R 3876

    H.R. 3876, the Burial with Dignity for Heroes Act of 2014, would 
direct the Secretary of Veterans Affairs to carry out a program to make 
grants to eligible entities to provide for the cost of burials for 
homeless veterans who are eligible to be buried in national cemeteries 
and when the Secretary determines the veteran has no next of kin. 
Currently, the law allows the surviving spouse, dependent child or 
dependent parent to receive a $2,000 burial allowance when the death is 
service related, and $300 when the death is not service related. H.R. 
3876 does not specify the amount of the intended grant, which would be 
payable to an individual who may not even be related to the decedent 
homeless veteran. While we certainly agree with the intent of H.R. 
3876, we do not believe the amount should exceed the burial allowance 
provided to eligible survivors.
    While DAV has no specific resolution on this particular matter, we 
would not be opposed to its enactment as long as our concerns above are 
addressed.

H.R 4095

    H.R. 4095, the Veterans' Compensation Cost-of-Living Adjustment Act 
of 2014 would increase, effective December 1, 2014, the rates of 
compensation for veterans with service-connected disabilities and the 
rates of dependency and indemnity compensation (DIC) for the survivors 
of certain disabled veterans. A cost-of-living adjustment (COLA) was 
passed last year at the modest increase of 1.5%, which did not include 
the long standing practice of rounding down to the nearest whole dollar 
amount. As you know, many disabled veterans and their families who rely 
heavily or solely on VA disability compensation or DIC as their only 
means of financial support have struggled during these difficult times. 
While the economy has faltered, their personal economic circumstances 
have been negatively affected by rising costs of many essential items, 
including food, medicines and gasoline. Rising inflation continues to 
be a major factor, so it is imperative that veterans and their 
dependents receive a timely COLA and DAV supports enactment of H.R. 
4095, which is in accordance with our resolution.
    However, in keeping with another longstanding resolution, DAV is 
adamantly opposed to Section 2(c)(2) of the bill that once again 
requires the unacceptable practice of ``rounding down'' COLA increases 
to the next lower whole dollar amount, which incrementally reduces the 
support to disabled veterans and their families and survivors. The 
practice of permanently ``rounding down'' a veteran's COLA to the next 
lower whole dollar amount can cause undue hardship for veterans and 
their survivors whose only support comes from these programs and it is 
time to end this practice, which was only intended to be a temporary 
measure more than twenty years ago.

H.R 4102

    H.R. 4102 would expand Title 38, United States Code, to include the 
estate of a deceased veteran as an eligible recipient of certain 
accrued benefits upon the death of the veteran when such benefits would 
not be payable to any survivor. Currently, Section 5121 does not allow 
accrued benefits payable upon death of the veteran to be paid to any 
entity other than eligible survivors, and if there are none, 
essentially those benefits, which can be in the hundreds of thousands 
of dollars, are lost or forfeited. Enactment of this bill would allow 
the deceased veteran's estate to be eligible for such benefits.
    This legislation is designed to correct an unfair practice that 
currently denies the lawful heirs of a deceased veteran from receiving 
these earned funds. Accordingly, DAV supports enactment of H.R. 4102.

H.R 4141

    H.R. 4141 would amend Title 38, United States Code, authorizing the 
VA to enter into enhanced-use leases for excess property of the 
National Cemetery Administration, which has been deemed unsuitable for 
burial purposes.
    While DAV has no specific resolution on this particular matter, we 
are not opposed to enactment of H.R. 4141.

H.R 4191

    H.R. 4191, the Quicker Veterans Benefits Delivery Act, would expand 
Section 5125 of title 38, United States Code, to improve how private 
medical evidence submitted in support of a claim for disability 
compensation is treated by the VA.
    Currently, Section 5125 states, ``for purposes of establishing any 
claim for benefits . . . a report of a medical examination administered 
by a private physician that is provided by a claimant in support of a 
claim . . . may be accepted without a requirement for confirmation by 
an examination by a physician employed by the Veterans Health 
Administration if the report is sufficiently complete to be adequate 
for the purpose of adjudicating such claim.'' Currently the VA has the 
option of accepting such private medical evidence within the present 
language of ``may be accepted'' as contained within Section 5125. H.R. 
4191 removes such option and replaces ``may'' with ``shall,'' which 
will require the VA to accept private medical evidence submitted by the 
veteran, while also clarifying the term ``sufficiently complete'' to 
mean evidence that is competent, credible, probative, and containing 
such information as may be required to make a decision on the claim for 
which the evidence is provided.
    DAV is very much interested in the VBA reducing the backlog of 
pending disability claims, but as we have consistently maintained, not 
at the risk of reducing quality. Likewise, DAV has been a longtime 
proponent of certain actions VBA could take, which could have a 
positive impact on the speed of the claims process. Requiring VBA to 
accept private medical evidence submitted by the veteran, so long as it 
is adequate for rating purposes, as is the intent of Section 2 of this 
bill, is one type of action DAV has strongly advocated for in recent 
years.
    In accordance with our resolution to improve the claims process, 
DAV strongly supports enactment of H.R. 4191.
    Mr. Chairman, this concludes my testimony and I would be happy to 
answer any questions from you or members of the Subcommittee.

                                 <F-dash>

          Statement of Iraq & Afghanistan Veterans of America

   Statement of Iraq & Afghanistan Veterans of America on Pending Disability and Memorial Affairs Legislation
----------------------------------------------------------------------------------------------------------------
                Bill #                        Bill name                 Sponsor                  Position
----------------------------------------------------------------------------------------------------------------
H.R. 2018                              Honor Those Who Served   Rep. Stivers             Support
                                        Act of 2013
----------------------------------------------------------------------------------------------------------------
H.R. 2088                              A bill to establish      Rep. Michaud             Support
                                        centers of excellence
                                        for claims
                                        adjudication of
                                        complex medical
                                        conditions.
----------------------------------------------------------------------------------------------------------------
H.R. 2119                              Veteran Access to        Rep. Ruiz                Support
                                        Speedy Review Act
----------------------------------------------------------------------------------------------------------------
H.R. 2529                              Veteran Spouses Equal    Rep. Titus               Support
                                        Treatment Act
----------------------------------------------------------------------------------------------------------------
H.R. 3671                              A bill to expand         Rep. Miller              Support
                                        eligibility for
                                        medallions furnished
                                        by VA to signify
                                        veteran status.
----------------------------------------------------------------------------------------------------------------
H.R. 3876                              Burial with Dignity for  Rep. Green               Support
                                        Heroes Act of 2014
----------------------------------------------------------------------------------------------------------------
H.R. 4095                              Veterans' Compensation   Rep. Runyan              Support
                                        and Cost-Of-Living
                                        Adjustment Act of 2014.
----------------------------------------------------------------------------------------------------------------
H.R. 4102                              A bill to authorize an   Rep. Miller              Support
                                        estate of a deceased
                                        veteran to receive
                                        accrued benefits upon
                                        death.
----------------------------------------------------------------------------------------------------------------
H.R. 4141                              A bill to authorize VA   Rep. Crenshaw            Support
                                        to enter into enhanced-
                                        use leases for excess
                                        property at NCA.
----------------------------------------------------------------------------------------------------------------
H.R. 4191                              Quicker Veterans         Rep. Walz                Support
                                        Benefits Delivery Act
----------------------------------------------------------------------------------------------------------------

    Chairman Runyan, Ranking Member Titus, and Distinguished Members of 
the Subcommittee:
    On behalf of Iraq and Afghanistan Veterans of America (IAVA), I 
would like to extend our gratitude for being given the opportunity to 
share with you our views and recommendations regarding this important 
legislation that will impact the lives of IAVA's members and all of 
America's troops and veterans.
    As the nation's first and largest nonprofit, nonpartisan 
organization for veterans of the wars in Iraq and Afghanistan, IAVA's 
mission is critically important but simple--to improve the lives of 
Iraq and Afghanistan veterans and their families. With a steadily 
growing base of nearly 270,000 members and supporters, we aim to help 
create a society that honors and supports veterans of all generations.
    In partnership with other military and veteran service and advocacy 
organizations, IAVA has worked tirelessly to see that our members' 
needs are appropriately addressed by the Department of Veterans Affairs 
(VA) and by Congress. IAVA appreciates the efforts put forth by this 
Subcommittee to address the challenges facing our nation's veterans and 
their families, and we are proud to offer our support for the 
legislation that is the subject of this hearing today.

H.R 2018

    IAVA supports H.R. 2018, the Honor Those Who Served Act, which 
would expand the list of individuals eligible to request a headstone 
for a veteran. Enabling additional authorized requestors will help 
ensure more veterans receive the recognition they deserve. IAVA 
supports all veterans receiving such recognition and encourages 
Congress to approve the proposed authorization expansion.

H.R 2088

    IAVA supports H.R. 2088, which would require the VA to establish a 
pilot program for claims processing ``Centers of Excellence'' that 
would focus on adjudicating disability compensation claims for certain 
types of medical issues.
    In order to help facilitate the transition to a 21st century VA, 
IAVA supports utilizing practices which streamline and improve the 
claims adjudication process. This proposed Center of Excellence pilot 
program will allow the VA to develop sets of teams that will be highly 
proficient at processing certain types of claims. IAVA believes such 
Centers of Excellence hold the potential to help improve the efficiency 
of the claims adjudication process, and we encourage the VA to continue 
implementing innovative work management solutions.
    However, IAVA does share some of the concerns other VSOs have 
raised with the potential unintended consequences of brokering claims 
work in this manner. While this process can potentially help the VA 
adjudicate claims more quickly, there are several important issues that 
must also be addressed if the VA plans on expanding this program beyond 
the pilot level.
    Most importantly, the process of brokering work does not 
necessarily address the underlying inefficiencies and issues at under-
performing regional offices. In order to improve the system overall, 
the internal processes and management of each regional office must be 
reviewed and adjusted if an office continues to be incapable of 
managing its own workload. The successful work flow of each and every 
regional office will ultimately be critical to not only eliminating the 
backlog by 2015, but also preventing a recurrence of the backlog in the 
future.
    Additionally, our colleague VSOs have raised concerns about the 
issue of ``ownership'' with brokered claims. Since the VA typically 
processes claims in the same state or region where the claimant 
resides, moving claims to different states or regions of the country 
potentially removes a sense of ``ownership'' and may have an impact on 
the quality of many brokered claims. It is imperative that the VA 
address this potential ownership issue before expanding the number 
brokered claims.
    And finally, the effect that brokering work may have on the 
services and support offered by veteran service officers during the 
claims process must also be carefully considered. The relationships 
these service officers develop with veterans and claims adjudicators 
within their respective regional offices is important. When work is 
brokered to states or regions far removed from a veteran service 
officer, the benefit of that relationship may be lost. The VA must work 
with the VSO community to ensure the critical coordination between 
veteran service officers and claims adjudicators is protected.

H.R 2119

    IAVA supports H.R. 2119, the Veteran Access to Speedy Review Act, 
which would authorize the Board of Veterans Appeals to hold hearings at 
alternative locations or use videoconferencing technology in order to 
schedule hearings at the earliest possible date.
    The number of veterans waiting on disability rating appeals 
decisions continues to increase. However, veterans should not have to 
wait for a hearing due to simple logistical concerns. Efforts to hold 
appeals hearings at the earliest possible date is critical to the VA 
addressing claims appeals in a timely manner. Additionally, IAVA 
supports the right of the veteran to object to alternative locations or 
hearing types while still being offered the earliest possible hearing 
date.

H.R 2529

    IAVA supports H.R. 2529, the Veteran Spouses Equal Treatment Act, 
which would amend the definition of ``spouse'' within Title 38 to 
recognize all valid marriages for the purposes of receiving all VA 
benefits.
    The need for equitable access to benefits and VA services for all 
veterans and their families is critical to ensuring the VA is providing 
the highest level of care and services, and also to making sure that VA 
is on par with what DoD is offering to troops. IAVA supports equitable 
treatment of all veterans and their families and supports the changes 
this legislation seeks to make to Title 38. However, Section 103(c) of 
Title 38 must also be amended to make the proposed changes effective. 
IAVA encourages this Subcommittee to also amend Section 103(c) of Title 
38.

H.R 3671

    IAVA supports H.R. 3671, which expands the eligibility for 
medallions furnished by the VA to signify the veteran status of a 
deceased individual. If a veteran is buried in a private cemetery, the 
VA may provide a headstone or marker to signify veteran status. In lieu 
of a headstone or marker, the VA may also provide a medallion to 
signify veteran status. This legislation amends Title 38 to authorize 
these medallions regardless of the date of death of the veteran. IAVA 
believes that all veterans deserve proper honor and recognition and, 
therefore, we support this change in law.

H.R 3876

    IAVA supports H.R. 3876, the Burial with Dignity for Heroes Act of 
2014, which would provide grants to cover the burial costs of homeless 
veterans.
    All veterans deserve the dignity and honor earned with military 
service, and no veteran should be forgotten simply because of 
homelessness. Until veteran homelessness is eradicated, it is 
imperative that the VA ensure all veterans are honored with dignity at 
burial regardless of their personal situation.

H.R 4095

    IAVA supports H.R. 4095, the Veterans' Compensation and Cost-Of-
Living Adjustment Act of 2014, which would provide an increase in the 
rates of compensation for veterans with a service-connected disability 
and the rates of dependency and indemnity compensation for survivors of 
certain veterans.
    The rates of service-connected disability compensation and 
dependency and indemnity compensation for survivors must be adjusted to 
account for inflation. These adjustments are necessary to continue 
providing veteran and survivor compensation rates that are adequate for 
increased cost-of-living expenses.
    As the December 2013 budget deal demonstrated, veterans and their 
families are not exempt from budget cuts and fiscal limitations. 
However, earned benefits should never be compromised. This proposed 
statutory cost-of-living adjustment is needed to safeguard compensation 
benefits for veterans and their families. IAVA believes that veterans 
and survivors should always be guaranteed fiscal security that is 
adjusted to account for a changing economy.

H.R 4102

    IAVA supports H.R. 4102, which would authorize the estate of a 
deceased veteran to receive accrued benefits upon the death of the 
veteran.
    The case of Sergeant First Class (SFC) Shelton Hickerson, mentioned 
in this legislation, is an unfortunate illustration of the hardship 
that long wait times and multiple appeals can place on veterans and 
their families. SFC Hickerson was a retired Vietnam veteran who had 
multiple strokes, two of which occurred while still on active duty. He 
spent over a decade waiting for his disability compensation claim to be 
accurately adjudicated, but he passed away one day before receiving his 
final adjudication.
    Unfortunately, SFC Hickerson's story is not unique. As currently 
written, if a veteran does not have a spouse or any children under the 
age of 18, the earned benefits remain in with the U.S. Treasury. In 
addition to its responsibility to serve and care for the veteran, a 
core aspect of VA's mission is also to care for the survivors of 
veterans. As a result, it is logical that VA has a responsibility to 
grant the estate of a veteran all accrued benefits if a veteran dies 
while stuck in the claims process.

H.R 4141

    IAVA supports H.R. 4141, which authorizes the VA to enter into 
enhanced-use leases for excess property unsuitable for burial within 
the domain of the National Cemetery Administration (NCA).
    The VA's enhanced-use lease program is considered an innovative 
asset management program within the government. It allows the VA to 
optimize its asset management capabilities by entering into agreements 
with entities that utilize VA facilities to contribute to the overall 
mission of the VA. Specifically looking at land owned by the NCA, IAVA 
supports land unsuitable for burial should being eligible for enhanced-
use leases in order to maximize the capabilities of the NCA while 
effectively managing all assets.

H.R 4191

    IAVA supports H.R. 4191, the Quicker Veterans Benefits Delivery 
Act, which would improve the treatment of medical evidence provided by 
non-VA medical professionals in support of disability compensation 
claims.
    IAVA strongly supports efforts to minimize the burden placed on 
veterans when filing disability compensation claims. If a veteran 
provides medical evidence from a licensed medical professional that 
supports their claim with the VA, the VA should consider this evidence 
with the same gravity as medical evidence from VA medical 
professionals. As currently written, Title 38 states that the VA may 
consider evidence from non-VA medical professionals, but does not 
require the VA to consider this type of evidence. Title 38 should be 
amended to eliminate this ambiguity.
    Mr. Chairman, we at IAVA again appreciate the opportunity to offer 
our views on these important pieces of legislation, and we look forward 
to continuing to work with each of you, your staff, and this 
Subcommittee to improve the lives of veterans and their families.
    Thank you for your time and attention.

    Bio of Alexander Nicholson, Legislative Director, Iraq and 
Afghanistan Veterans of America: Alexander Nicholson serves as the 
Legislative Director for Iraq and Afghanistan Veterans of America 
(IAVA). As one of IAVA's top advocates on Capitol Hill, Mr. Nicholson 
helps shape IAVA's legislative strategies and priorities throughout the 
year. He is responsible for developing relationships, assisting in 
advocacy efforts, and implementing IAVA's Policy Agenda. Prior to 
joining IAVA, Mr. Nicholson founded and led the advocacy group 
Servicemembers United for the preceding seven years.
    Mr. Nicholson holds a Bachelors degree in international affairs 
from the University of South Carolina, a Masters degree in public 
administration from the University of North Georgia, and is currently 
completing the dissertation on his Ph.D. in political science from the 
University of South Carolina.
Statement on receipt of Federal Grant or Contract Funds:
    Neither Mr. Nicholson nor the organization he represents, Iraq and 
Afghanistan Veterans of America, has received federal grant or contract 
funds relevant to the subject matter of this testimony during the 
current or two previous fiscal years.

                                 <F-dash>

                Prepared Statement of Heather L. Ansley

    Executive Summary of the Testimony of VetsFirst, a program of 
United Spinal Association

Honor Those Who Served Act of 2013 (H.R. 2018)

    Although we do not typically comment on specific memorial affairs 
issues, we support efforts to ensure that veterans receive proper 
headstones or makers.

Pilot to Establish Claims Adjudication Centers of Excellence (H.R. 
2088)

    We believe that efficiencies may be gained from allowing claims 
with complex medical conditions to be worked by specialized employees 
at centers of excellence. However, we suggest that this legislation be 
amended to provide specific reporting requirements to Congress 
assessing the pilot's success, including interim reports identifying 
any problems in implementing the pilot.

Veterans Access to Speedy Review Act (H.R. 2119)

    We would support this legislation if amended to ensure that an 
appellant's request for a different location or type of Board of 
Veterans' Appeals hearing must be granted.

Veteran Spouses Equal Treatment Act (H.R. 2529)

    We support this legislation which will ensure access to benefits 
for same-sex couples with legally recognized marriages.

Furnishing of Medallion to Signify Veteran Status of Deceased 
Individual (H.R. 3671)

    Although we do not typically comment on specific memorial affairs 
issues, we support efforts to ensure that veterans of all eras are able 
to receive benefits that acknowledge their military service.

Burial With Dignity for Heroes Act of 2014 (H.R. 3876)

    We do not have an official position on this legislation.

Veterans' Compensation Cost-of-Living Adjustment Act of 2014 (H.R. 
4095)

    We support swift passage of this legislation, but urge that the 
round down be removed.

Eligibility of Estates of Deceased Veterans to Receive Accrued Benefits 
(H.R. 4102)

    We urge swift passage of this legislation to protect the accrued 
benefits of deceased veterans.

Enhanced-Use Leases for Excess Property of the National Cemetery 
Administration (H.R. 4141)

    We support enhanced-use lease authority for excess National 
Cemetery Administration property.

Quicker Veterans Benefits Delivery Act (H.R. 4191)

    We support this legislation to increase the acceptance of private 
medical evidence and urge its swift passage.
    Chairman Runyan, Ranking Member Titus, and other distinguished 
members of the subcommittee, thank you for the opportunity to testify 
regarding VetsFirst's views on the bills under consideration today.
    VetsFirst, a program of United Spinal Association, represents the 
culmination of over 65 years of service to veterans and their families. 
We advocate for the programs, services, and disability rights that help 
all generations of veterans with disabilities remain independent. This 
includes access to VA financial and health care benefits, housing, 
transportation, and employment services and opportunities. Today, we 
are not only a VA-recognized national veterans service organization, 
but also a leader in advocacy for all people with disabilities.

Honor Those Who Served Act of 2013 (H.R. 2018)

    A VA headstone or maker may be requested by a decedent's next-of-
kin, a decedent's authorized representative, or a next-of-kin's 
authorized representative. This legislation would allow organizations 
or individuals that do not meet these criteria to apply for headstones 
or markers for veterans whose headstones or markers have deteriorated 
or are unmarked. VetsFirst does not typically comment on specific 
memorial affairs issues. We support efforts, however, to ensure that 
all veterans receive the full honors due them, including access to 
proper headstones or makers.

To Direct the Secretary of Veterans Affairs to Carry Out a Pilot 
Program to Establish Claims Adjudication Centers of Excellence (H.R. 
2088)


    This legislation would establish a pilot program requiring VA to 
designate 12 claims adjudication centers of excellence. These centers 
of excellence would focus on adjudicating claims related to one medical 
condition selected by the VA Secretary. Conditions selected for the 
pilot will be those that are the most complex and time consuming 
commonly occurring conditions. Employees adjudicating claims within 
these centers of excellence would receive training specifically related 
to the types of medical conditions being adjudicated.
    VetsFirst believes that efficiencies may be gained from allowing 
claims with complex medical conditions to be worked by specialized 
employees at centers of excellence. We believe, however, that this 
legislation should provide guidelines for assessing whether the pilot 
is successful, including interim reporting requirements identifying any 
problems in developing and implementing the pilot. In addition, we 
believe that VA should be required to evaluate whether the centers 
increase quality in the adjudication of the selected conditions and 
whether centers have an even distribution of work or whether some are 
overwhelmed, potentially creating new backlogs.
    As VA moves toward full implementation of electronic claims 
processing, VA may seek greater efficiencies through the adjudication 
of claims by issue at different regional offices. In the event that 
claims are processed in different locations by issue, we believe that 
an individual at the regional office having jurisdiction over the 
veteran's location should conduct a final review for benefits or 
related disabilities that may only be evident if the veteran's claim is 
reviewed holistically.

Veterans Access to Speedy Review Act (H.R. 2119)

    Appellants to the Board of Veterans' Appeals have the opportunity 
to request a personal hearing on their claim and to select the location 
and means by which the hearing occurs. This legislation would require 
the Board to schedule appeals hearings in the location that would allow 
for the earliest possible hearing date. It would also require the Board 
to determine whether the appellant is required to appear in person or 
through the use of a video conference. An appellant would have the 
opportunity to request a different location or type of hearing. This 
request may be granted by the Board.
    VetsFirst supports efforts to expedite veterans' claims appeal 
waiting times. However, we believe that if an appellant makes a request 
for a different location or type of hearing that this request should be 
granted. Ensuring that appellants have the opportunity to disagree with 
the location or type of hearing is a better way to ensure that hearings 
occur as quickly as possible while respecting appellants' rights.
    We would support legislation that ensures appellants' requests for 
a different location or type of hearing must be granted.

Veteran Spouses Equal Treatment Act (H.R. 2529)

    Nearly a year ago, the U.S. Supreme Court held that a provision of 
the Defense of Marriage Act defining the terms ``marriage'' and 
``spouse'' as used in federal law as applying only to individuals who 
are of the opposite sex was unconstitutional. As a result of the 
Court's decision, the President directed that VA no longer enforce 
prohibitions under Title 38 that would prohibit the receipt of benefits 
for otherwise eligible members of same-sex couples who have legally 
valid marriages. To facilitate access to all VA benefits available to 
legally recognized spouses, this legislation would amend Title 38 to 
define the term ``spouse'' based on whether the marriage of the 
individual was valid under an applicable state's law.
    We support this legislation which will ensure access to VA benefits 
for same-sex couples with legally recognized marriages.

To Expand Eligibility for a Medallion Furnished by the Secretary of 
Veterans Affairs to Signify Veteran Status of a Deceased Individual 
(H.R. 3671)

    Medallions signifying veteran status of a deceased individual are 
available for veterans who died on or after November 1, 1990. This 
legislation would allow VA to provide a medallion upon request 
regardless of when the veteran died. Although VetsFirst does not 
typically comment on specific memorial affairs issues, we support 
efforts to ensure that veterans of all eras are able to receive 
benefits that acknowledge their military service.

Burial With Dignity for Heroes Act of 2014 (H.R. 3876)

    To increase access to VA burial benefits for entities or 
individuals who provide for the burial of veterans with no next of kin 
or other person claiming the body, a provision of Public Law 112-260, 
which went into effect on January 10, 2014, provides greater access to 
VA burial benefits when a veteran's estate is unable to cover burial 
and funeral costs. In recent years, however, the average cost of 
funerals has significantly outpaced the benefits available through VA. 
Burial benefits range from $2000 for service-connected deaths to as low 
as $300 for non-service-connected deaths. The average cost of a funeral 
in 2012 was $7,045.\1\
---------------------------------------------------------------------------
    \1\ National Funeral Directors Association, Statistics, http://
nfda.org/about-funeral-service-/trends-and-statistics.html.
---------------------------------------------------------------------------
    This legislation would provide grants for eligible entities to 
provide for the costs of burials for homeless veterans. VetsFirst does 
not have an official position on this legislation. However, we believe 
that any grants available should take into account any increased access 
to benefits that may be available under Public Law 112-260 and the 
burden of funeral and burial costs for all veterans due to the limited 
benefits available through VA.

Veterans' Compensation Cost-of-Living Adjustment Act of 2014 (H.R. 
4095)

    Disabled veterans and their survivors depend on VA benefits to 
provide for themselves and their families. Cost of living adjustments 
(COLAs) are an important aspect of ensuring that these benefits are 
able to meet beneficiaries' basic needs.
    This legislation would ensure that the disabled veterans and their 
survivors who receive these benefits are eligible for a COLA on 
December 1, 2014. Although the COLA received in 2013 was only 1.5 
percent, this small increase is critical for disabled veterans and 
their survivors. We would request, however, that any increase not be 
rounded down to the next whole dollar amount.
    We urge swift passage of this legislation which would ensure that 
disabled veterans and their survivors are able to benefit from any COLA 
increase.

To Clarify That the Estate of a Deceased Veteran may Receive Certain 
Accrued Benefits Upon the Death of the Veteran (H.R. 4102)

    If a veteran who has no dependents is owed accrued benefits from VA 
but passes away before those benefits are released his or her estate is 
not able to receive those benefits. This legislation would ensure that 
benefits accrued to a deceased veteran will be payable to a veteran's 
estate in the event that he or she has no surviving dependents. This 
provision will only apply in those circumstances in which the estate 
would not escheat.
    The case of Mr. Shelton Hickerson, a Vietnam veteran, highlights 
the need for this legislation. Mr. Hickerson spent a number of years 
fighting his claim for VA disability compensation. Unfortunately, he 
died on the same day that VA awarded him $377,342. Because Mr. 
Hickerson had no dependents, the money owed him remains with VA. In 
addition to ensuring that the estates of other veterans would be 
eligible to receive accrued benefits, this legislation would also right 
the wrong suffered by Mr. Hickerson and his family.
    We urge swift passage of this legislation to protect the accrued 
benefits of veterans like Mr. Hickerson.

To Authorize the Secretary of Veterans Affairs to Enter Into Enhanced-
Use Leases for Excess Property of the National Cemetery Administration 
That is Unsuitable for Burial Purposes (H.R. 4141)

    VA's Enhanced-Use Lease (EUL) program allows VA to benefit from the 
lease of its property for non-VA uses that are compatible with its 
mission. In 2012, VA's EUL authority was amended to limit EULs to the 
provision of supportive housing. This legislation would allow VA to 
enter into EULs for excess property of the National Cemetery 
Administration (NCA) when that land is deemed unsuitable for burial 
purposes.
    VetsFirst supports allowing EULs for excess NCA property when that 
property can be used to further VA's mission.

Quicker Veterans Benefits Delivery Act (H.R. 4191)

    The VA disability claims backlog is a well-documented problem that 
continues to persist despite advances by VA in adjudicating older 
claims. To streamline claims for benefits, VA has sought to standardize 
the receipt of medical information through the use of Disability 
Benefits Questionnaires (DBQs). DBQs allow a veteran's physician to 
provide VA with the information that VA requires to adjudicate a 
veteran's claim for benefits without requiring a VA medical 
examination.
    Despite efforts to increase acceptance of private medical evidence, 
problems persist. This legislation would require VA to accept private 
medical evidence that is competent, credible, probative, and contains 
the information required to make a decision on a veteran's claim. In 
addition, this legislation would require VA to provide a report to 
Congress regarding VA's Acceptable Clinical Evidence initiative. 
Furthermore, VA would be required to provide an annual report with 
information about the number of times veterans who submitted private 
medical evidence are scheduled for exams because the evidence is 
determined to be unacceptable, the most common reasons why submitted 
evidence is deemed unacceptable, and the types of disabilities for 
which claims were most commonly denied when private medical evidence 
was submitted.
    VetsFirst strongly supports efforts to streamline access to VA 
benefits by ensuring that proper private medical evidence is accepted 
in the determination of benefits. It is unnecessary to force veterans 
who submit medical evidence that is sufficient to adjudicate their 
claims to be subjected to further delays for redundant VA medical 
exams. We believe that this legislation will help to ensure that 
private medical evidence is accepted when appropriate.
    We are also appreciative of reporting requirements in the 
legislation that will help to identify problem areas in the use of 
private medical evidence. Providing information about common reasons 
why evidence is not accepted will help to pinpoint changes needed to 
ensure that deficiencies in private medical evidence are remedied where 
possible. We also support the requirement to evaluate correlations 
between the rejection of private medical evidence and certain 
disabilities. We would suggest, however, that this language be amended 
to reflect a need to know when the evidence is rejected for claims by 
disability as opposed to by disability when claims that include private 
medical evidence are denied.
    We support this legislation and urge its swift passage.
    Thank you for the opportunity to testify concerning VetsFirst's 
views on these important pieces of legislation. We appreciate your 
leadership on behalf of our nation's veterans who are living with 
disabilities. I would be pleased to answer any questions.

Information Required by Clause 2(g) of Rule XI of the House of 
Representatives

    Written testimony submitted by Heather L. Ansley, Vice President of 
VetsFirst; VetsFirst, a program of United Spinal Association; 1660 L 
Street NW., Suite 504; Washington, D.C. 20036. (202) 556-2076, ext. 
7702.
    This testimony is being submitted on behalf of VetsFirst, a program 
of United Spinal Association.
    In fiscal year 2012, United Spinal Association served as a 
subcontractor to Easter Seals for an amount not to exceed $5000 through 
funding Easter Seals received from the U.S. Department of 
Transportation. This is the only federal contract or grant, other than 
the routine use of office space and associated resources in VA Regional 
Offices for Veterans Service Officers that United Spinal Association 
has received in the current or previous two fiscal years.
    Heather L. Ansley is the Vice President of VetsFirst, which is a 
program of United Spinal Association.
    Ms. Ansley began her tenure with the organization in December 2009. 
Her responsibilities include managing the public policy advocacy, 
veterans benefits services, and veterans outreach activities for 
VetsFirst. She also works to promote collaboration between disability 
organizations and veterans service organizations by serving as a co-
chair of the Consortium for Citizens with Disabilities Veterans and 
Military Families Task Force.
    Prior to her arrival at VetsFirst, she served as the Director of 
Policy and Advocacy for the Lutheran Services in America Disability 
Network.
    Before arriving in Washington, DC, she served as a Research 
Attorney for The Honorable Steve Leben with the Kansas Court of 
Appeals. Prior to attending law school, she worked in the office of 
former U.S. Representative Kenny Hulshof (R-MO) where she assisted 
constituents with problems involving federal agencies. She also served 
as the congressional and intergovernmental affairs specialist at the 
Federal Emergency Management Agency's Region VII office in Kansas City, 
Missouri.
    Ms. Ansley is a Phi Beta Kappa graduate of the University of 
Missouri-Columbia with a Bachelor of Arts in Political Science. Ms. 
Ansley also holds a Master of Social Work from the University of 
Missouri-Columbia and a Juris Doctorate from the Washburn University 
School of Law in Kansas.
    She is licensed to practice law in the State of Kansas and before 
the United States District Court of Kansas.

   Prepared Statement Diane M. Zumatto, Amvets National Legislative 
Director On:H.R. 2018, H.R. 2088, H.R. 2119, H.R. 2529, H.R. 3671, H.R. 
           3876, H.R. 4095, H.R. 4102, H.R. 4141 & H.R. 4191

                            EXECUTIVE SUMMARY
------------------------------------------------------------------------
             Bill #                   Title/Topic       AMVETS Position
------------------------------------------------------------------------
H.R. 2018                         Honor Those Who     Support
                                   Served Act of
                                   2013
H.R. 2088                         Claims              Support
                                   adjudication
                                   centers of
                                   excellence
H.R. 2119                         Veterans Access to  Support
                                   Speedy Review Act
H.R. 2529                         Veteran Spouses     Support
                                   Equal Treatment
                                   Act
H.R. 3671                         Expand the          Support
                                   eligibility for
                                   veteran
                                   medallions
H.R. 3876                         Burial with         Support
                                   Dignity for
                                   Heroes Act of
                                   2014
H.R. 4095                         Veterans'           Support
                                   Compensation COLA
                                   Act of 2014
H.R. 4102                         Deceased veteran    Support
                                   benefits
H.R. 4141                         Enhanced-use        Support
                                   leases for NCA
H.R. 4191                         Quicker Veterans    Support
                                   Benefits Delivery
                                   Act
------------------------------------------------------------------------

    Chairman Runyan, Ranking Member Titus and distinguished members of 
the subcommittee, I appreciate the opportunity to offer our insight 
into the legislation being considered today, specifically: H.R. 2018; 
H.R. 2088; H.R. 2119; H.R. 2529; H.R. 3671; H.R. 3876; H.R. 4095; H.R. 
4102; H.R. 4141; & H.R. 4191.

H.R 2018

    Honor Those Who Served Act of 2013--AMVETS supports this bill which 
will make it easier to provide headstones for veterans who currently 
don't have a headstone, or for those whose headstones have deteriorated 
when there is no Next of Kin available by broadening the definition of 
those eligible to request a headstone or marker from the VA.
    From a preservation or historical point of view, this is a positive 
step forward in helping to identify and recognize veterans who lack any 
living relatives or whose relatives are unreachable. The placement of 
headstones on previously unmarked or illegible veteran graves helps to 
honor and preserve the individual stories of the brave American heroes 
from our past.

H.R 2088

    A bill to direct the VA to carry out a pilot program to establish 
claims adjudication centers of excellence--AMVETS supports the concept 
of this legislation but would suggest 15, rather than 12, adjudication 
centers of excellence. We believe there should be one center for each 
of the VA's 15 body systems, which are:

        <bullet> Musculoskeletal;
        <bullet> Organs of Special Sense;
        <bullet> Impairment of Auditory Acuity;
        <bullet> Infectious Diseases, Immune Disorders & Nutritional 
        Deficiencies;
        <bullet> Respiratory;
        <bullet> Cardiovascular;
        <bullet> Digestive;
        <bullet> Genitourinary;
        <bullet> Gynecological Conditions & Disorders of the Breast
        <bullet> Hemic & Lymphatic;
        <bullet> Skin;
        <bullet> Endocrine;
        <bullet> Neurological Conditions & Convulsive Disorders;
        <bullet> Mental Disorders; and
        <bullet> Dental & Oral Conditions

    With the institution of this model, gone will be the days of VA 
raters needing to be `jacks-of-all-trades and masters of none'. 
Instead, body system `experts' will evaluate all claims based on their 
individual area of expertise. Thanks to the capabilities of the VBMS 
system (each claim issue is associated with a unique number), claims 
could be electronically divided up into individual parts or issues, 
forwarded to the appropriate center of excellence, each issue would 
then be rated by an expert, after all issues have been rated, the claim 
can be reassembled and the veteran notified of the outcome. This should 
go a long way to speeding up the entire claims process.

H.R 2119

    Veterans Access to Speedy Review Act--AMVETS supports this 
legislation which seeks to speed up the veteran appeal process by 
providing options for the location/type of hearing, including video 
conferencing, conducted by the Board of Veterans' Appeals.

H.R 2529

    Veteran Spouses Equal Treatment Act--AMVETS supports this 
legislation because of passage of the Defense of Marriage Act and 
because it would bring VA policy in line with DoD's on same sex 
marriage. In June of 2013, Sec. Defense Hagel said, ``The Department of 
Defense intends to make the same benefits available to all military 
spouses--regardless of sexual orientation--as soon as possible. That is 
now the law, and it is the right thing to do.''

H.R 3671

    A bill to expand the eligibility for a medallion or other device 
furnished by the VA to signify veteran status--AMVETS fully supports 
this legislation which authorizes the VA to provide a medallion or 
other device to signify the veteran status of a deceased individual 
regardless of when the decedent passed away. This memorial device 
should be available for display on any and all veteran's headstones if 
desired.

H.R 3876

    Burial with Dignity for Heroes Act of 2014--AMVETS whole-heartedly 
supports this legislation which will provide grants to eligible 
entities to provide for the cost of burials for homeless veterans with 
no next-of-kin who are eligible to be buried in national cemeteries. 
Anyone who has honorably served their country in the Armed Forces 
should be buried with all appropriate honors and respect regardless of 
their housing status.

H.R 4095

    Veterans' Compensation Cost-of-Living Adjustment Act of 2014--
AMVETS supports this legislation which would increase, as of 1 December 
2014, the rates of veterans' disability compensation, additional 
compensation for eligible dependents, the clothing allowance for 
certain disabled veterans and dependency and indemnity compensation for 
surviving spouses and children. This country owes an enormous debt of 
gratitude to those who have served and sacrificed and it is right and 
just to adequately provide for their on-going needs.

H.R 4102

    A bill to clarify that the estate of a deceased veteran may receive 
certain accrued benefits upon the death of the veteran--AMVETS supports 
this legislation.

H.R 4141

    A bill to authorize the VA to enter into enhanced-use leases for 
excess property of the National Cemetery Administration that is 
unsuitable for burial purposes--AMVETS fully supports this legislation 
which seeks to extract monetary or in-kind value from unusable, excess 
property located within the boundaries of the National Cemetery System. 
Careful and creative stewardship of federal resources which encourage 
public/private ventures and enhance the ambience of our national 
cemeteries should be encouraged. Furthermore, land that would otherwise 
serve no purpose would not only bring in revenue while maximizing the 
overall usage of the land, but would also contribute to the mission of 
the NCA.

H.R 4191

    Quicker Veterans Benefits Delivery Act--AMVETS support this 
legislation which would improve the treatment of medical evidence 
provided by non-VA medical professionals in support of claims for 
disability compensation. Appropriate evidence, obtained by from a 
medical specialist or expert that is competent, credible and probative, 
on a physical or mental health condition should be admissible and 
accepted by the VA. This step should help move claims more quickly 
through the VA system.
    This concludes my testimony and I look forward to answering your 
questions.

    21 March 2014
    The Hon. Jon Runyan, Chairman
    U.S. House of Representatives, Veterans' Affairs Committee
    Subcommittee on Disability Assistance & Memorial Affairs
    Washington, D.C. 20510

    Dear Chairman Runyan:

    Neither AMVETS nor I have received any federal grants or contracts, 
during this year or in the last two years, from any agency or program 
relevant to the 12 March 2014, House Veterans Affairs Committee hearing 
on the U.S. Department of Veterans Affairs Budget Request for Fiscal 
Year 2015.

    Sincerely,
    Diane M. Zumatto,

                  AMVETS National Legislative Director

    Biographical Sketch: Diane M. Zumatto of Spotsylvania, VA joined 
AMVETS as their National Legislative Director in August 2011. Ms. 
Zumatto, a native New Yorker and the daughter of immigrant parents 
decided to follow in her family's footsteps by joining the military. 
Ms. Zumatto is a former Women's Army Corps (WAC) member who was 
stationed in Germany. Zumatto was married to a CW4 aviator in the 
Washington Army National Guard and is the mother of four adult 
children. Ms. Zumatto is extremely proud that two of her children have 
chosen to follow her footsteps into military service.
    Ms. Zumatto has more than 20 years of experience working with a 
variety of non-profits in increasingly more challenging positions, 
including: the American Museum of Natural History; the National 
Federation of Independent Business; the Tacoma-Pierce County Board of 
Realtors; the Washington State Association of Fire Chiefs; Saint 
Martin's College; the James Monroe Museum; the Friends of the 
Wilderness Battlefield and the Enlisted Association of the National 
Guard of the United States. Diane's non-profit experience is extremely 
well-rounded as she has variously served in both staff and volunteer 
positions including as a board member and consultant.
    After receiving her B.A. in Historic Preservation from the 
University of Mary Washington in 2005, Diane decided to diversify her 
experience by spending some time in the `for-profit' community. 
Realizing that her creativity, energy and passion were not being 
effectively challenged, she left the world of corporate America and 
returned to non-profit organization.
    AMVETS National Headquarters, 4647 Forbes Boulevard Lanham, 
Maryland 20706-4380, Business Phone: (301) 683-4016 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2a4e505f474b5e5e456a4b475c4f5e590445584d">[email&#160;protected]</a>

                                 <F-dash>

Prepared Statement of Zachary Hearn, Deputy Director for Claims of the 
 Veterans Affairs and Rehabilitation Commission of the American Legion 
                         on Pending Legislation

    Chairman Runyan, Ranking Member Titus and distinguished Members of 
the Subcommittee, on behalf of Commander Dellinger and the 2.4 million 
members of The American Legion, I thank you and your colleagues for the 
work you do in support of our service members and veterans as well as 
their families. The hard work of this Subcommittee in creating 
significant legislation has left a positive impact on our military and 
veterans' community.

H.R 2018: Honor Those Who Served Act of 2013

    To amend Title 38, United States Code, to identify the persons who 
are eligible to request headstones or markers furnished by the 
Secretary of Veterans Affairs, and other purposes.
    This legislation expands the allowable persons who may request 
headstone markers commemorating deceased veterans to indicate their 
veteran status to include military researchers, local historians and 
the like. In many cases, long removed from the period of service, 
veterans from prior wars may not have recognition of their service on 
their headstone markers. Concerned citizens may seek to ensure those 
veterans receive their proper honors and recognition.
    The American Legion has been supportive of ensuring all veterans, 
even those who have been forgotten by time, receive the honors due to 
them according to their service.\1\ Veterans who have served their 
country deserve to be buried with respect and honors. This legislation 
would help aid in that recognition.
---------------------------------------------------------------------------
    \1\ Resolution 24 ``Identify, Honor and Inter Unclaimed Remains of 
Veterans'' MAY 2007
---------------------------------------------------------------------------
    The American Legion supports the passage of this legislation.

H.R 2088

    To direct the Secretary of Veterans Affairs to carry out a pilot 
program to establish claims adjudication centers of excellence.
    In order to address the backlog of veterans' disability claims and 
to prevent future such backlogs, this legislation aims to create 
multiple ``Centers of Excellence'' (COEs) as pilot programs throughout 
the Department of Veterans Affairs (VA) Veterans Benefits 
Administration (VBA). The program would set aside twelve VA Regional 
Office (VARO) claims adjudication centers, designated as the three 
highest performing VAROs in each of the four areas of the VBA. 
Performance in these offices would be based on a measurement of quality 
and accuracy as well as average number of days pending.
    Each COE would focus on one medical condition selected by the 
Secretary, attempting to address conditions that are the most complex 
and time consuming, provided they occur commonly enough to support the 
work of the centers. One would assume these conditions would include 
medical issues such as Posttraumatic Stress Disorder (PTSD), Traumatic 
Brain Injury (TBI), Gulf War Illnesses, Diabetes, and other multi-
symptomatic disorders. If working these claims did not engulf all of 
the employees' time, they would be permitted to adjudicate other 
claims.
    Employees at the COEs would receive special, targeted training and 
undergo examinations to certify expertise.
    The aim of improving the quality of decisions, particularly on 
complex conditions, is admirable. The American Legion certainly thinks 
some of the notions included in this legislation, such as targeted 
training for areas of special complexity concurrent with expertise 
certifying examinations, have promise for improving VBA's overall 
quality in adjudicating claims.
    However, The American Legion is deeply concerned that the 
consolidation of work at these COEs is the wrong path, as evidenced by 
nearly every previous time VA has attempted to improve the system by 
consolidating efforts.
    In January 2002, VBA consolidated the work of pension into three 
Pension Maintenance Centers (PMCs) in St. Paul, Milwaukee and 
Philadelphia. Rather than improving speed and accuracy of pension 
claims, backlogs have become the norm. American Legion service officers 
used to be able to walk upstairs to talk to VBA employees and come to a 
quick resolution for pension applicants (who are perhaps the most 
vulnerable and financially imperiled of veterans). Once consolidated 
into centers, communication became nearly impossible. Even with service 
officers co-located in the PMCs, it can be difficult to work through 
issues by communicating with VA employees. The problem has only been 
compounded by adding death benefits to the work of these centers.
    In recent years, the influx of Nehmer claims related to the 
addition of new Agent Orange presumptive conditions prompted VBA to 
consolidate work on the Nehmer claims. Despite this consolidation, VA 
officials came before Congress many times to point out how the entire 
system of benefits claims had been set back. The large delays and 
increases in the backlog were blamed on the Nehmer claims, even though 
they had been consolidated to centralize processing, ostensibly to 
alleviate just these concerns.
    Time and time again, consolidation has not worked and has not been 
beneficial. By reducing the ability of top offices to have these 
excellence teams work on claims outside the purview of their specific 
medical issue, VBA would be forced to broker more work. Amongst The 
American Legion's cadre of over 2,900 accredited service officers, 
brokering is universally hailed as one of the worst programs utilized 
by VBA to address the backlog. All brokering does is create more 
barriers to communication, and throw up more roadblocks in the path of 
success.
    During the development of the Veterans Benefits Management System 
(VBMS) VBA officials assured stakeholders that their service officers 
would see improved communications with VA on veterans' claims by 
utilizing electronic message systems within VBMS. We were told we could 
call out specific notes in a veteran's file and communicate directly 
back and forth to address issues. Needless to say, this functionality 
is not currently present in the system.
    Taking some of the most critical claims out of the VAROs and away 
from the strong communication between VA employees and service officers 
to resolve difficulties with claims, would be a step back in the move 
to improve the claims process.
    The American Legion supports efforts to improve the claims 
processing system, and applauds the ideas included in this legislation 
to develop specialized training on the most complicated issues. 
Training, with the critical feedback mechanism of testing for expertise 
certification, could benefit not just employees in a few centers of 
excellence, but employees in all regional offices. Consolidating these 
employees is not a solution The American Legion can support however. 
These changes need to be implemented universally across the entire 
system.
    The American Legion does not support the passage of this 
legislation.

H.R 2119: Veterans Access to Speedy Review Act

    To amend Title 38, United States Code, to improve the opportunity 
for veterans to use video conferencing for hearings before the Board of 
Veterans' Appeals.
    A veteran who has appealed their disability claim to the Board of 
Veterans' Appeals (BVA) is entitled to have their case heard before the 
presiding authority, a veterans' law judge (VLJ). These hearings can be 
conducted in a variety of manners. They could be a physical, in person 
hearing at the BVA in Washington, DC. They could be a traveling Board 
hearing, where a VLJ physically travels to a VA Regional Office (VARO) 
to conduct a series of hearings. It could also take the form of a 
video-teleconference (VTC) hearing. This legislation, in the interest 
of improving scheduling times, would allow the BVA to determine what 
the speediest option for providing that hearing would be, and allows 
veterans to petition BVA for a different type if that is their choice. 
If the veteran petitions for a different type, the bill states the BVA 
``may'' grant such request.
    The American Legion has several concerns about this process. We are 
certainly sympathetic to the problems of scheduling, which lead to long 
delays. American Legion service officers report that travel board 
hearings often take place in a once yearly window, which greatly adds 
to delays in the appeals process. It is not always practical for a 
veteran to travel to Washington, DC, although that may be an excellent 
option for veterans who happen to live on the Eastern seaboard.
    For some veterans, especially those of an older generation 
including Korean War and World War II veterans, meeting with people 
face to face matters. It is perhaps ironic that those veterans, who may 
have the least time to wait, often must wait longest for their hearings 
to take place. In person hearings can make a difference, especially in 
certain cases including mental disorders, certain visible physical 
disabilities, and skin disorders may not translate as well to video. 
American Legion service officers have noted that despite the roll out 
of the Veterans Benefits Management System (VBMS) they do not always 
have access to a claims file to review to prepare for accompanying 
veterans to the VTC hearings. Conducting a hearing in which a veteran's 
advocate does not have full access to the information in the claims 
file is not in the best interest of the veteran, nor is it the full due 
process to which that veteran is entitled.
    Obviously, given time, VA may reach a point with VBMS that 
alleviates concerns about access to a veteran's file. They are not at 
that point currently. With perhaps further clarification, the provision 
of this bill which allows for veterans to appeal for an in person 
hearing if they so choose could allow for veterans to get the hearing 
that is right for them. As the provision currently states the BVA 
``may'' grant such a request, The American Legion is concerned this 
review process may be conducted not with the interests of what is best 
for the veteran in mind, but what is best for BVA. That cannot be the 
aim.
    It is the understanding of The American Legion that the bill could 
be amended to change the ``may'' language to ``shall'' language. Such a 
change would ensure a new system that provides more timeliness to the 
process by allowing the BVA to set the fastest default venue for the 
veteran's hearing, but fully protect veterans who choose a different 
venue with full knowledge that their choice would add time to their 
process, but still meet the criteria best suited to that individual 
veteran.
    The claims system is designed to serve veterans who have been 
disabled. While measures that make things easier for VA may ultimately 
help veterans, we must always be mindful of putting the needs of the 
veterans first. The American Legion agrees there may be ways to improve 
speed and provide incentives for veterans to utilize a system that 
takes advantage of technology to assist them in a more timely decision 
on their appeal. However, the rights of the veteran to receive their 
time before a judge, to have a human being hear their words describing 
how they came to be disabled in service to this country--that right 
must be protected. The American Legion would like to work in concert 
with the committee and VA to find a way to implement improvements to 
the process, but ensure that this is done in a way mindful of fully 
protecting the rights of the veteran appellants.
    The American Legion supports the passage of this legislation (with 
the noted reservation).

H.R 2529: Veteran Spouse Equal Treatment Act

    To amend Title 38, United States Code, to amend the definition of 
the term `spouse' to recognize new State definitions of such term for 
the purpose of the laws administered by the Secretary of Veterans 
Affairs.
    The American Legion is a grass roots organization that derives its 
operational mandate from resolutions passed by membership. The American 
Legion has no resolution addressing this legislation.
    The American Legion has no position on this legislation.

H.R 3876: Burial With Dignity for Heroes Act of 2014

    To amend Title 38, United States Code, to direct the Secretary of 
Veterans Affairs to carry out a grant program to provide burials for 
homeless veterans.
    This legislation proposes a grant program to provide for the burial 
in national cemeteries of homeless veterans with no next of kin. The 
American Legion has a long history of ensuring all of our nation's 
heroes receive the honors they deserve in burial. Since 2007, The 
American Legion has worked with the Missing in America Project (MIAP) 
to locate, identify and inter the unclaimed remains of American 
veterans through a variety of means. During the past seven years, 
veterans have worked with state, local and federal authorities to 
ensure no one is left behind.\2\ Furthermore, The American Legion has 
been deeply involved in reducing the national scourge of veteran 
homelessness, assisting the efforts of VA and other agencies to bring 
the numbers down to fewer than 58,000 homeless veterans from figures 
totaling more than 75,000 veterans in 2010.
---------------------------------------------------------------------------
    \2\ Resolution 24 ``Identify, Honor and Inter Unclaimed Remains of 
Veterans'' MAY 2007.
---------------------------------------------------------------------------
    The American Legion has long been supportive of efforts to reach 
out to homeless veterans, as well as efforts to provide recognition and 
honors to the forgotten fallen.
    The American Legion supports the passage of this legislation.

H.R 4095: Veterans Compensation Cost-of-Living Adjustment Act of 2014

    To increase, effective as of December 1, 2014, the rates of 
compensation for veterans with service-connected disabilities and the 
rates of dependency and indemnity compensation for the survivors of 
certain disabled veterans, and for other purposes.
    The American Legion strongly supports a periodic cost-of-living 
adjustment (COLA) for veterans reflective of increased expenses due to 
inflation and other factors. However, there are many factors currently 
being considered regarding the calculation of COLA that merit 
discussion.
    Within The American Legion's Code of Procedures, accredited 
representatives are advised under no circumstances should they cause 
harm to veterans' claims for benefits. Current provisions contained in 
the President's 2014 proposed budget, as well as in amendments to other 
bills that have been introduced from time to time, would replace the 
current Consumer Price Index (CPI) used to calculate increases to 
Social Security COLA with a so-called Chained CPI (C-CPI). Through 
chaining VA benefits to the new C-CPI and COLA for Social Security 
benefits, the veteran community would indeed be harmed. On December 19, 
2012, Dean Stoline, Deputy Director of The American Legion Legislative 
Division, stated that a chained CPI is misguided policy and ``would 
have significant deleterious effect on the benefits of millions of 
veterans''.
    There is a long term negative effect upon the veteran community 
should Congress mandate a C-CPI approach to determining COLA increases. 
According to a press release from Sen. Sanders' office, the proposal 
would cut VA disability benefits for a 30-year-old veteran by more than 
$13,000 a year by age 45, $1,800 a year by age 55, and $2,260 a year by 
age 65. Senior citizens who retire by age 65 would see their Social 
Security benefits reduced by about $650 a year by the time they reach 
75, and more than $1,000 a year when they turn 85. \3\ These cuts would 
certainly place many veterans and their families' economic security in 
peril.
---------------------------------------------------------------------------
    \3\ http://www.sanders.senate.gov/newsroom/press-releases/
statement-by-senator-bernard-sanders-on-the-chained-cpi.
---------------------------------------------------------------------------
    By resolution \4\ ``The American Legion support[s] legislation to 
amend Title 38, United States Code, section 1114, to provide a periodic 
COLA increase and to increase the monthly rates of disability 
compensation; and . . . oppose[s] any legislative effort to 
automatically index such [COLA] adjustments to the [COLA] adjustment 
for Social Security recipients, non-service connected disability 
recipients and death pension beneficiaries.'' The opposition to direct 
and automatic connection to the Social Security policies reflects the 
understanding that veterans and specifically disabled veterans 
represent a unique subsection of the American community, and their 
unique concerns should receive individual consideration when 
determining the need for periodic increases for cost of living.
---------------------------------------------------------------------------
    \4\ Resolution No. 178: Department of Veterans Affairs (VA) 
Disability Compensation, AUG 2012.
---------------------------------------------------------------------------
    The American Legion also raises objection to the practice of 
``rounding down'' to the next lower whole dollar amount as noted in 
Section 2(c)(2). The American Legion does not support this policy of 
shortchanging America's veterans.
    The American Legion encourages Congress to seriously examine the 
disastrous long term negative consequences of C-CPI for veterans. The 
long-term negative effects created through permitting C-CPI for VA 
benefits could cause serious financial harm to millions of veterans.
    The American Legion supports an increased Cost-of-Living Adjustment 
for veterans, but would like to see the legislation amended to ensure 
veterans' COLA is protected from being changed to reflect a C-CPI model 
to the detriment of disabled veterans.

H.R 4102

    To amend Title 38, United States Code, to clarify that the estate 
of a deceased veteran may receive certain accrued benefits upon the 
death of the veteran, and for other purposes.
    This legislation would clarify the process of substitution in the 
case of a veteran's claim where the veteran passes away before final 
adjudication of the claim. The American Legion is a grass roots 
organization that derives its operational mandate from resolutions 
passed by membership. The American Legion has no resolution addressing 
this legislation.
    The American Legion has no position this legislation.

H.R 4141

    To amend Title 38, United States Code, to authorize the Secretary 
of Veterans Affairs to enter into enhanced-use leases for excess 
property of the National Cemetery Administration that is unsuitable for 
burial purposes.
    The American Legion recognizes there are situations in which land 
owned or controlled by the Department of Veterans Affairs is not 
suitable for the purposes it was intended for. However, The American 
Legion also believes it is important that Congress restrict Enhanced 
Use Leasing (EUL) authority to ``a priority list of services that will 
meet the needs of the veteran community'' \5\
---------------------------------------------------------------------------
    \5\ Resolution 129 ``The Department of Veterans Affairs Enhanced-
Use Leasing'' AUG 2012.
---------------------------------------------------------------------------
    This legislation, affecting only excess property unsuitable for 
burial for National Cemetery Administration (NCA) purposes, is 
acceptable in that it does not adversely impact capacity of the NCA for 
burial.\6\ Section 1(a)(2)(B) amends the EUL authority to include 
``other purposes.'' The American Legion would want it noted, in 
accordance with Resolution 129 as noted above, that these ``other 
purposes'' must adhere to a list of services that meet the needs of the 
veterans' community. While EUL is a vital tool and can be helpful to VA 
operations overall, it must be in the service of veterans.
---------------------------------------------------------------------------
    \6\ Resolution 175 ``National Cemetery Administration''
---------------------------------------------------------------------------
    The American Legion supports (with noted reservation) the passage 
of this legislation.

H.R 4191: Quicker Veterans Benefits Delivery Act

    To amend Title 38, United States Code, to improve the treatment of 
medical evidence provided by non-Department of Veterans Affairs medical 
professionals in support of claims for disability compensation under 
the laws administered by the Secretary of Veterans Affairs, and for 
other purposes.
    This legislation aims to improve how private medical evidence 
submitted by veterans is handled within the VA claims system. The bill 
provides a better definition of ``sufficient complete'' medical 
evidence, and importantly alters VA's authority from the current state 
where the VA ``may'' accept the evidence to a state where the VA 
``shall'' accept the evidence. The bill also calls for a report on the 
progress of the Acceptable Clinical Evidence Initiative.
    The American Legion has over 2,900 accredited service officers 
nationally assisting veterans with their claims. A large percentage of 
those service officers report frustrations as VA routinely ignores 
favorable private medical evidence submitted by the veteran and instead 
schedules unnecessary exams. These VA exams contribute to the backlog 
of claims by causing needless delays. When the medical evidence of 
record submitted by the veteran is sufficient to grant a claim, the 
veteran shouldn't have to wait through months of backlogged appointment 
slots to get an appointment with a doctor who will see her for a brief 
exam. Veteran's own physicians spend years treating the veteran and 
interacting with them. They provide critical insight into the overall 
health picture of the veteran. With the proper use and acceptance of 
private medical evidence, VA can reduce much of the necessary waiting 
time in the claims process and deliver decisions to veterans utilizing 
the private evidence that are more timely and more accurate.
    There is one additional item pursuant to private medical evidence 
The American Legion believes it is important to raise. Currently, under 
VHA Directive 2007-024, if a veteran's primary care provider is a VHA 
physician, that physician's assistance is limited to ``recording of 
observations on the current medical status of the veteran found in the 
medical record, including their current functional status.'' The 
American Legion believes private medical opinions are extremely helpful 
to the process, and would urge for Directive 2007-024 to be amended to 
specifically allow VA primary care physicians to provide supporting 
medical opinions, including opinions related to causation of a 
condition, when it is medically possible to do so.\7\
---------------------------------------------------------------------------
    \7\ Resolution 24 ``Medical Opinions Provided by the Department of 
Veterans Affairs (VA) Primary Care Providers'' OCT 2008
---------------------------------------------------------------------------
    The American Legion supports the passage of this legislation.

                                 <F-dash>

 Prepared Statement of Mr. Anthony A. Wallis on H.R. 2018, H.R. 2088, 
H.R. 2119, H.R. 2529, H.R. 3971, H.R. 3876, H.R. 4095, H.R. 4102, H.R. 
                           4141 and H.R. 4191

    The Association of the United States Navy (AUSN) continues its 
mission as the premier advocate for our nation's Sailors and Veterans 
alike. Formerly known as the Naval Reserve Association, which traces 
its roots back to 1954, AUSN was established on 19 May 2009 to expand 
its focus to the entire Navy. AUSN works for not only its members but 
for the Navy and Veteran community overall by promoting the Department 
of the Navy's interests, encouraging professional development of 
officers and enlisted and educating the public and political bodies 
regarding the nation's welfare and security.
    AUSN prides itself on personal career assistance to its members and 
successful legislative activity on Capitol Hill regarding equipment and 
personnel issues. The Association actively represents its members by 
participating in the most distinguished groups protecting the rights of 
military personnel. AUSN is a member of The Military Coalition (TMC), a 
group of 34 associations with a strong history of advocating for the 
rights and benefits of military personnel, active and retired. AUSN is 
also a member of the National Military Veterans Alliance (NMVA) and an 
associate member of the Veterans Day National Committee of the 
Department of Veterans Affairs (VA).
    The Association's members include Active Duty, Reserve and Veterans 
from all 50 states, U.S. Territories, Europe, Asia, South America and 
Australia. AUSN has 81 chapters across the country. Of our over 22,000 
members, approximately 80% are Veterans. Our National Headquarters is 
located at 1619 King Street in Alexandria, Virginia, and we can be 
reached at 703-548-5800.

    AUSN Leadership Contact Information:

    National President: DKCM Charles Bradley, U.S. Navy (Ret.), 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="33505b52415f56401d514152575f564a735246405d1d5c4154">[email&#160;protected]</a>
    National Chairman of the Board: RADM Steve Israel, U.S. Navy 
(Ret.), <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="196a6d7c6f7c37706a6b787c7559786c6a7737766b7e">[email&#160;protected]</a>
    National Vice Chairman of the Board: MCPON Jim Herdt, U.S. Navy 
(Ret), <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="365c5f5b185e53445242765743455818594451">[email&#160;protected]</a>
    Executive Director: VADM John Totushek, U.S. Navy (Ret.), 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e48e8b8c8aca908b9091978c818fa48591978aca8b9683">[email&#160;protected]</a>
    Legislative Director: Mr. Anthony Wallis, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a1c0cfd5c9cecfd88fd6c0cdcdc8d2e1c0d4d2cf8fced3c6">[email&#160;protected]</a>

    Summary

    Chairman Runyan, Ranking Member Titus and Members of the House 
Veterans' Affairs Committee, Subcommittee on Disability Assistance and 
Memorial Affairs, the Association of the United States Navy (AUSN) 
thanks you and your Committee for the work that you do in support of 
our Navy, retirees and Veterans, as well as their families. Your 
efforts have allowed significant progress in creating legislation that 
has left a positive impact on our military and Veteran community.
    This Committee has been, and continues to be, the starting point 
for legislation that provides appropriate adjustments for Veteran 
disability compensation rates. Last year, in April 2013, this Committee 
swiftly passed H.R. 569 which was later passed into law as S. 893, the 
Veterans' Compensation Cost-of-Living Adjustment Act of 2013 (P.L. 113-
52). This regular Veterans' Cost of Living Adjustment Act (COLA), which 
increased the rate of Veterans disability compensation and Dependency 
and Indemnity Compensation (DIC) for surviving spouses and children by 
1.5 percent beginning 1 January 2014, was welcomed by AUSN and the 
Veteran community.
    AUSN is pleased to have the opportunity to speak in support of this 
year's bill, H.R. 4095, the Veterans' Compensation Cost-of-Living 
Adjustment Act of 2014, and many others being discussed in today's 
hearing. AUSN's positions on the bills being discussed today are as 
follows:

H.R. 2018: The Honor Those Who Served Act

    The Department of Veterans Affairs (VA) furnishes upon request, at 
no charge to the applicant, a Government headstone or marker for the 
unmarked grave of any deceased eligible Veteran in any cemetery around 
the world, regardless of his or her date of death. The VA may also 
furnish a headstone or marker for graves that are marked with a private 
headstone or marker for Veterans that died on or after 1 November 1990. 
For Veterans that served prior to World War I, a grave is considered 
marked when a headstone/marker displays the decedents name only or if 
the name was historically documented in a related document, such as by 
a number that is inscribed on a grave block and is recorded in a burial 
ledger. For service during and after World War I, a grave is considered 
marked if a headstone/marker displays the decedents name and date of 
birth and/or death, even though the Veterans military data is not 
shown. When burial or memorialization is in a national cemetery, state 
Veterans cemetery or military post/base cemetery, a headstone or marker 
will be ordered by the cemetery officials based on inscription 
information provided by the next of kin or authorized representative.
    Those eligible for a headstone or marker include, but are not 
limited to, any deceased Veteran discharged under honorable conditions 
and any member of the Armed Forces of the United States who dies on 
Active Duty. A copy of the deceased Veterans discharge certificate (DD-
214 Form or equivalent) or a copy of other official document(s) 
establishing qualifying military service must be attached.
    However, as for those applying for a headstone or marker, in 2012 
the VA put into place a new regulatory barrier. Federal regulation 
defines ``applicant'' as the decedent's Next-of-Kin (NOK), a person 
authorized in writing by the NOK, or a personal representative 
authorized in writing by the decedent. Written authorization must be 
included with claim. Final approval from the NOK is necessary to 
receive a headstone for a deceased Veteran, but this may be difficult 
if NOK cannot be determined or is separated in family lineage or by 
generations.
    On the other hand, there are researchers, like those at various 
State Historical Societies, who explore archives, death records, 
military records and genealogical records to determine the identity of 
Revolutionary and Civil War soldiers buried in unmarked graves. These 
groups then will work to find the NOK, but, sometimes, that is not 
possible when today's headstone applicants are several generations 
removed from past conflicts such as the Civil War.
    This bill, H.R. 2018, the Honor Those Who Served Act, introduced by 
Representative Steve Stivers (R-OH-15), Representative Pat Tiberi (R-
OH-12) and Representative Joyce Beatty (D-OH-03) would stipulate that 
if the NOK cannot be found then headstone applications may be filed 
with the VA by: the state Veterans service agency, military 
researchers, local historians, genealogists or others familiar with 
research sources or methods needed to prove a Veteran's identity.
    AUSN supports this legislation, which seeks to help streamline 
applications for headstones or markers, especially for those who served 
in many past conflicts that helped shape our nation, so they may be 
properly honored for their service and not recognized just because of 
deterioration of graves or the inability to determine the NOK. Our 
Veterans, current and past generations, deserve better than unmarked or 
deteriorated graves. AUSN supports this bill which will remedy this 
problem through the use of existing quality research institutions and 
methods in this country.

H.R. 2088: A Bill to Direct the Secretary of Veterans Affairs to Carry 
Out a Pilot Program to Establish Claims Adjudication Centers of 
Excellence

    The Department of Veterans Affairs (VA) receives about 1.25 million 
claims for Veterans disability benefits per year. As identified by the 
VA, for a Veteran to qualify within backlog, the claim must be waiting 
125 days or more for the VA to process. As of the most recent 2014 
quarterly report of the Veterans Benefits Administration (VBA), there 
are over 636,000 claims pending and over 384,000 in backlog. (http://
www.vba.va.gov/REPORTS/mmwr/#characteristics). It is known, however, 
that some of the VA's Regional Offices (ROs) have been better suited at 
handling and dealing with Veteran disability claims than others, 
whereby some have received complaints that the personnel at these ROs 
have been unable to handle or, in some cases, properly file a 
disability claim. For instance, last month, at an RO in Seattle, 
Washington, VA staff was known to have interfered with an external non-
VA performance review performed by a Veteran Service Organization (VSO) 
checking on how well the VA processes disability claims. For these 
prearranged visits, VSO representatives ask for a random sampling of 
recently processed disability claims for review with VA officials. They 
also meet confidentially with non-management staff to discuss any 
issues and concerns. However in this instance, the RO was not 
cooperative, and the Chairman of the House Veterans' Affairs Committee, 
Representative Jeff Miller (R-FL-01), asked for an investigation and 
assistance with external reviews. VA Regional Offices need to be 
improved, and those that do perform well and are cooperative in the 
effort to reduce the claims backlog need their efforts replicated with 
those ROs that fail to meet both internal VA and external review 
criteria.
    H.R. 2088, creating Claims Adjudication Centers of Excellence, 
introduced by the Ranking Member of the House Veterans' Affairs 
Committee, Representative Michael Michaud (D-ME-02), would require the 
VA to boost support for the best performing Regional Offices, in order 
to focus additional attention on the most complex and time consuming 
medical conditions. In particular, the bill directs the Secretary of 
Veterans Affairs to carry out a three-year pilot program to establish 
12 VA claims adjudication Centers of Excellence by selecting the three 
highest performing regional offices in each of the four areas of the 
Veterans Benefits Administration (VBA), requiring each Center to focus 
on adjudicating claims relating to one medical condition selected by 
the Secretary. Furthermore, the bill provides for appropriate employee 
specialized training with respect to such medical conditions and 
prohibits any employee from working concurrently at more than one 
center. However, it allows an employee to move from one center to 
another, as long as the employee receives the training appropriate for 
that center.
    AUSN recognizes and appreciates H.R. 2088's intent to establish 
this pilot program in order to utilize the highest performing offices 
to adjudicate the most difficult medical conditions, such as Post-
Traumatic-Stress-Disorder (PTSD) and Traumatic Brain Injury (TBI). AUSN 
also is appreciative of efforts to encourage the VA to specialize 
claims processing by condition, reduce the time it takes to adjudicate 
these conditions and decrease the error rates on difficult claims 
within ROs. By improving the quality and specialization of claims 
processing at these ROs and establishing these claims Centers of 
Excellence, the VBA will be able to focus and see how these specialized 
ROs function. The VBA can then copy and implement these models for ROs 
that are failing in their standards and services to process claims for 
our Veterans.
    However, AUSN believes that this pilot program should not distract 
from the overall goal of eliminating the claims backlog or marginalize 
existing ROs by shifting quality staff and Full Time Employees (FTEs) 
from one RO to these Centers of Excellence. As a result, AUSN believes 
further action on this bill should continue to be mindful of the 
overall goal of ending the claims backlog and improving all ROs 
throughout the country.

H.R. 2119: The Veterans Access to Speedy Review Act

    Oftentimes, when a Veteran decides to file an appeal on a claim, 
the Veteran must appear before a Board of Appeals to state his or her 
case. In certain instances, a significant burden is placed on Veterans 
having to travel for appeal hearings in person. Many times, this travel 
comes at a great physical and financial cost to the Veteran, 
particularly if the Veteran resides a far distance from where the 
appeal hearing is being held.
    H.R. 2119, the Veterans Access to Speedy Review Act, introduced by 
Representative Raul Ruiz (D-CA-36), would require the VA's Board of 
Veterans Appeals to offer alternative sites and/or technical modalities 
to Veterans for their appeal hearings, if these alternatives allow 
earlier scheduling of the hearing than otherwise would be scheduled. In 
order to ensure a Veteran can have their appeal at the earliest 
possible date, the bill requires the Board of Veterans Appeals to 
determine whether to hold the hearing at its principal location or at 
another VA facility or other Federal facility and then whether the 
Veteran must be present or can attend through the use of 
videoconferencing. It also provides the Veteran making the appeal the 
freedom to request a different type of hearing or a different time or 
location.
    AUSN supports H.R. 2119, which seeks to provide more options to 
Veterans to ease the process of appealing a claim by making available 
additional means by which a Veteran can appear before a Board of 
Appeals. This is allowed through the use of expansion of available 
locations for such an appeal to occur or through teleconferencing 
capabilities. As a result, according to the VA, this legislation would 
reduce costs for both the VA and Veterans. In addition, AUSN supports 
language changes through an amendment being offered whereby, ``If so 
requested, the Board SHALL grant such requests and ensure that the 
hearing is scheduled at the earliest possible date without any undue 
delay or other prejudice to the appellant,'' thus providing more 
flexibility for the Veteran when addressing his or her claims appeal.

H.R. 2529: The Veteran Spouses Equal Treatment Act

    H.R. 2529, the Veteran Spouses Equal Treatment Act, amends the 
definition of ``spouse'' for purposes of Veterans benefits provisions 
to require an individual to be considered a spouse if the marriage of 
the individual is valid in the state or territory in which the marriage 
was entered into or, in the case of a marriage entered into outside any 
state or territory, if the marriage is valid in the place in which the 
marriage was entered into and the marriage could have been entered into 
in a state or territory.
    AUSN, at this time, does not take a position on H.R. 2529 due to 
insufficient feedback from our own membership.

H.R. 3671: Amending Title 38 United States Code (USC) To Expand the 
Eligibility for a Medallion Furnished by the Secretary of Veterans 
Affairs to Signify the Veteran Status of a Deceased Individual

    Currently, Section 2306(d)(4) of Title 38, United States Code, 
provides that, when requested, the Secretary of Veterans Affairs will 
provide an appropriate government headstone, marker or medallion at the 
expense of the United States for certain Veterans. From 18 October 1978 
until 31 October 1990, the VA paid headstone and marker allowances to 
surviving families for purchase of private headstones and markers on 
behalf of Veterans who were interred in private cemeteries in lieu of 
the VA providing a government headstone or marker. This benefit was 
eliminated on 1 November 1990; accordingly, from 2 November 1990 
through 11 September 2001, whereby the VA paid no assistance in the 
purchase of a private headstone or marker for Veterans qualified for 
burial in a national or state Veterans' cemetery. Between 2001 and 
2006, as a pilot program, the VA provided government headstones and 
markers to qualifying Veterans regardless of whether or not they had 
privately purchased a headstone. In 2007 the VA made this program 
permanent and included a medallion as an alternative option, 
retroactive to 1 November 1990 for those Veterans who died on or after 
that date to affix the medallion to a grave marker.
    Today, many Veterans and their loved ones do not understand why 
they do not qualify for the medallion, leaving the 1 November 1990 date 
as just an arbitrary starting point for the new medallion affixation 
benefit. Accordingly, the VA has submitted a request in the form of a 
legislative proposal to remove the 1 November 1990 date as a 
requirement for eligibility for a medallion to be requested to be 
affixed to an existing headstone or marker.
    H.R. 3671, introduced by House Veterans' Affairs Committee 
Chairman, Representative Jeff Miller (R-FL-01), which would expand the 
eligibility for the medallion to be furnished by the VA for all 
Veterans whose families wish to have a medallion recognizing Veteran 
status affixed to an existing headstone or marker. This would also 
eliminate the 1 November 1990 date which is the current existing 
`benchmark' for qualification for the medallion. In an October 2013 
briefing with the VA's Under Secretary for Memorial Affairs, Mr. Steve 
L. Muro, the eligibility issue for the medallion benefit was further 
discussed, including the 1 November 1990 date of eligibility. Under 
Secretary Muro reiterated the VA's support for eliminating this date in 
order to qualify for this benefit. Accordingly, Chairman Miller's bill, 
H.R. 3671, would remedy this situation.
    AUSN supports H.R. 3671, which eliminates the 1 November 1990 date 
of eligibility and expands the qualifications for affixing a Veteran 
status medallion to an existing Veteran headstone or marker. AUSN is 
happy to join other Veteran Service Organizations (VSOs), as well as 
the VA which has previously expressed support for eliminating the `on 
or after' date of 1 November 1990 to qualify for a Veteran status 
medallion for a headstone or marker.

H.R. 3876: The Burial With Dignity for Heroes Act of 2014

    The Department of Veterans Affairs (VA) has stated that the 
nation's homeless Veterans are predominantly male, with roughly 8% 
being female. The majority of homeless Veterans are single; live in 
urban areas; and suffer from mental illness, alcohol and/or substance 
abuse or co-occurring disorders. About 12% of the total adult homeless 
population is Veterans. Roughly 40% of all homeless Veterans are 
African American or Hispanic, despite only accounting for 10.4% and 
3.4% of the U.S. Veteran population, respectively according to the 
National Coalition for Homeless Veterans. Homeless Veterans are also 
younger on average than the total Veteran population, with 
approximately 9% between the ages of 18 and 30, and 41% between the 
ages of 31 and 50. On the other hand, only 5% of all Veterans are 
between the ages of 18 and 30 and less than 23% are between 31 and 50.
    How many homeless Veterans are there? Although flawless counts are 
impossible to come by, the transient nature of homeless populations 
presents a major difficulty. However, the U.S. Department of Housing 
and Urban Development (HUD) has estimated that 57,849 Veterans are 
homeless on any given night. Approximately 12,700 Veterans of Operation 
Enduring Freedom (OEF), Operation Iraqi Freedom (OIF) and Operation New 
Dawn (OND) were homeless in 2010. In addition, about 1.4 million other 
Veterans are considered at risk of homelessness due to poverty, lack of 
support networks and dismal living conditions in overcrowded or 
substandard housing. As a result of the transient nature of homeless 
populations and lack of proper identification or information, it is 
difficult to determine next-of-kin (NOK) when a homeless Veteran has 
passed. There are institutions, however, that exist to help honor and 
recognize the service of deceased homeless Veterans, such as the 
Dignity Memorial Homeless Veterans Burial Program (http://
www.dignitymemorial.com/en-us/about-us/one-thousand-veterans-
burial.page). The Dignity Memorial Homeless Veterans Burial Program has 
provided military burials and services for homeless and indigent 
Veterans since 2000 and has worked with National Veterans Cemeteries 
around the country to provide more than 1,000 Veterans with the 
recognition and honor they are due.
    H.R. 3876, the Burial with Dignity for Heroes Act, introduced by 
Representative Al Green (D-TX-09) along with Representative Corrine 
Brown (D-FL-5) and Representative John Lewis (D-GA-5), would direct the 
Secretary of Veterans Affairs to carry out a program to make grants to 
eligible entities to provide for the cost of burials for homeless 
Veterans who: (1) Are eligible to be buried in a National Cemetery and 
(2) are determined by the Secretary to have no next-of-kin (NOK).
    AUSN recognizes and appreciates the intent of H.R. 3876, however, 
it remains uncertain as to the impact the legislation would have upon 
the VA and its resources, especially in the determination and 
availability of grant money to fund the program. Despite this concern, 
AUSN is sympathetic to the important issue of providing for proper 
burials and memorials for our nation's homeless Veterans and looks 
forward to ensuring that those deceased homeless Veterans get the 
recognition of their service, sacrifices and honor that they so 
deserve. AUSN stands ready to help remedy this problem, as well as the 
challenges faced to combat Veteran homelessness.

H.R. 4095: The Veterans' Compensation Cost-of-Living Adjustment (COLA) 
Act of 2014

    The Department of Veterans Affairs (VA) receives about 1.25 million 
claims for Veterans disability benefits per year. As it exists today, a 
disability rating is assigned a percentage by the VA after a physical 
examination for all areas of the body for which the Veteran is claiming 
disability. However, a cash benefit is only provided to Veterans with a 
rating of 10 percent or more. The basic benefit amount ranges from $127 
to $2,769 a month, depending on the disability rating. However, given 
the economic situation faced by many of our Veterans, this compensation 
may not be adequate to meet their needs, as costs of living continue to 
rise. The unique circumstances that arise in the retirement years of a 
career servicemember, especially if those servicemembers suffer from 
service-connected disabilities or other ailments that require 
dependency or indemnity compensation (DIC), often require that their 
benefits be adjusted to the ever rising cost-of-living. Annual COLA 
increases are necessary to ensure that our nation's servicemembers' 
retirement benefits reflect the current fiscal environment.
    AUSN was pleased to see S. 893, the Veterans' Compensation Cost-of-
Living-Adjustment (COLA) Act, companion legislation to H.R. 569, passed 
into law (P.L. 113-52), whereby the rates of Veterans disability 
compensation was increased by 1.5%, beginning 1 January 2014. Although 
this was a great step to continue to improve Veteran benefits, these 
annual COLA bills consume a significant amount of Congress' time every 
year. Although not specified in this hearing, instead of having to 
return to the issue over and over again, AUSN applauds the mission of 
H.R. 4096, the American Heroes COLA Act of 2014, formerly H.R. 570, 
sponsored by Representative Jon Runyan (R-NJ-06), which would make the 
annual adjustments automatic based, on the Consumer Price Index (CPI) 
and increases in benefits under the Social Security Act. The rates of 
disability compensation for Veterans with service-connected 
disabilities and the rates of DIC for survivors of certain service-
connected disabled Veterans would become an automatic increase, which 
would save Congress time by alleviating an annual issue that is usually 
passed with little to no opposition, and it protects Veteran benefits 
from being delayed by possible Congressional delays, which have become 
a very real issue in the past few years.
    In lieu of a permanent solution, AUSN supports H.R. 4095, the 
Veterans' Cost-of-Living Adjustment (COLA) Act of 2014, introduced by 
Representative Jon Runyan (R-NJ-06) and Representative Dina Titus (D-
NV-01), which would provide for an increase, effective 1 December 2014, 
in the rates of compensation for Veterans with service-connected 
disabilities and the rates of DIC for the survivors of certain disabled 
Veterans. This legislation continues to provide the quality of life 
guarantees made to our nation's servicemembers and their dependents.

H.R. 4102: A Bill to Amend Title 38, United States Code, to Clarify 
That the Estate of a Deceased Veteran May Receive Certain Accrued 
Benefits Upon the Death of the Veteran

    Current law states that only a Veteran's spouse or children under 
the age of eighteen are entitled to receive retroactive Department of 
Veterans Affairs (VA) disability benefits compensation in the event of 
a claimant's death. Unfortunately, history has shown that 2.6 percent 
of Veterans with pending VA disability benefits claims die while 
waiting on the completion of the claims process. One example of this 
concerning trend is the experience that Indianapolis Veteran, Sgt. 1st 
Class Shelton Hickerson, USA (Ret.) had. He initially filed a claim in 
2000 but was denied benefits. Mr. Hickerson decided to appeal the 
decision. Eventually, after waiting more than 10 years for a decision 
regarding his appeal, Mr. Hickerson was awarded his claim for 100% 
disability; however, he died the same day his appeal was approved. 
Consequently, his daughter, Sharon, was not eligible to receive any 
compensation on behalf of her father due to the fact that she was over 
18 and not otherwise dependent upon her father.
    H.R. 4102, a bill introduced by Representative Jeff Miller (R-FL-
01) and Representative Jackie Walorski (R-IN-02), would allow for a 
Veteran's estate to be awarded VA payments consistent with the general 
principles of estate law. In addition, the bill would correct the wrong 
done to the Hickerson family by directing the Secretary of Veterans 
Affairs to pay to the estate of Shelton Hickerson the sum of $377,342 
representing the amount that the Secretary awarded to Shelton Hickerson 
on the date of his death that was not payable to any survivor or his 
estate.
    AUSN wholeheartedly supports H.R. 4102. It is imperative that 
Congress continue to improve upon the ways our Veterans are compensated 
for providing such a valuable service to the nation by ensuring this 
scenario which happened to the family of Sgt. 1st Class Shelton 
Hickerson never happens again. VA claims compensation should continue 
to be made on or after the date of the Veteran recipient's death, 
payable to their estate and rightful beneficiaries. This legislation is 
the least our nation can do to bring some comfort to the families of 
Veterans who are laid to rest before their VA claim is finalized.

H.R. 4141: A Bill to Amend Title 38 United States Code (USC) to 
Authorize the Secretary of Veterans Affairs to Enter Into Enhanced Use 
Leases for Excess Property of the National Cemetery Administration That 
is Unsuitable for Burial Purposes

    Currently, governing Enhanced Use Leases (EULs), long a method for 
the VA to make productive use of underutilized property, was changed in 
2012 to make homeless Veterans and Veterans at risk of homelessness the 
sole beneficiaries of the program. Beginning in 1991, Congress gave the 
VA the authority to enter into EULs with outside developers to improve, 
maintain and make use of VA property for a period of time. The 
arrangement was made possible as part of the Veterans Benefits Programs 
Improvement Act (P.L. 102-86). Until 2012, the VA was able to enter 
into any lease that furthered the mission of the VA and enhanced the 
use of the property or that would result in the improvement of medical 
care and services to Veterans in the geographic area. The maximum lease 
term was 75 years, and the VA was to charge ``fair consideration'' for 
the lease, including in-kind payment. While EULs involved non-housing 
purposes (e.g., child care centers, golf courses and parking 
facilities), a number of the EULs awarded prior to 2012 involved 
housing for homeless Veterans. In 2012, as part of the Honoring 
Americas Veterans and Caring for Camp Lejeune Families Act (P.L. 112-
154), Congress limited the circumstances under which the VA may enter 
into EULs to ``the provision of supportive housing.'' Supportive 
housing is defined as housing combined with supportive services for 
Veterans or their families who are homeless or at risk of homelessness. 
Among the types of housing that qualify are transitional, permanent and 
single room occupancy housing, congregate living, independent living or 
assisted living facilities. Leases that were entered into prior to 1 
January 2012, will be subject to the law as it previously existed. 
While the VA does not have to receive consideration for an EUL under 
the amended law, if it does receive consideration, it may only be 
``cash at fair value'' and not in-kind payment. Each year, the VA is to 
release a report about the consideration received for EULs.
    H.R. 4141, introduced by Representative Ander Crenshaw (R-FL-04), 
would enable the use of excess property of the National Cemetery 
Administration, deemed unsuitable for burials, for the use of building 
memorials that support the mission of the VA. It authorizes 
organizations to request the use of land on National Cemeteries to 
include the creation of memorials and pavilions paid for by private 
funds.
    AUSN recognizes and appreciates the intent of H.R. 4141, 
legislation that will honor our fallen and past Veterans and provide 
space for their loved ones to gather and reflect. It is important to 
remember our Veterans, as our nation moves past over a decade of war, 
and provide their families with opportunities within organizations to 
build memorials that show respect for the honor, courage and commitment 
of their loved ones. Additionally, the ability of organizations to 
build memorials would enhance the education of generations to come on 
sacrifies made by their forefathers in service to our nation.
    However, it is unclear to AUSN regarding the criteria the National 
Cemetery Administration uses to define `unsuitable for burials,' and we 
question if it is `unsuitable' for burials, how such land might be 
suitable for other purposes. Additionally, AUSN is unclear at this time 
whether the bill would impact current EUL language regarding combating 
homeless Veterans and the costs to the VA for allowing outside 
organizations to enter into lease agreements on land overseen by the 
National Cemetery Administration.

H.R. 4191: The Quicker Benefits Delivery Act

    The Department of Veterans Affairs (VA) receives about 1.25 million 
claims for Veterans disability benefits per year. As identified by the 
VA, for a Veteran to qualify within the claims backlog, they must be 
waiting 125 days or more for the VA to process their claim. As of the 
most recent 2014 quarterly report of the Veterans Benefits 
Administration (VBA), there are over 636,000 claims pending and over 
384,000 in backlog. (http://www.vba.va.gov/REPORTS/mmwr/
#characteristics). For example, according to the Center for 
Investigative Reporting, the average wait time for Veteran filing a 
claim for the first time in a St. Paul, Minnesota regional office is 
180 days! Although the VA has stated that it hopes to end the claims 
backlog by 2015, the complexity of claims, the high volume of 
submissions and the oftentimes inaccurate, incomplete or insufficient 
medical records or evidence that the VA has to determine is valid and 
sufficient for a Fully Developed Claim (FDC) results in delays and adds 
to the backlog. Veterans file an FDC for an injury, disability or 
condition believed to have occurred or been aggravated by military 
service or a condition caused or aggravated by an existing service-
related condition. The VA, however, oftentimes requires that the 
Veteran go into a VA hospital to get evaluated in order to submit a 
disability claim, for an FDC for example, whereby the Veteran will 
oftentimes experience long wait times, delaying the final claims 
process even further.
    H.R. 4191, the Quicker Benefits Delivery Act, builds off of last 
year's bill, H.R. 1980, both introduced by Representative Tim Walz (D-
MN-01), which would amend Title 38, United States Code (USC), to 
improve the treatment of medical evidence provided by non-Department of 
Veterans Affairs (VA) medical professionals in support of claims for 
disability compensation under the laws administered by the Secretary of 
Veterans Affairs. The bill, in the form of H.R. 4191, would enable 
those who have medical evidence of their ailment from a non-VA medical 
professional that is deemed `sufficiently complete' to have their 
claims reviewed by the VA regarding their full disability compensation 
under the Acceptable Clinical Evidence initiative. In the bill, the VA 
is also directed to accept private medical evidence for the completion 
of disability claim, whereby such evidence shall be used for a 
`sufficiently complete' claim that is competent, credible, probative 
and containing such information as may be required to make a decision 
on the claim. Finally, the bill requires a report by the VA on the 
progress of the Acceptable Clinical Evidence initiative and the number 
of claims eligible for the initiative by each fiscal year, further 
improving Congressional oversight of the VA.
    AUSN supports H.R. 4191, since it seeks to help end the backlog of 
claims by conserving VA resources and enabling quicker, more accurate 
decisions for Veterans by allowing private medical evidence 
documentation that is competent, credible, probative and otherwise 
adequate for rating purposes to be used when supporting a claim. This 
legislation removes bureaucratic red tape by allowing Veterans to see 
local doctors for their initial diagnosis and avoid long wait times at 
VA hospitals.
    AUSN continues its efforts to support legislation that seeks to 
help end the claims backlog by streamlining efforts within the VA. It 
is important that every reasonable action by the VA and Congress be 
taken to ensure that Veterans receive the benefits they have earned 
through their sacrifices in a timely and effective manner. AUSN 
continues to make this a top priority, and we will continue to push, 
pressure, publicize and prioritize the disability claims backlog issue 
until there is a successful conclusion to ending the VA claims backlog.
Conclusion

    We firmly believe that many of these bills will benefit our 
nation's Veterans and honor their commitment and service to this 
country. In addition, we look forward to hearing of their future 
success and consideration during this session of Congress and we are 
available to help answer any and all questions. AUSN stands ready to be 
the Voice for America's Sailors, abroad and upon their return home, and 
looks forward to working with Congress and the VA on serving our 
Veterans.
    Thank you.

              AUSN Executive Summary of Written Testimony

    The following are AUSN's positions on the bills H.R. 2018, H.R. 
2088, H.R. 2119, H.R. 2529, H.R. 3971, H.R. 3876, H.R. 4095, H.R. 4102, 
H.R. 4141, and H.R. 4191;
    AUSN supports H.R. 2018, the Honor Those Who Served Act, which 
seeks to help streamline applications for headstones or markers, 
especially for those who served in many past conflicts that helped 
shape our nation, so they may be properly honored for their service who 
are currently not recognized just because of deterioration of graves or 
the inability to determine Next-of-Kin (NOK).
    AUSN recognizes and appreciates H.R. 2088's intent to establish 
this pilot program in order to utilize the highest performing offices 
to adjudicate the most difficult medical conditions, however, AUSN 
believes that this pilot program should not distract from the overall 
goal of eliminating the claims backlog or marginalize existing Regional 
Offices (RO's).
    AUSN supports H.R. 2119, Veterans Access to Speedy Review Act, 
providing options to Veterans to ease the process of appealing a claim, 
making available additional means a Veteran can appear before a Board 
of Appeals.
    AUSN, at this time, does not take a position on H.R. 2529 due to 
insufficient feedback from our own membership.
    AUSN supports H.R. 3671, which eliminates the 1 November 1990 date 
of eligibility and expands the qualifications for affixing a Veteran 
status medallion to an existing Veteran headstone or marker.
    AUSN recognizes and appreciates the intent of H.R. 3876, Burial 
With Dignity for Heroes Act, however remains uncertain as to the impact 
the legislation would have upon the VA and its resources, especially in 
the determination and availability of grant money to fund the program.
    AUSN supports H.R. 4095, the Veterans' Cost-of-Living Adjustment 
(COLA) Act of 2014, which would provide for an increase, effective 1 
December 2014, in the rates of compensation for Veterans with service-
connected disabilities and the rates of dependency and indemnity 
compensation (DIC) for the survivors of certain disabled Veterans.
    AUSN wholeheartedly supports H.R. 4102. It is imperative that 
Congress continues to improve upon the ways our Veterans are 
compensated for providing such a valuable service to the nation by 
ensuring this scenario which happened to the family of Sgt. 1st Class 
Shelton Hickerson never happens again.
    AUSN recognizes and appreciates the intent of H.R. 4141, 
legislation that will honor our fallen and past Veterans and provide 
space for their loved ones to gather and reflect, however, it is 
unclear to AUSN regarding the criteria the National Cemetery 
Administration uses to define `unsuitable for burials' and, how might 
such land be suitable for other purposes, as well as if the bill would 
impact current Enhanced Use Leases (EUL) language regarding combating 
homeless Veterans and what costs, if any, would be incurred on the VA 
for allowing organizations to enter into lease agreements.
    AUSN supports H.R. 4191, Quicker Benefits Delivery Act, as it seeks 
to help end the backlog of claims by conserving VA resources and 
enabling quicker, more accurate decisions for Veterans by allowing 
private medical evidence documentation that is competent, credible, 
probative, and otherwise adequate for rating purposes, to be used when 
supporting a claim.

                                 <F-dash>

 Prepared Statement of Raymond C. Kelley, Director, on H.R. 2018, H.R. 
2088, H.R. 2119, H.R. 2529, H.R. 3671, H.R. 3876, H.R. 4095, H.R. 4102, 
                        H.R. 4141, and H.R. 4191

    Mr. Chairman and Members of the Subcommittee:
    On behalf of the men and women of the Veterans of Foreign Wars of 
the United States (VFW) and our Auxiliaries, I would like to thank you 
for the opportunity to testify on today's pending legislation.
    The VFW supports H.R. 2018, with recommendations:
    The VFW supports revising 38 CFR 38.632 to allow agencies outside a 
veteran's or descendant's next-of-kin (NOK) to request a headstone or 
grave marker from the Department of Veterans Affairs (VA) to 
commemorate an eligible veteran. The VFW encourages the Committee to 
ensure federal policy properly balances the desires of the veteran's 
family and those who seek to appropriately memorialize those who 
served, with the religious beliefs of the veteran.
    On July 1, 2009, the VA redefined who may apply for a government-
furnished headstone or marker for an eligible veteran or family member. 
The VA's newest definition limits eligibility to apply for a headstone 
or marker to the NOK or a descendant of the NOK. The VFW appreciates 
the intent behind the regulation, which ensures that family members are 
included in the decision-making process for memorializing loved ones. 
However, the VFW also believes that deceased veterans deserve marked 
and well-maintained grave sites in the absence of NOK or descendants. 
To balance these two notions, the VFW recommends the Committee make two 
changes to the bill's language:
    First, the VFW suggests language should be included that affords 
the descendants of veterans who served during WWI or in previous wars 
the right to have a headstone or marker removed or replaced if it was 
not requested by NOK. As written, the legislation provides that ``any 
person'' may request a headstone or marker for a veteran who served on 
active duty 62 years prior to the request date for a marker. This 
language would permit an historian to request a headstone for a veteran 
who dies in 2014, but who served in Korea 63 years ago, without the 
consent of the veteran's family. The VFW believes it is safe to presume 
that those who served during WWII and after still have living children 
or grandchildren who should be consulted before a marker is ordered. 
However, an outside agent should be permitted to request a headstone or 
marker for any veteran if the applicant can prove the veteran has no 
direct living descendants.
    Second, the VFW urges the committee to ensure the legislation does 
not imply that an ``emblem of belief'' is required to be included on a 
headstone or marker. Currently, the legislation reads that ``in the 
case of a request for a headstone or marker under this section for a 
decedent for whom insufficient information exists regarding the 
religious beliefs of the individual . . . the person requesting the 
headstone or marker may request a headstone or marker without an emblem 
of belief'' (EOB). The VFW believes that any outside agency must prove 
that the veteran desired an EOB on his or her headstone or marker 
before a request for an EOB is granted, unless otherwise approved by a 
descendant of the veteran. This change will ensure the religious 
freedoms of the veteran are honored.
    The VFW supports the intent of H.R. 2088, but has concerns:
    The VFW appreciates the idea to boost support for the best 
performing regional offices in order to focus additional attention on 
the most complex and time-consuming medical conditions, which is 
intended to reduce processing times and error rates of disability 
claims. However, the VFW is concerned that the pilot may have 
unintended consequences, mainly the adverse effect it could have on 
Veterans Service Organization's (VSO) representation activities.
    The Veterans Benefits Administration (VBA) now has the 
technological tools to assess the capacity of offices to handle more 
work and move work to those locations. The VBA is already increasingly 
transferring cases from offices with high workloads to those more 
capable of processing the work more quickly--as would occur under this 
legislation. It makes sense that as the VA ``brokers'' more claims or 
parts of claims, they identify specific regional offices to adjudicate 
complicated medical conditions, as this legislation seeks to achieve.
    However, we know that shifting claims away from the veterans' 
geographic area has unintended consequences. Brokering can interfere 
with VSO representational activity, which benefits from the close 
proximity between service officers and VA personnel. Such proximity 
allows for problems to be fixed quickly and informally, helping 
veterans avoid unnecessary appeals and receive benefits quicker. 
Currently, service officers have no ability to identify which cases 
have been brokered or the status of those cases unless they search 
cases one by one. We urge Congress to develop policies which mitigate 
the negative effects of brokering.
    Before this or a similar pilot moves forward, VA must devise 
adequate workload management tools for VSOs. VSOs need to receive 
electronic notification of work performed on claims, and unfettered 
access to electronic claim files, and access to the VA personnel 
handling the brokered work. It is critical that the pilot does not 
leave VSO service officers behind.
    The VFW supports H.R. 2119, with recommendations:
    The VFW believes that video teleconferencing (VTC) should be the 
default method for hearings before the Board of Veterans' Appeals. 
Although conducting hearings through VTC will expedite the adjudication 
of claims and eliminate substantial travel costs to the veteran and VA, 
we feel strongly that veterans should have the opportunity to elect to 
attend the hearing in person. We recommend the committee amend the bill 
to indicate that the VA must notify the veteran of his or her right to 
an in-person hearing and ``shall'' grant such a request.
    The VFW supports H.R. 2529, with a recommendation:
    The bill amends Title 38 to ensure all veterans have equal access 
to VA benefits. We recommend that the Committee amend section 103(c) of 
such title by striking ``according to'' and all that follows to the 
period at the end and inserting ``in accordance with section 101(31)'' 
of this amendment title; otherwise, the rest of the legislation is 
moot. With this amendment, the VFW supports the bill.
    The VFW supports H.R. 3671:
    Currently, VA may furnish a medallion on a headstone or marker for 
graves that are marked with a private headstone or marker for veterans 
who died on or after November 1, 1990. This bill rightfully expands 
this honor to all veterans regardless of their date of death. The VFW 
fully supports the legislation.
    The VFW opposes H.R. 3876:
    The VFW believes that all veterans should be buried in an honorable 
manner that is reflective of the individual's sacrifice, regardless of 
their financial situation. The VFW has provided over a thousand 
qualified homeless veterans with honorable burials in VA or state 
cemeteries free of charge, with assistance from Dignity Memorial's 
Homeless Veterans Burial Program.
    The VFW appreciates the intent of H.R. 3876, which seeks to ensure 
homeless veterans are buried with honor by establishing a grant program 
within the VA for burial of homeless veterans. This bill would allow 
private companies to be reimbursed for all interment costs of eligible 
homeless veterans, including the preparation of the body, 
transportation, clothing, casket and coordination of the funeral 
service. The VFW believes this to be unnecessary, and would cause a 
disparity in benefits between veterans with no next of kin and those 
with families.
    Thanks to the work of this committee, VA coordinates interment with 
local medical examiners and agencies, to ensure that eligible veterans 
with no next-of-kin are laid properly to rest in one of VA's 131 
national cemeteries. The VA will partially reimburse families or 
funeral homes for burial and funeral costs of any eligible veteran. In 
cases where there is no next-of-kin, the VA provides a casket, urn, or 
another acceptable burial container. In addition, eligible veterans 
receive a gravesite at any national cemetery with available space, 
opening and closing of the grave, perpetual care, a headstone or 
marker, a burial flag, and a Presidential Memorial Certificate, at no 
cost. The VFW does not believe the VA should grant additional memorial 
benefits to a veteran based on the individual's personal circumstances.
    The VFW believes that the current memorial benefits are sufficient 
to ensure a dignified burial for any veteran, including homeless 
veterans, with one exception. As of January 10, 2014, the VA can no 
longer pay the cost of transporting the remains of certain deceased 
veterans to State, Tribal, or private cemeteries. The VFW believes the 
Committee should expand VA's current authority to pay for the cost of 
transporting the remains of certain deceased veterans to the closest 
National cemetery for burial to include transportation for burials in a 
State or Tribal cemetery, and a private cemetery when appropriate.
    The VFW strongly supports H.R. 4095:
    Disabled veterans, as well as their surviving spouses and children, 
depend on their disability and dependency and indemnity compensation to 
bridge the gap of lost earnings and savings that their disability has 
caused. Each year, veterans wait anxiously to find out if they will 
receive a cost-of-living adjustment (COLA). There is no automatic 
trigger that increases these forms of compensation for veterans and 
their dependents. Annually, veterans wait for Congress to provide the 
same adjustment that is automatic to Social Security and other Federal 
beneficiaries.
    The VFW supports this legislation that will bring parity to VA 
disability and survivor recipients' compensation by providing a COLA 
beginning December 1, 2014, so long as VA disability, pension, and 
survivor benefits continue to be calculated with the currently used 
Consumer Price Index-W and not be adjusted to the Chained Consumer 
Price Index.
    The VFW strongly supports H.R. 4102:
    H.R. 4102 will allow payments issued on the date of the veteran's 
death to be awarded to the veteran's estate, consistent with general 
principles of estate law.
    Sometimes, disability claims are not approved by VA until after the 
claimant dies. In 2013, the VA paid $437 million in retroactive 
benefits to survivors of nearly 19,500 veterans who died while waiting 
for benefits. This represents a dramatic increase from 2000, when the 
widows, parents, and children of fewer than 6,400 veterans were paid 
$7.9 million for claims filed before their loved one's death. Long wait 
times are contributing to tens of thousands of veterans being approved 
for disability benefits only after they are dead.
    To make matters worse, under current law, only a veteran's spouse, 
children under the age of 18, and parents are eligible to receive 
retroactive VA disability benefits compensation in the event of a 
veteran claimant's death. This means veterans who have fought VA until 
their death, over benefits they earned with their service, are unable 
to pass their benefits to their adult children. In many cases, the 
adult children act as the veteran's caregiver, and should be entitled 
to the veteran's disability benefit if the veteran dies before ever 
receiving compensation from VA.
    The VFW supports the intent of H.R. 4141:
    Beginning in 1991, Congress authorized VA to enter into Enhanced-
Use Leases (EUL) to better serve our Nation's veterans. Through EUL 
cooperative arrangements with other public and private entities, VA 
transformed empty and underutilized property into constructive projects 
that contribute to VA's mission. However, when Congress extended VA's 
EUL authority in 2012, Congress limited VA's leasing authority to only 
building supportive housing.
    The limited EUL authority impedes VA's capacity to enter into a 
wide variety of contracts that would benefit veterans, including the 
ability of organizations to build veterans memorials on National 
Cemetery Administration (NCA) property. While the VFW agrees that NCA 
should have the ability to enter in EULs for the purposes of 
constructing memorials, as this legislation would do, the VFW believes 
that Congress should give the entire Department the authority to enter 
into innovative public or private agreements.
    The VFW strongly supports H.R. 4191:
    Consistent with the Independent Budget co-authored by the VFW, we 
believe Congress should immediately ``pass legislation to require that 
private medical evidence be given due deference when it is competent, 
credible, probative, and otherwise adequate for rating purposes.''
    Undersecretary Hickey has taken significant action in recent years 
to ensure VA Regional Offices break down bureaucratic hurdles that 
veterans face when applying for benefits, including maximizing the use 
of private medical evidence. The VBA eliminated work credit for VA 
Rating Specialists who request superfluous compensation medical exams. 
For this reason, VA may claim the legislation is ``unnecessary and 
duplicative.'' However, we have found that some employees still resist 
giving private medical evidence the same weight as VA medical evidence.
    To further support efforts to encourage the use of private medical 
evidence, Congress should amend title 38, section 5103A(d)(1) to 
provide that, when a claimant provides private medical evidence 
adequate for rating purposes, the Secretary shall not request a VA 
medical examination. This will encourage the VBA to make greater use of 
private medical evidence when making claims decisions, which would help 
eliminate the months that veterans spend waiting for medical 
examinations; and also save the VHA the cost of unnecessary 
examinations, and reducing appointment wait times, making this a win-
win for both VA and veterans.
    Mr. Chairman, this concludes my testimony, and I look forward to 
answering any questions you and the subcommittee may have.
    Information Required by Rule XI2(g)(4) of the House of 
Representatives
    Pursuant to Rule XI2(g)(4) of the House of Representatives, VFW has 
not received any federal grants in Fiscal Year 2013, nor has it 
received any federal grants in the two previous Fiscal Years.

                                 <F-dash>

     Prepared Statement of Thomas Murphy, and Patricia Lynch Watts

    Mr. Chairman and Members of the Subcommittee, thank you for 
inviting us here today to present our views on several bills that would 
affect Department of Veterans Affairs (VA) benefits programs and 
services. Accompanying me today are Ms. Patricia Lynch Watts, Director, 
Legislative and Regulatory Service, and Mr. David Barrans, Deputy 
Assistant General Counsel.
    At this time, cost estimates are not available for the following 
bills: H.R. 2088, H.R. 2529, H.R. 3671, H.R. 4102, H.R. 4141, and H.R. 
4191.

H.R. 2018

    Section 2(a) of H.R. 2018, the ``Honor Those Who Served Act of 
2013,'' would amend section 2306 of Title 38, United States Code 
(U.S.C.), to specify the persons who are eligible to request a 
headstone or marker to commemorate an eligible decedent. More 
specifically, the bill would make the following individuals eligible to 
request a headstone or marker: (1) The decedent's next-of-kin (NOK); 
(2) a person authorized in writing by the NOK; (3) a personal 
representative authorized in writing by the decedent; (4) when there is 
no known NOK or authorized representative, specified persons and 
entities familiar with the research sources and methods necessary to 
prove the identity of the decedent; or (5) in the case of a Veteran who 
served on active duty in the Armed Forces at least 62 years prior to 
the date on which the headstone or marker is requested, any person. 
Section (2)(a) of the bill would also specify that, under certain 
circumstances, a person requesting a headstone or marker may request 
that the headstone or marker be furnished without an emblem of belief. 
The amendments made by the bill would apply with respect to a request 
for a headstone or marker submitted after the date of enactment of the 
bill.
    VA does not support H.R. 2018 because we believe the issue would be 
better addressed through the regulatory process. We interpret 
Congressional intent to be to ensure that there are no unmarked graves 
of Veterans. We share that goal and seek to ensure public input into 
the revised definition that is achievable through the issuance of a 
proposed rule.
    VA is in the process of substantially rewriting the regulations 
governing the benefits administered by NCA, including the regulation 
governing applications for headstones and markers. The current 
headstone and marker application process is governed by section 38.632, 
title 38, Code of Federal Regulations (C.F.R.), which defines an 
``applicant'' to mean the decedent's NOK, a person authorized in 
writing by the NOK, or a personal representative authorized in writing 
by the decedent to apply for a headstone or marker. In this way, 
section 2(a) of the bill would codify the definition of ``applicant'' 
at 38 C.F.R. Sec.  38.632(b)(1) but add two new classes of persons and 
entities eligible to apply for headstones and markers. VA promulgated 
the existing definition of an applicant to ensure that family members 
are not left out of the decision-making process for memorializing loved 
ones, a very personal matter. However, VA understands the concerns with 
the current regulatory definition of applicant, is in the process of 
drafting a proposed rule to amend the definition of applicant to 
address those concerns, and will solicit and consider comments from the 
public in connection with publication of that proposed rule.
    VA's pending regulatory process seeks to provide an effective means 
of addressing these concerns with the benefit of input from all 
affected and interested parties and will ensure that VA is able to 
adapt these policies as needed to address identified issues. We are 
concerned that certain aspects of the bill may give rise to operational 
concerns that could be avoided through rulemaking. For example, some of 
the bill's terms--such as the references to ``a local historian, or a 
genealogist or other person familiar with the research sources and 
methods necessary to prove the identity of the decedent''--are vague 
and may lead to difficulties implementing this legislation. Further, 
paragraph (h)(5) of 38 U.S.C. Sec.  2306, as would be added by this 
bill, would allow ``any person'' to request a headstone or marker for a 
Veteran who served 62 years prior to the date of the request, even if 
the Veteran died only recently and there is an NOK. This could lead to 
an increased number of competing or conflicting requests concerning the 
same Veteran. VA also has a technical concern with the bill language. 
Section 2(a) would add at the end of current section 2306 new 
subsections (h) and (i). However, section 2306 currently ends with a 
subsection (h), which specifically lists certain prohibitions on the 
provision of headstones and markers.
    VA does not have sufficient data to estimate the costs of this 
bill.

H.R. 2088

    Section 1(a) of H.R. 2088 would require the Secretary of Veterans 
Affairs to carry out a 3-year pilot program under which the Secretary 
would establish in the Department of Veterans Affairs 12 ``claims 
adjudication centers of excellence'' (COE). Section 1(b) of the bill 
would direct the Secretary to select as the locations of the COEs the 
three highest performing regional offices in each of the four areas of 
VBA. The bill would also direct the Secretary to evaluate performance 
based upon the quality and accuracy of ratings of each of the regional 
offices and the average number of days a claim submitted to each of the 
regional offices is pending.
    Section 1(c) of the bill would require each of the selected COEs to 
focus on adjudicating claims relating to one medical condition selected 
by the Secretary of Veterans Affairs; such conditions would be selected 
based on being ``among the most complex and time consuming'' for 
adjudication purposes. Section 1(d) would require each employee of a 
COE to receive specific training related to the selected medical 
condition for his or her COE and focus on that condition to the extent 
practicable. Section 1(d)(3) would authorize the Secretary to assign 
additional full-time employees to a COE and allow the director of the 
regional office from which the employee came to hire an additional 
full-time employee at the regional office. Section 1(e) of the bill 
would require the Secretary to select the medical conditions not later 
than 90 days after the date of enactment of the Act.
    Although VA recognizes value in creating COEs, VA does not support 
this bill. For COEs to be successful, every aspect of claims processing 
must occur electronically. While disability compensation claims are 
processed electronically in the Veterans Benefits Management System 
(VBMS), functionality to support workload management at the detailed 
level that would be required to create COEs as specified in the bill is 
not scheduled to be released until fiscal year (FY) 2015. In addition, 
VA is concerned about selecting COEs based only on rating accuracy and 
the average number of days claims have been pending at a point in time. 
These measures vary by reporting period and do not reflect several 
other factors that would need to be considered in defining the 
``highest performing regional offices'' in each area.
    Further, VA is currently in the process of implementing various 
initiatives focused on improving claims processing accuracy and 
efficiency. VBA is developing the National Work Queue (NWQ), a 
paperless workload management initiative designed to improve VBA's 
overall production capacity and assist with reaching the Secretary's 
goals of completing all claims in 125 days at a 98-percent accuracy 
level in 2015. The NWQ is being implemented in a three-phased approach. 
The initial Transition Phase is currently underway and builds upon the 
success of the workload management strategy employed under VBA's Oldest 
Claims Initiative. Starting in FY 2015, as workload management 
functionality is deployed in VBMS, VBA will begin the second phase, to 
centrally manage and distribute the claims inventory from the national 
level. In this phase, VBA will still distribute work to regional 
offices at the claim level rather than at the issue level. In the final 
phase, following further VBMS development, individual issues will be 
routed, nationally, to individual employees, based on the nature of the 
claim and the skill set of the particular claims processor.
    VBA has also reorganized its workforce into cross-functional teams 
that work together on one of three segmented lanes: express, special 
operations, and core. These lanes are based on the complexity and 
priority of claims. Employees are assigned to lanes based on their 
experience and skill levels. Each regional office has a Special 
Operations Lane that applies intense focus and case management on 
specific categories of claims, such as claims from Veterans who are 
homeless, terminally ill, former Prisoners of War, or seriously 
injured. Employees in the Special Operations Lane receive specialized 
training on these types of claims.
    VBA continues to invest in numerous people, process, and technology 
initiatives to eliminate the claims backlog and plans to revisit the 
concept of a COE pilot in FY 2016. However, creating COEs before this 
timeframe would force VBA to redirect vital resources and hinder our 
ability to achieve its FY 2015 timeliness and quality goals.
    Costs related to this bill are not available at this time.

H.R. 2119

    Section 2(1) of H.R. 2119, the ``Veterans Access to Speedy Review 
Act,'' would amend section 7107 of title 38, U.S.C., to allow the Board 
of Veterans' Appeals (Board) to determine, for purposes of scheduling a 
hearing for the earliest possible date, whether the hearing will be 
held at the Board's principal location or at an appropriate Federal 
facility located within the area served by a regional office of the 
Department, and also whether to provide a hearing through the use of 
video conferencing. Section 2(1) would also permit the appellant to 
request a different location or type of hearing upon notification of 
the Board's determination and give the Board discretion to grant such a 
request. Section 2(2) of the bill would remove the provision in 
paragraph (e)(2) of section 7107 that states that, if an appellant 
declines to participate in a hearing through use of electronic means, 
the opportunity for a hearing before the Board at its principal 
location or at an appropriate Federal facility located within the area 
served by a regional office of the Department will not be affected.
    VA fully supports H.R. 2119, as this legislation would potentially 
decrease hearing wait times for Veterans, enhance efficiency within VA, 
and better focus Board resources toward issuing decisions. The Board 
has historically been able to schedule video conference hearings, more 
quickly than in-person hearings, saving valuable time in the appeals 
process. In FY 2013, on average, video conference hearings were held 
110 days sooner than in-person hearings. H.R. 2119 would allow both the 
Board and Veterans to benefit from these time savings by giving the 
Board greater flexibility to schedule video conference hearings than is 
possible under the current statutory scheme.
    Enactment of H.R. 2119 could also lead to increased productivity at 
the Board. Time lost due to travel and time lost in the field due to 
appellants failing to appear for their hearing would be greatly 
reduced, allowing Veterans Law Judges (VLJ) to better focus their time 
and resources on issuing decisions. The time saved for VLJs could 
translate into faster issuance of Board decisions for Veterans. 
Historical data also shows that there is no statistical difference in 
the ultimate disposition of appeals based on the type of hearing held. 
Veterans who had video conference hearings had an allowance rate for 
their appeals that was virtually the same as Veterans who had in-person 
hearings. H.R. 2119 would, however, still afford Veterans who want an 
in-person hearing the opportunity to specifically request one.
    Finally, major technological upgrades to the Board's video 
conference hearing equipment over the past several years makes the 
Board well-positioned for the enactment of H.R. 2119. This includes the 
purchase of high-definition video equipment and state-of-the art 
digital audio recording system, implementation of a virtual hearing 
docket, and significantly increased video conference hearing capacity. 
Enactment of H.R. 2119 would allow the Board to better leverage these 
important technological enhancements.
    VA estimates that this bill would result in a reduction in travel 
expenses over time. However, without knowing the number of remote 
hearings or the reduction in travel Board hearings that would be 
provided under the enhanced authority in this bill, VA cannot provide 
specific cost estimates.

H.R. 2529

    H.R. 2529, the ``Veteran Spouses Equal Treatment Act,'' would amend 
section 101 of title 38, U.S.C., to amend the definitions of 
``surviving spouse'' and ``spouse'' for purposes of title 38. 
Specifically, the bill would remove from the definition of ``surviving 
spouse'' the phrase ``of the opposite sex,'' and amend the definition 
of ``spouse'' to provide that ``an individual shall be considered a 
`spouse' if the marriage of the individual is valid in the State in 
which the marriage was entered into or, in the case of a marriage 
entered into outside any State, if the marriage is valid in the place 
in which the marriage was entered into and the marriage could have been 
entered into in a State.'' The bill would define ``State'' the same as 
that term is defined in section 101(20) of title 38, U.S.C., for 
purposes of title 38, but include also ``the Commonwealth of the 
Northern Mariana Islands.''
    VA generally supports the passage of this bill, but has some 
concerns with the bill's language. Current section 101(3) and (31) of 
title 38, U.S.C., limit the definitions of ``surviving spouse'' and 
``spouse'' for purposes of title 38 to only a person of the opposite 
sex of the Veteran. The language in these provisions is substantively 
identical to the language in section 3 of the Defense of Marriage Act 
(DOMA), 1 U.S.C. Sec.  7, which the Supreme Court, in United States v. 
Windsor, 133 S. Ct. 2675 (2013), declared to be unconstitutional 
because it discriminates against legally-married, same-sex couples. On 
September 4, 2013, the United States Attorney General informed Congress 
that the President had directed the Executive Branch to cease 
enforcement of sections 101(3) and (31) of title 38 to the extent that 
those provisions preclude the recognition of legally-valid marriages of 
same-sex couples. Pursuant to the President's direction, VA is no 
longer enforcing the title 38 provisions to the extent that they 
require a ``spouse'' or a ``surviving spouse'' to be a person of the 
opposite sex. Therefore, VA supports this bill as a means to amend the 
law to be consistent with the Supreme Court's decision and the 
President's directive. In particular, VA supports the removal of the 
requirement that a ``spouse'' or a ``surviving spouse'' be a person of 
the opposite sex from paragraphs (3) and (31) of section 101.
    VA supports the general intent of section 2(2) of the bill to 
revise the criteria for determining the validity of a marriage. 
However, to further the goals of this bill and to avoid ambiguity 
regarding the applicable standard, we recommend that the bill also 
address section 103(c) of title 38, U.S.C, which provides that, in 
determining whether or not a person was a spouse of a Veteran, 
``marriage shall be proven as valid for the purposes of all laws 
administered by the Secretary according to the law of the place where 
the parties resided at the time of the marriage or the law of the place 
where the parties resided when the right to benefits accrued.'' Section 
103(c) is specific to title 38 and is different than the standard used 
by nearly all other Federal agencies, including the Department of 
Defense. Further, while VA supports the bill's intent to change to the 
current marriage-validity criteria, VA is concerned that the marriage-
validity criteria in section 2(2) of the bill may be overly 
restrictive. For example, VA notes that the bill is silent as to the 
applicability of tribal law to marriage validity. Under section 103(c), 
tribal law would be considered as ``the law of the place where the 
parties resided.'' However, under H.R. 2529, VA would only consider the 
law of the ``State'' in determining if a marriage is valid for the 
purpose of Veterans' benefits. This could lead to the exclusion of some 
couples with valid marriages under tribal law. VA welcomes the 
opportunity to work with the Committee on this bill.
    Costs related to this bill are not available at this time.

H.R. 3671

    H.R. 3671 would amend section 2306 of title 38, U.S.C., to extend 
eligibility for a medallion furnished by VA in order to signify the 
deceased's status as a Veteran regardless of date of death. Public Law 
110-157 gave VA authority to ``furnish, upon request, a medallion or 
other device of a design determined by the Secretary to signify the 
deceased's status as a veteran, to be attached to a headstone or marker 
furnished at private expense,'' for eligible Veterans who died on or 
after November 1, 1990. H.R. 3671 would remove the date of death 
limitation by codifying in statute that eligibility exists regardless 
of date of death.
    VA strongly supports the concept to expand eligibility for the 
medallion benefit, however, VA requests the Committee amend versus 
remove the current eligibility date of November 1, 1990. VA would 
greatly support an amendment to provide eligibility for individuals who 
served ``on active duty on or after April 6, 1917.'' Since VA began 
providing the medallion benefit in 2009, the vast majority (91 percent) 
of those claims were denied because the otherwise eligible Veteran died 
between 1960 and 1990. Additionally, there are more than 4.5 million 
deceased Veterans with service prior to April 6, 1917, which is the 
date the United States formally entered World War I. These Veterans 
could become eligible for the medallion benefit which could 
significantly impact the landscape of historic cemeteries and the 
historic headstones marking the graves of those who served prior to 
this date as well as impact the ability of NCA and other entities to 
comply with historic preservation and Federal stewardship statutes and 
regulations.
    Costs related to this bill are not available at this time.

H.R. 3876

    H.R. 3876, the ``Burial with Dignity for Heroes Act of 2014,'' 
would amend Chapter 20 of Title 38, U.S.C., to add a new section 2067, 
which would direct the Secretary of Veterans Affairs to carry out a 
program to make grants to eligible entities to provide for the cost of 
burials for homeless Veterans who are eligible to be buried in a 
national cemetery and have no NOK, as determined by the Secretary. To 
be eligible to receive a grant under this provision, an entity would 
submit to the Secretary ``an application containing such information 
and assurances as the Secretary determines appropriate.''
    VA does not support H.R. 3876 because the bill is unnecessary, and 
may be confusing, given existing statutory and regulatory authority. VA 
strongly supports the objective of ensuring that those who have earned 
the right to burial in a national, state, or tribal Veterans cemetery 
are accorded that honor. However, VA has long provided in regulation, 
at 38 C.F.R. Sec.  3.1603, for a burial and plot or interment allowance 
for unclaimed remains of deceased Veterans. Further, Public Law 112-
260, the ``Dignified Burial and Other Veterans' Benefits Improvement 
Act of 2012,'' specifically provided the Secretary authority to furnish 
a casket or urn for a deceased Veteran when the Secretary is unable to 
identify the Veteran's NOK and determines that sufficient resources for 
the furnishing of a casket or urn for the burial of the Veteran in a 
national cemetery are not otherwise available. It is unclear from the 
language of H.R. 3876 the precise intent of the grant program and what 
benefits would be provided that are not currently provided by VA.
    VA cannot estimate costs at this time given the uncertainty 
regarding the specific intent of the grant program with respect to what 
benefits would be provided for burial of the unclaimed remains of 
Veterans. In addition, without an understanding of the intended scope 
of the program, VA cannot estimate the resources and costs potentially 
involved in administration of the grant program.

H.R. 4095

    H.R. 4095, the ``Veterans' Compensation Cost-of-Living Adjustment 
Act of 2014,'' would require the Secretary of Veterans Affairs to 
increase, effective December 1, 2014, the dollar amounts for payment of 
disability compensation, the clothing allowance, and dependency and 
indemnity compensation. This bill would increase these rates by the 
same percentage as the percentage by which Social Security benefits 
under title II of the Social Security Act are increased, effective 
December 1, 2013. Each dollar amount increased, if not a whole dollar 
amount, would be rounded to the next lower whole dollar amount. 
Finally, the bill would also require VA to publish the resulting 
increased rates in the Federal Register.
    VA strongly supports this bill because it would express, in a 
tangible way, this Nation's gratitude for the sacrifices made by our 
service-disabled Veterans and their surviving spouses and children and 
would ensure that the value of their well-deserved benefits will keep 
pace with increases in consumer prices.
    VA notes it has included in its own legislative proposals for FY 
2015 a 5-year extension of the round-down authority referred to above, 
which is carried forth for 1 year in H.R. 4095. We also note that prior 
bills authorizing cost-of-living adjustments to these benefits have 
consistently provided that the increase in VA benefits on December 1 
would be an increase from the dollar amounts in effect on November 30 
of the same year and correspond to the percent increase in Social 
Security benefits taking effect on December 1 of the same year. In 
contrast, this bill would provide that the increase in VA benefits on 
December 1, 2014, would be an increase from the dollar amounts in 
effect on November 30, 2013, and correspond to the increase in Social 
Security benefits that took effect on December 1, 2013. In view of the 
consistent past practice, we believe the references to ``2013'' in 
section (2)(a) and section 2(c)(1) of the bill may be inadvertent and 
should be changed to ``2014''.
    VA estimates that the rounding provision of the bill would result 
in cost-savings of $30 million in 2015, $189.6 million over 5 years, 
and $414.5 million over 10 years. VA's cost estimates assume that the 
references to 2013 in the bill were inadvertent and therefore, based on 
estimated FY 2015 average payments for the subject benefits.

H.R. 4102

    Section 1(a) of the draft bill would add the estate of a deceased 
claimant to the priority-ordered list of eligible recipients of accrued 
benefits under 38 U.S.C. Sec.  5121, as long as the estate would not 
escheat. The amendments made by this section would apply to deaths 
occurring on or after the date of enactment of the bill.
    Section 1(c) of the draft bill would require the Secretary of 
Veterans Affairs to pay to the estate of Shelton Hickerson $377,342, 
representing the benefit awarded to Mr. Hickerson on the date of his 
death.
    VA does not support H.R. 4102. In 1943, Congress enacted Public Law 
78-144 and established, in what would become section 5121, a process by 
which certain Survivors could receive some portion of a Veteran's 
accrued benefits. Since 1943, Congress has generally limited the 
payment of accrued benefits to surviving spouses, dependent children, 
and persons who paid for the expenses of the Veteran's last sickness 
and burial.
    By adding estates to the line of succession, VA would be required, 
in effect, to pay Veterans benefits for the benefit of persons or 
organizations that were not dependents of the Veteran at the time of 
death, such as adult children, charities, and creditors. In addition, 
when there is an estate that would not escheat, VA would no longer be 
able to reimburse persons who incurred the Veteran's last sickness and 
burial expenses because the estate would have priority over a person 
who incurred such expenses.
    VA regrets that it was unable to pay Mr. Hickerson all of his 
benefits before his death. However, VA opposes section 1(c) of the 
draft bill requiring that it pay the estate of Mr. Hickerson accrued 
benefits because such payment would treat his case differently from 
other similarly situated Veterans.
    VA also opposes the draft bill as it would potentially expand the 
eligibility to substitute under 38 U.S.C. Sec.  5121A, ``Substitution 
in case of death of claimant,'' because ``a living person who would be 
eligible to receive accrued benefits due to the claimant under section 
5121(a)'' may request to substitute for the deceased claimant in a 
pending claim or appeal. In this way, the executor of a Veteran's 
estate could request to substitute for the Veteran to complete a claim 
or appeal pending at the time of the Veteran's death.
    Costs related to this bill are not available at this time.

H.R. 4141

    H.R. 4141 would amend section 8162 of title 38, U.S.C., to expand 
the authority of the Secretary of Veterans Affairs to enter into 
enhanced-use leases. Presently, enhanced-use lease authority is limited 
to leases for the provision of supportive housing. The bill would allow 
the Secretary of Veterans Affairs to enter into enhanced-use leases 
``only if the lease is not inconsistent with and will not adversely 
affect the mission of the Department for--(A) the provision of 
supportive housing; or (B) other purposes, only in the case of excess 
property of the National Cemetery Administration that is unsuitable for 
burial purposes.'' The expanded authority would apply to leases entered 
into after the date of enactment of the Act.
    VA would welcome the opportunity to work with the Committee on this 
bill. VA's understands that the goal of the bill is to allow memorial 
halls, pavilions, and memorials to be built to show respect for the 
honor, courage, and commitment of Veterans. We note that, if one aim of 
the bill is to facilitate the placement of memorials or other 
enhancements to cemetery grounds paid for by private funds, NCA already 
has specific donation authority under current law to accomplish that 
end. Specifically, 38 U.S.C. Sec.  2407, titled ``[a]uthority to accept 
and maintain suitable memorials,'' allows VA to accept donations ``made 
in any manner, which are made for the purpose of beautifying national 
cemeteries, or are determined to be beneficial to such cemetery.'' In 
addition, our national cemeteries are maintained as national shrines in 
honor of all who served our Nation. Thus, the construction of memorial 
halls, pavilions, and memorials under enhanced-use lease agreements, 
while feasible, needs to consider what would happen to the structures 
at the end of such leases.
    Moreover, VA believes that the bill should allow for enhanced-use 
leases for ``other purposes'' on any and all underutilized and/or 
vacant VA-controlled properties. VA proposed such an authority in its 
FY 2015 budget, which would allow the Department to pursue enhanced-use 
leases for purposes beyond supportive housing, similar to the broader 
authority that existed prior to December 2011. To the extent the bill 
is not broadened to authorize enhanced-use leases for VA-controlled 
properties in addition to NCA property, VA has a concern regarding the 
phrase ``unsuitable for burial purposes'' in section 1(a) on page 2, 
line 18, of the bill. VA believes that this criterion for use of an 
enhanced-use lease would be easier to implement operationally if it 
read ``not needed for burial purposes for the duration of the lease.''
    Further, VA has a technical concern regarding the bill language 
establishing the criteria for entering into an enhanced-use lease. As 
noted above, section 1(a)(1) of the bill would provide that the 
Secretary of Veterans Affairs may enter into an enhanced-use lease 
``only if the lease is not inconsistent with and will not adversely 
affect the mission of the Department for--(A) the provision of 
supportive housing; or (B) other purposes, only in the case of property 
of the National Cemetery Administration that is unsuitable for burial 
purposes.'' However, by leading into subparagraphs (A) and (B) with 
``for--,'' the language suggests that the lease cannot conflict with 
the Department's mission for the purposes listed in those 
subparagraphs. For example, read literally, this language might suggest 
that VA may enter into any enhanced-use lease that would not conflict 
with or adversely affect the mission of the Department for ``the 
provision of supportive housing.'' We do not believe that this is the 
intent of the bill. To the extent the intent of the bill is to allow 
for the use of enhanced-use leases for ``the provision of supportive 
housing'' or ``other purposes, only in the case of excess property of 
[NCA] that is unsuitable for burial purposes,'' but only if the lease 
is not ``inconsistent with and will not adversely affect the mission of 
the Department,'' the language of the bill should be revised.
    Costs related to this bill are not available at this time.

H.R. 4191

    Section 2 of H.R. 4191, the ``Quicker Veterans Benefits Delivery 
Act,'' would amend section 5125 of title 38, U.S.C., to require VA to 
accept a report of medical examination from a non-VA physician provided 
by a claimant in support of a claim for benefits if the report is 
sufficiently complete to be adequate for the purpose of adjudicating 
such claim. Section 2 of the bill would also define the phrase 
``sufficiently complete'' to mean ``competent, credible, probative, and 
containing such information as may be required to make a decision on 
the claim for which the report is provided.'' These amendments would 
apply to medical evidence submitted after the date that is 90 days 
after the date of enactment of the Act.
    Section 3 of the bill would require the Secretary of Veterans 
Affairs, not later than 180 days after the date of enactment of the 
Act, to submit a report to Congress regarding the ``Acceptable Clinical 
Evidence (ACE) initiative'' of VA ``in reducing the necessity for in-
person disability examinations and other efforts to comply with the 
provisions of section 5125 of title 38, U.S.C., as amended by section 2 
of the Act. Finally, section 4 of the bill would require the Secretary 
to submit to Congress, on an annual basis, a report containing specific 
information from each regional office regarding Veteran claims 
involving private medical evidence.
    VA does not support H.R. 4191. VA appreciates the general intent of 
the bill, which seeks to provide benefits to Veterans more 
expeditiously. However, as written, the legislation is unnecessary and 
would be problematic to implement. Section 2 of the bill would prohibit 
VA from requesting a medical examination when evidence submitted is 
adequate for rating purposes. Currently, section 5103A(d)(2) of title 
38, U.S.C., provides that an examination or opinion is only required 
when the record does not contain sufficient medical evidence to make a 
decision. Furthermore, 38 U.S.C. Sec.  5125 already explicitly states 
that private examinations may be sufficient, without conducting 
additional VA examinations, for adjudicating claims. Consistent with 
these statutory requirements and VA's implementing regulation at 38 
C.F.R Sec.  3.159(c)(4), VA requests medical examinations only if the 
record does not contain sufficient medical evidence to decide the 
claim. Therefore, this section is unnecessary. VA is already allowed to 
adjudicate a claim without an examination if evidence is provided by 
the claimant that is adequate for rating purposes.
    Regarding sections 3 and 4 of the bill, VA maintains data 
concerning the number of examinations in which ACE is used. However, VA 
does not track the number of claims eligible for ACE that required 
additional evidence obtained through a telephone interview or whether 
private medical evidence is sufficient or insufficient for rating 
purposes.
    No costs are associated with section 2 of the bill as VA already 
has this authority in existing law. Costs related to sections 3 and 4 
of this bill are not available at this time.
    This concludes my statement, Mr. Chairman. Thank you for the 
opportunity to appear before you today. I would be happy to answer any 
questions you or the other Members of the Subcommittee may have.

                                 <F-dash>

                       Statement for the Record:

                    Hon. Steve Daines, (Mt-At Large)

    As a cosponsor of H.R. 2018, The Honor Those Who Served Act, I 
believe it is critical that Congress passes this legislation to ensure 
that our veterans are provided with the honor and respect they deserve. 
I thank Chairman Runyan and Ranking Member Titus for holding a hearing 
on this important legislation.
    Last year, some very troubling stories came to my attention from my 
state of Montana. At the Yellowstone County Veteran's Cemetery in 
Laurel, Montana, four recently buried veterans did not have a grave 
marker. In each of these cases all of the proper proof of service was 
presented but they were denied. The VA explained that with the 
exception of state or national cemeteries, all requests for a headstone 
must be signed by the veteran or the veteran's next of kin.
    I understand we want to fulfill the wishes of veterans and make 
sure their final resting place does not include any markings that the 
veteran would not want. But surely we should not have a policy so 
inflexible that it essentially prohibits well-meaning veterans groups 
and historians from honoring veterans who may be unaware of the rigid 
VA requirements.
    Furthermore, veteran groups such as Missing in America and The 
Patriot Guard Riders stand ready to honor fallen veterans and have done 
so in the past. But because of the current VA policy, they can no 
longer provide a headstone to help honor the service and sacrifices of 
our veterans.
    But perhaps most compelling, there are an estimated two hundred 
thousand homeless veterans, and the current VA policy is especially 
detrimental to those veterans who had no close family members to claim 
them when they passed. The Honor Those Who Served Act would be 
significant step forward in addressing this wrong and would help ensure 
that no veteran is left without an appropriate and respectful headstone 
honoring their commitment and service to our country.
    While I sincerely appreciate the VA's efforts in resolving the 
situation with the four deceased Montana veterans, it does not change 
the fact that it took months for the VA to correct these injustices and 
that the core flaws of the VA policy remain in place. And although the 
VA says it is working to adjust its policy, Congress cannot presume 
that any pending VA revisions will either be sufficient or finalized in 
a timely manner.
    For these reasons, I strongly support The Honor Those Who Served 
Act, and I will continue to do everything I can to enact this 
commonsense legislation.

                                 <F-dash>

                        STATEMENT FOR THE RECORD

                     PARALYZED VETERANS OF AMERICA

    Chairman Runyan, Ranking Member Titus, and members of the 
Subcommittee, Paralyzed Veterans of America (PVA) would like to thank 
you for the opportunity to offer our views on pending legislation 
before the Subcommittee.
    H.R. 2018, the ``Honor Those Who Severed Act of 2013''
    PVA supports H.R. 2018, the ``Honor Those Who Served Act of 2013.'' 
This legislation expands the list of persons who are eligible to 
request headstones or markers furnished by the Secretary of Veterans 
Affairs (VA) upon the death of a veteran.

H.R. 2088

    PVA cautiously supports the intent of H.R. 2088, a bill to direct 
the Secretary to carry out a pilot program to establish claims 
adjudication centers of excellence. While we recognize that the concept 
of this proposal is meant to improve claims adjudication work across 
the Veterans Benefits Administration, we have concerns about the 
underlying details of the legislation and the potential unintended 
consequences that may occur.
    In many ways, PVA sees this legislation as a double-edged sword. We 
see tremendous advantages in the opportunities veterans service 
organizations (VSO) could have in sharing our expertise and knowledge 
of certain illnesses helping to train VA staff. The in-depth experience 
of VSO service officers with regards to the details of specific 
illnesses and injuries and our experience in preparing claims for 
adjudication, for example with spinal cord injury or disorder (SCI/D) 
and related claims in the case of PVA members, may lead to greater 
accuracy on the part of less experienced VA staff.
    However, PVA is very concerned about regionalizing certain types of 
claims as this has often not proven very efficient. In these cases, 
some VA Regional Offices (VARO) won't get exposed to complex claims 
under this system. In the long run, this erodes the knowledge base of 
the staff as a whole. It may also lead to a single point of failure if 
a VARO handling a specific illness is disrupted by a natural or manmade 
disaster such as Hurricane Katrina, the 9/11 attack or San Francisco 
earthquake.
    H.R. 2119, the ``Veterans Access to Speedy Review Act''
    PVA supports H.R. 2119, the ``Veterans Access to Speedy Review 
Act.'' As long as there is the ability to request an in-person hearing 
that the Board would be required to honor, we believe this will benefit 
both the claimant and the Board. At veteran service organization forums 
held by the Board, there has been an ongoing emphasis on holding video 
conferences whenever possible to reduce time lost for no-shows. 
Additionally, the grant rate for video versus in-person hearings is the 
same. In fact, PVA has encouraged service officers to hold video 
conference hearings and the vast majority of PVA hearings are now held 
via video conference.
    Our only concern with the legislation is Section 2 regarding the 
appellant requesting a different location which indicates ``If so 
requested, the Board may [emphasis added] grant such request . . . '' 
This language may too broadly allow the Board to disallow the 
appellant's request. In the case of older veterans, they may feel 
uncomfortable with video conferencing, believing it is less valid. The 
Board should always defer to the veteran when determining the best 
course of action in the appeals process.
    H.R. 2529, the ``Veterans Spouses Equal Treatment Act''
    PVA has no position on H.R. 2529, the ``Veterans Spouses Equal 
Treatment Act.''

H.R. 3671

    PVA supports H.R. 3671 to expand the eligibility for a medallion 
furnished by the Secretary to signify the veteran status of a deceased 
individual. By removing any limitation due to date of death of a 
veteran, all those who served will be eligible for the recognition they 
earned through their service.
    H.R. 3876, the ``Burial with Dignity for Heroes Act of 2014''
    PVA supports H.R. 3876, the ``Burial with Dignity for Heroes Act of 
2014.'' Every veteran deserves the respect and dignity of a proper 
burial. Our only concern is with the cost of the program. It is 
critical that additional appropriations are identified to provide this 
earned benefit for those who served to avoid reducing services for 
other equally deserving veterans.
    H.R. 4095, the ``Veterans' Compensation Cost-of-Living Adjustment 
Act of 2014''
    PVA fully supports H.R. 4095, the ``Veterans' Compensation Cost-of-
Living Adjustment Act of 2014,'' that would increase, effective as of 
December 1, 2014, the rates of compensation for veterans with service-
connected disabilities and the rates of dependency and indemnity 
compensation (DIC) for the survivors of certain disabled veterans. This 
would include increases in wartime disability compensation, additional 
compensation for dependents, clothing allowance, and dependency and 
indemnity compensation for children.
    However, consistent with our position in the past, PVA cannot 
support the rounding down of increases in compensation. While our 
economy continues to struggle, veterans' personal finances have been 
affected by rising costs of essential necessities to live from day to 
day and maintain a certain standard of living. Many veterans and their 
families depend on their compensation. While this may be a small 
amount, any reduction can have a critical impact, especially when 
compounded over time, on low income veterans.

H.R. 4102

    PVA generally supports H.R. 4102 to clarify that the estate of a 
deceased veteran may receive certain accrued benefits upon the death of 
the veteran. PVA believes that benefits which would have been due to a 
veteran while they were alive are owed to the veteran or to their 
estate.
    However, PVA has concerns about singling out the estate of Shelton 
Hickerson for relief. While we understand the tragedy of Mr. Hickerson 
receiving his award on the date of his death, other veterans' families 
may have faced similar instances since the date of Mr. Hickerson's 
award who will not receive the same consideration. This issue is a 
simple matter of fairness. If the legislation is to be in any way 
retroactive, it should apply to the estates of all veterans who have 
died since the specified date.

H.R. 4141

    PVA does not support H.R. 4141 to authorize the Secretary to enter 
into enhanced-use leases for excess property of the National Cemetery 
Administration that is unsuitable for burial purposes. PVA does not see 
the purpose of this legislation and is not aware of significant issues 
for the disposition of excess property beyond what is already covered 
by Section 2407 of Title 38 as it applies to monuments. Additionally, 
draft legislation currently pending before the Health Subcommittee 
authorizing medical facility projects for FY 2014 can address issues 
for uses such as prayer gardens or rose parks.
    H.R. 4191, the ``Quicker Veterans Benefits Delivery Act''
    PVA supports H.R. 4191, the ``Quicker Veterans Benefits Delivery 
Act.'' PVA has consistently recommended that VA accept valid medical 
evidence from non-Department medical professionals. The continuing 
actions of VA to require Department medical examinations does nothing 
to further efforts to reduce the claims backlog and may actually cause 
the backlog to increase.
    Mr. Chairman, we would like to thank you once again for allowing us 
to address these important issues. We continue to look to VA to improve 
their services to veterans, but must continually caution VA that 
changes should provide greater care and services to veterans, and not 
simply increase efficiencies of processes. This is particularly true 
when considering those with catastrophic disabilities and complex 
claims.
    PVA would be pleased to take any questions for the record.
    Information Required by rule XI 2(g)(4) of the House of 
Representatives
    Pursuant to Rule XI 2(g)(4) of the House of Representatives, the 
following information is provided regarding federal grants and 
contracts.
    Fiscal Year 2013
    National Council on Disability--Contract for Services--$35,000.
    Fiscal Year 2012
    No federal grants or contracts received.
    Fiscal Year 2011
    Court of Appeals for Veterans Claims, administered by the Legal 
Services Corporation--National Veterans Legal Services Program--
$262,787.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
